<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                                 _______

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

  JOHN ABNEY CULBERSON, Texas           LUCILLE ROYBAL-ALLARD, California
  RODNEY P. FRELINGHUYSEN, New Jersey   DAVID E. PRICE, North Carolina 
  CHARLES J. FLEISCHMANN, Tennessee     HENRY CUELLAR, Texas
  ANDY HARRIS, Maryland                 MARCY KAPTUR, Ohio
  CHRIS STEWART, Utah                   
  DAVID YOUNG, Iowa                     
 

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Valerie Baldwin, Kris Mallard, Laura Cylke,
                              and Anne Wake,
                             Staff Assistants
                                 ________

                                  PART 2
                     DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
  United States Secret Service..........
                                                                      1
  Transportation Security Administration
                                                                     55
  United States Coast Guard.............
                                                                    113
  U.S. Department of Homeland Security..
                                                                    225


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                             ________

          Printed for the use of the Committee on Appropriations
                             ________


                    U.S. GOVERNMENT PUBLISHING OFFICE

  96-145                    WASHINGTON : 2015















                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey     NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama             MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                      PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho               JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas             ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                 DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                   LUCILLE ROYBAL-ALLARD, California             
  KEN CALVERT, California                 SAM FARR, California
  TOM COLE, Oklahoma                      CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida              SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania           BARBARA LEE, California
  TOM GRAVES, Georgia                     MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                     BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                  STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska              TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida               C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee       DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington       HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                    CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California            MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                   DEREK KILMER, Washington
  MARTHA ROBY, Alabama                    
  MARK E. AMODEI, Nevada                  
  CHRIS STEWART, Utah                     
  E. SCOTT RIGELL, Virginia               
  DAVID W. JOLLY, Florida                 
  DAVID YOUNG, Iowa                       
  EVAN H. JENKINS, West Virginia          
  STEVEN M. PALAZZO, Mississippi             

                William E. Smith, Clerk and Staff Director

                                   (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2016

                              ----------                              

                                           Tuesday, March 17, 2015.

                      UNITED STATES SECRET SERVICE

                                WITNESS

JOSEPH CLANCY, DIRECTOR, UNITED STATES SECRET SERVICE
    Mr. Carter. I am going to call this hearing to order. Good 
morning, everybody.
    Today we welcome Joe Clancy, the recently appointed 
director of the United States Secret Service in his first 
appearance before our subcommittee.
    Director Clancy, welcome. We appreciate you being here and 
thank you for your willingness to serve DHS and our Nation.
    The fiscal year 2016 budget for the Secret Service is $1.9 
billion, an increase of $273 million above fiscal year 2015. 
This increase is due in large part to preparations for the 
upcoming presidential campaign cycle, deployment of the former 
Obama detail, and additional funds based on recommendations of 
the Mission Panel that reported out in December on the need for 
significant reform in service.
    Director, we look forward to the discussion of these 
increases with you, learning whether you plan to address any of 
the recommendations contained in the various reviews of your 
service that have occurred over the past few months.
    Before ending, however, I want to address an incident that 
was news last week. According to a report, two senior Secret 
Service agents on the President's protective detail arrived at 
the White House complex check point in a government car after 
allegedly consuming alcohol. As the agents proceeded towards 
the check point, they drove through the scene of an active 
investigation. The violation of standing rules was not reported 
to headquarters until days later.
    For an agency trying to restore its reputation three years 
after the well-publicized scandal, this incident brings 
embarrassment and renewed scrutiny to the Secret Service. 
Simply put, this conduct should not be tolerated and Congress 
is disappointed to see it on display again.
    Director, I look forward to hearing your comments on this 
issue.
    First, I would like to recognize Ms. Roybal-Allard, our new 
distinguished ranking member, for any remarks she may make.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Director Clancy, welcome to your first appearance before 
the subcommittee and congratulations on your appointment as 
director.
    I hope you will find us to be tough but fair partners in 
your efforts to make the Secret Service the very best it can 
be.
    The agency has endured significant criticism over the last 
several months, indeed over the last few years. And, 
unfortunately, much of it has been justified.
    I, like Chairman Carter and others on the committee, was 
disappointed to hear last week about yet another incident of 
potential agent misconduct. This time, the incident involved 
senior personnel, including a member of President Obama's 
protective detail who drove a government vehicle through an 
investigation scene near the White House, allegedly after 
consuming alcohol.
    Perhaps even more disturbing, if true, is an allegation 
that a supervisor overruled an initial decision by officers on 
duty to conduct sobriety tests.
    I applaud your quick notification of the inspector general 
in this case, but I hope you will not wait for the conclusion 
of the IG investigation to start addressing what went wrong.
    If the allegations of misconduct are accurate, I worry that 
they may be indicative of a larger cultural problem at the 
Secret Service.
    While we will certainly be discussing that incident this 
morning, I do not want it to completely overshadow the good 
work that the vast majority of Secret Service officers and 
agents is doing every day.
    I saw that good work firsthand when I visited your Los 
Angeles field office last week. I was particularly impressed by 
the quality of a staff briefing in which USSS personnel were 
discussing the final security plans for the President's visit 
to Los Angeles the next day.
    In the interest of time, I will not elaborate on everything 
I saw, but I do want to highlight one program that the Los 
Angeles field office is implementing in a very impressive way, 
the Los Angeles Electronic Crimes Task Force.
    As you know, ECTFs are a strategic alliance of law 
enforcement, academia, and the private sector dedicated to 
investigating and deterring cyber crime. It is a roundtable 
concept comprised of local, state, and federal law enforcement 
partners.
    The ECTFs facilitate collaborative investigations through 
the exchange of information, shared assets, and common 
strategies.
    This month, I am proud to say that the LA ECTF was selected 
out of 80 nominations to receive the 2015 Centurion Award for 
Excellence in Investigations from the Peace Officers 
Association of Los Angeles County.
    Director Clancy, we stand ready to help the Secret Service 
regain the respect it deserves for the good work done every day 
by your dedicated officers and agents on behalf of our country.
    Thank you for joining us this morning. I look forward to 
discussing your proposed budget for the coming year as well as 
your plans to point the Secret Service in the right direction.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    And now I would like to recognize the chairman of the 
Appropriations Committee, Mr. Hal Rogers, for any comments he 
would like to make.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you for being here with us this morning, Mr. 
Director.
    This constitutes the first hearing of this subcommittee, 
and I am immensely pleased that we finally managed to pass a 
full year spending bill for the department to support our men 
and women on the front lines and bolster critical security 
agencies and fund vigilant anti-terrorism and law enforcement 
efforts on our home turf.
    Unquestionably your organization is a vital piece of this 
puzzle. The Secret Service carries out a unique but absolutely 
critical dual mission of protection and investigation. The 
investigative component of your charge is essential for the 
financial infrastructure of the country and by extension the 
entire U.S. economy.
    Your mission is to protect our President, his family, and 
other dignitaries from a host of potential threats and that 
requires discipline and dexterity, unparalleled skill, and, 
yes, professionalism.
    Unfortunately, the Service has been beleaguered by a series 
of embarrassing and unacceptable lapses in security and other 
missteps. This will not stand.
    Just when we think we have assessed the problems associated 
with this September's White House fence jumper and developed a 
plan to close existing gaps in security moving forward, news 
broke that two agents drove around a security barricade at the 
home where our President lives during an active bomb 
investigation drunk.
    You personally committed to me and others to leveraging 
your lifetime of service to this organization to restore the 
Secret Service to its once storied reputation. I certainly want 
to take you up at your word and give you every chance to 
achieve that goal, but incidents like these demonstrate just 
how far you have got to go and how short of time you have got 
to do it.
    We are going to provide the adequate funding for your 
agency, but it is going to be on a short string. We expect 
results. Your fiscal year budget request includes $1.9 billion 
which constitutes a $273 million increase over enacted levels.
    In additional to the presidential protective service, this 
supports the Service's network of 42 domestic field offices, 60 
resident offices and resident agency offices and 24 offices 
abroad.
    Notably this request includes a significant increase to 
accommodate your responsibilities leading up to the 2016 
election and prepare for President Obama's detail when he 
transitions out of office.
    Eighty-seven million is also included to support security 
enhancements at the White House complex pursuant to the 
recommendations of the Protective Mission Panel.
    Mr. Director, we all look forward to hearing how you intend 
to use this money to right the ship so the Secret Service can 
focus on its truly critical mission at hand. We want to thank 
you for taking on this chore and for being here today. We look 
forward to your answers.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Carter. Thank you, Mr. Chairman.
    Now I would like to recognize the distinguished ranking 
member of the Appropriations Committee, Ms. Lowey.
    Mrs. Lowey. Thank you very much.
    I would like to thank Chairman Carter, and Ranking Member 
Roybal-Allard for holding this important hearing today, and 
welcome Director Clancy, and thank you for joining us.
    The Secret Service has a long and storied history of 
excellence and professionalism, but recent incidents have 
diminished its reputation and raised serious questions about 
its ability to protect the President. Really we have a lot to 
discuss.
    Just last July through the report accompanying the House 
funding bill, this committee expressly stated that it was, and 
I quote, ``deeply disappointed with recurring allegations and 
misconduct within the Secret Service.''
    Going a step further, we withheld a substantial amount of 
headquarters' funding in the fiscal year 2015 appropriations 
bill until new guidelines for professional conduct were 
submitted.
    It is hard to believe here we are again. Not only were we 
rocked by the White House fence jumper last September, but now 
we are confronted by yet another unfortunate incident that 
appears to entail significant misconduct.
    On March 4th, two possibly intoxicated secret agents drove 
a government car through an active suspicious package 
investigation. I said possibly because according to news 
reports, no sobriety tests were administered. The agents were 
not arrested and they were allowed to leave the scene.
    The President's budget requests nearly $87 million for 
protective mission enhancements in the wake of recent Secret 
Service missteps. While I agree that more resources are 
necessary for security enhancements, hiring and training 
funding alone will not be enough to solve the Secret Service's 
problems.
    This latest episode seems to be more evidence of a cultural 
issue that has not been adequately addressed by changes in 
senior management.
    Director Clancy, you just recently assumed your position, 
but you have been with the agency for an impressive 30 years. 
We want to work with you to restore the public's confidence in 
the Secret Service. We want to support you with the resources 
you need, but the responsibility is ultimately yours. You must 
provide the leadership and insist on the accountability that is 
necessary. I look forward to a productive discussion this 
morning.
    Thank you, Mr. Chairman.
    [The information follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Mr. Carter. All right. Director Clancy, we are now going to 
recognize you for your opening statement. I am going to ask 
you, if you can, to try to keep it to five minutes.

                   Opening Statement: Director Clancy

    Mr. Clancy. Yes, Mr. Chairman.
    Good morning, Chairman Carter, Ranking Member Roybal-
Allard, and distinguished Members of this committee. I am 
pleased to appear before you today to discuss the President's 
fiscal year 2016 budget for the Secret Service.
    As the newly appointed director, I am honored to lead the 
men and women of this important agency through this challenging 
time.
    Despite the allegations of misconduct involving two senior 
level agents at the White House Complex on March 4th, 2015, I 
have been impressed by the selfless dedication of the workforce 
as a whole and our people's willingness to take on the 
necessary reforms in the betterment of the mission.
    With respect to these recent allegations, the Secret 
Service has turned over the investigation to the Department of 
Homeland Security's Office of the Inspector General [OIG] to 
ensure a thorough and independent review of this incident. I 
have committed our full cooperation with this investigation and 
eagerly await the OIG's findings.
    Turning to our budget, I want to thank all Members for your 
work on the 2015 Department of Homeland Security Appropriations 
Act. For a second year in a row, this subcommittee worked 
diligently to provide the Secret Service with additional 
resources to support our staffing, our training, and our 
operational needs.
    In addition, the 2015 bill includes $25 million to begin 
the necessary enhancements associated with the Protective 
Mission Panel's recommendations that were included in a report 
to Secretary Johnson on December 15th of 2014.
    The panel's recommendations have brought focus to staffing, 
training, and leadership deficiencies in the agency and 
technology and perimeter security requirements at the White 
House Complex.
    However, because the Secret Service's mission extends 
beyond the issues addressed in the panel's report, I am 
committed to zero basing the agency's budget to determine the 
full extent of our operational requirements.
    The 2016 budget builds on the protective mission 
enhancements that are underway this fiscal year. My written 
statements provide a thorough overview of the budget request, 
but I would like to highlight a few areas in the limited time I 
have.
    The $86.7 million requested in 2016 to address specific 
recommendations made by the panel can be broken down across 
four categories: first, personnel initiatives; second, training 
center improvements; third, White House security infrastructure 
improvements; and, fourth, protective technology upgrades.
    My priorities are to staff the agency at a level 
commensurate with the demands of the mission and ensure that 
our employees receive the training they need to do their jobs 
effectively. This includes critical in-service training for our 
agents and officers as well as ethics and leadership 
development.
    One of the biggest mission demands over the next 18 months 
will be associated with the campaign protection. With less than 
two years remaining before President Obama's term in office 
comes to a close, the Secret Service is preparing for campaign 
protection requirements similar to those of 2008, the last time 
no incumbent President ran for office.
    During every campaign, the Secret Service's budget 
temporarily grows to accommodate the surge in protection 
requirements. Of the $204 million request in 2016 for campaign 
protection and campaign-related NSSEs [national special 
security events], a total of $59 million simply reflects the 
anticipated time special agents in the field will work 
protection hours in support of the campaign.
    When people ask how it is the Secret Service can protect 
multiple candidates traveling between different cities and 
states in a matter of hours, I point to the special agents who 
serve in the field offices around the country. Without the 
support of highly trained special agents who have experience 
with investigations and protection, the Secret Service would be 
unable to handle the surges in protective operations associated 
with presidential campaigns, NSSEs, and other major events.
    Securing the two nominating conventions is one of the most 
expensive and challenging aspects of campaign protection. These 
high-profile NSSEs typically last three to four days and 
attract more than 50,000 participants each.
    The Secret Service begins work months in advance to plan 
and coordinate comprehensive security operations to identify 
and mitigate threats that could cause harm to our protectees 
and our dignitaries and to the general public attending these 
events.
    For example, to mitigate the risk of cyber attack on 
critical systems and key infrastructure that could adversely 
affect the security plans, special agents who are trained in 
the critical systems protection are responsible for securing 
venues that are increasingly automated and interconnected.
    To accomplish its cyber protection mission, the Secret 
Service recruits from within the agency's Electronic Crimes 
Special Agent Program, specifically the computer forensics and 
network intrusion responder disciplines. Special agents trained 
in these areas are responsible for the successful 
investigations into many of the largest known data breaches in 
recent memory.
    Just last month, a Secret Service led investigation 
resulted in the arrest and extradition of Vladimir Drinkman, a 
Russian national who will face charges that he allegedly 
conspired in the largest international hacking and data breach 
scheme ever prosecuted in the United States.
    Superior performance by men and women on the front lines 
begins with superior leadership. To that end, I have worked to 
open the lines of communication between the rank and file and 
their supervisors.
    I made significant changes in top leadership positions 
across the Secret Service to inspire a renewed focus on 
staffing, training, protective operations, investigations, and 
professional responsibility.
    I am in the process of restructuring the Secret Service's 
executive leadership to better leverage the experience of 
civilian professionals while allowing law enforcement personnel 
to focus on their core areas of expertise.
    With the support of the Department and the Congress over 
the next several years, I am confident that we can put the 
Secret Service on a path to success for many decades to come.
    Chairman Carter, Ranking Member Roybal-Allard, this 
concludes my testimony. I welcome any questions you have at 
this time.
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                 WHITE HOUSE INCIDENT: AGENT PROTOCOLS

    Mr. Carter. We thank you, Director, for that report.
    I want to start off with, you know, the 800 pound gorilla 
in the room, what happened the other night at the White House.
    I was in the Ukraine on a fact-finding mission with a 
subcommittee of this body when we learned of this. I called 
directly from the Ukraine to my staff to find out what happened 
because it kind of knocked me out of my chair considering the 
discussions you and I have had.
    Mr. Clancy. Yes, sir.
    Mr. Carter. I would like you to give us the picture you 
think happened because I think what was reported in foreign 
press sounded like they crashed through a barrier. The first 
thought was an iron gate, ignoring [the crime scene tape in a 
state of intoxication.
    After] further inquiries, it may not have been exactly that 
picture. I would like you to give us a picture of what 
happened. Then I would like to talk to you a little bit about 
the protocols that may or may not have been violated and what 
protocols are in place to cover the situation here.
    Alcohol is part of the stressful world that an awful lot of 
people live in. In my courtroom, there was a cartoon on the 
wall where the judge is addressing a young trial lawyer and he 
says you need to know the most important two tenets of the law 
relative to trial work, caffeine by day, alcohol by night. It 
was meant to be a joke, but it is actually a tragic truth that 
in stressful jobs, those two become a major part of how people 
get through the day.
    But alcohol as we all know, messes up your judgment and 
there [must be protocols that address this. And we have to deal 
with it because it is part of the life we have and we are 
protecting the most important position on the face of the 
earth. That is your job. Whoever sits in that White House, he 
or she is the most important person on earth politically in 
this world with more power than anybody else and, therefore, 
more enemies.
    So talk to me about what happened and then let's talk a 
little bit about protocols.
    Mr. Clancy. Yes, Mr. Chairman.
    On March 4th, 2015, our understanding is that two senior 
level special agents came to the White House. I did not hear of 
this incident until Monday, so this was on a Wednesday night. I 
found out Monday.
    Once I found out Monday and what I heard initially, the 
initial reports from an anonymous report was that, as you 
stated, two senior level special agents had crashed into the 
White House and they were inebriated. I had not heard about 
that.
    I asked my staff if they had heard about it. They had not 
heard about it. I asked them to get as much information as they 
could on the events. And there was not a lot of information 
available, but we decided, I decided to immediately send it 
over to the Department of Homeland Security Office of the 
Inspector General.
    I thought it was very important that we have an independent 
investigation, that there would be no perception at all that we 
were involved, that we would not even start doing any 
interviews. We would give that investigation to the OIG.
    I will also say that I brought my staff in on Monday and we 
discussed why I did not know prior to Monday of this event. And 
we had a good stern talk about that. I then instructed the 
staff to go out to their management to ensure that these 
events, any event of misconduct or operational errors, are 
relayed up the chain.
    I will say that it is going to take time to change maybe 
some of this culture. There is no excuse for this information 
not to come up the chain. That is going to take time because I 
am going to have to build trust with our workforce. And the 
best way for me to work or earn that trust with our workforce 
is by my actions.
    Now, I am very eager to hear the results of this 
investigation. I do not know how long it will take, but I am 
committed to due process. What I have done is removed those two 
senior level agents to non-supervisory positions. They are not 
working at the White House. They are outside of their offices 
and we will await the findings of the OIG.
    Mr. Carter. I am going to ask you on the issue of drinking, 
are there protocols set up to discuss the fact that every one 
of your people are carrying a weapon?
    This is hearsay, someone told me that a person they knew in 
the FBI said the protocol for the FBI is if you know you are 
going to a place where alcohol is going to be consumed, and it 
is a retirement party where more than one drink might be 
consumed, that they expect their agents to report that to the 
superior, to leave their weapon at home, and tell their 
superior that they would no longer be available for call 
because they might not be in a condition to be available for 
call.
    I do not know if that is true or not. That is something 
that was told to me. But this was a retirement party for a 
member of your group. And people were expecting there would be 
drinking at the party.
    Now, do you have any protocols like that in the Secret 
Service?
    Mr. Clancy. We do have a ten-hour rule, Mr. Chairman, where 
you are not permitted to consume alcohol ten hours prior to 
your duty assignment. Off hours, we do not have protocols for 
off-hours, such as going to a reception or party or what have 
you.
    There are protocols for driving a government vehicle. I 
will say that you cannot obviously be under the influence, not 
by a legal limit, and you just cannot be exhibiting any 
indication that you are under the influence of alcohol while 
driving a government vehicle. And that will all be looked into 
by the Office of the Inspector General.
    I will say that I did see a very short clip of video 
footage of the incident that evening, and I did see the vehicle 
that the two agents were traveling in which they drove at a 
very slow rate of speed on to the White House Complex. So that 
is something that the OIG will have and I am sure we will 
investigate that.
    Mr. Carter. Going forward, are you going to look into 
protocols that would affect a situation like this?
    Mr. Clancy. Yes, Mr. Chairman. Any time we have an incident 
of this level, we certainly have to look at our protocols, look 
at our policies. Are they sufficient?
    And to be candid, I have been away for several years and 
was not as familiar with these policies as I should have been. 
They have to be readdressed. Even the indication that you may 
be able to get into a vehicle after having one beer, one glass 
of wine, that is something we are going to have to address.
    Mr. Carter. Well, certainly DWI laws are pretty rough.
    Mr. Clancy. Yes, sir.
    Mr. Carter. Well, you and I have talked about this. You 
know, it breaks my heart to think that once again one of the 
agencies that has been a legend among the American people in 
the last six years has just gone downhill substantially. It is 
a crime.
    Our people need heroes. You are an agency that was 
considered heroes which protected every President, no matter 
what party they were in, and did a very effective and efficient 
job. It is really heartbreaking to have this continued conduct.
    I know you are new on the job, but I told you when we 
visited that you have a big job and you are going to have to 
make heads roll.
    Mr. Clancy. Yes, sir.
    Mr. Carter. If there is a place to send people in your 
agency that is the Mojave Desert of the Secret Service, maybe 
some people need to be sent to the Mojave Desert so that they 
know that their behavior is unacceptable. You think about that.
    The chairman has plenty of hearings he has to attend, so I 
am now going to turn to the chairman for any questions he may 
have.

                  WHITE HOUSE INCIDENT: ACCOUNTABILITY

    Mr. Rogers. Thank you, Mr. Chairman.
    I cannot believe you did not learn of this incident from 
Wednesday, when it happened, until Monday. What happened? Why 
did you not learn of this incident immediately?
    Mr. Clancy. Yes, sir, and that is what we are trying to 
find out through the Office of Inspector General.
    Mr. Rogers. I do not care about the Office of Inspector 
General.
    Mr. Clancy. Yes, sir.
    Mr. Rogers. God love them and good luck to them. You are in 
charge.
    Mr. Clancy. Yes, sir.
    Mr. Rogers. This is an administrative problem you have got 
among other things. Why did you not get word from your 
subordinates about this incident for what, five or six days?
    Mr. Clancy. Yes, sir. Not knowing all the facts. First of 
all, you are right, Mr. Chairman. At the least of the 
description of these events, I should have still been informed 
of what transpired that evening.
    Any time you have a senior level agent on the President's 
detail who is alleged to have even come through a secure area 
as it appears he did that evening, I should have been informed. 
And we are following up on that and there will be 
accountability.
    And I know that our workforce is listening today as we go 
through this hearing, and they are waiting to see how people 
are going to be held accountable. This is my first test, and we 
will wait for these facts to come out. We will wait for that 
due process, and we will go back through the reports that were 
written that evening. We will go back through and the OIG will 
interview these mid-level supervisors and go up the chain.
    But, Mr. Chairman, you are absolutely correct. And I think 
part of this again goes to a culture of trust. Do you have the 
trust in your leadership that you can bring this to 
leadership's attention? I have got to work to earn that trust, 
and I am going to do that through my actions.
    Mr. Rogers. Well, your actions in my judgment should be 
punishment, termination, firing people who have subordinated 
their command. You cannot run an agency like this for God's 
sakes or any other agency unless you have discipline in the 
ranks. This is a breakdown, to put it mildly, of discipline 
within the ranks of your agency, and that is a cancer that can 
consume you.
    Now, were these people given a sobriety test?
    Mr. Clancy. They were not, sir, to my understanding.
    Mr. Rogers. Why not?
    Mr. Clancy. Sir, I cannot answer that.
    Mr. Rogers. Who said not to do that?
    Mr. Clancy. Sir, I cannot answer that either. I do not know 
that those facts have been----
    Mr. Rogers. Well, who discovered that this had happened?
    Mr. Clancy. Sir, it was an anonymous email that first was 
published, and I want to say it may have been several days 
later. I do not have the facts on when that was released, that 
email. But typically in an event like that, there would be some 
chatter. There would be some discussion if it occurred the way 
it has been described.
    Mr. Rogers. Well, who was the agent in charge at that time 
at the White House?
    Mr. Clancy. There is a watch commander at a captain level 
who would have been in charge of the White House Complex at 
that time. Certainly during that incident with the----
    Mr. Rogers. Who is that?
    Mr. Clancy. By name, sir?
    Mr. Rogers. Yes, sir.
    Mr. Clancy. I believe it is Braun, sir.
    Mr. Rogers. Bronson?
    Mr. Clancy. Braun, B-R-A-U-N, and my staff can correct me 
if that is incorrect.
    Mr. Rogers. He was the person in charge of the White House 
detail at that period of time; is that correct?
    Mr. Clancy. Yes, sir.
    Mr. Rogers. Did he report any of this activity to anyone 
else?
    Mr. Clancy. No, sir.
    Mr. Rogers. Have you talked to him?
    Mr. Clancy. I have not spoken to him, sir. Again, as 
frustrating as it is for all of you on the committee, it is 
frustrating to me as well to have to wait to do this.
    Mr. Rogers. Why do you have to wait?
    Mr. Clancy. Sir, I do not want to interfere with this 
investigation. In the past when we have seen investigations 
where different people have interviewed witnesses, stories are 
perceived differently. And I do not want to have any impact on 
that investigation.
    Mr. Rogers. Have you asked Braun for a report on what 
happened?
    Mr. Clancy. I have asked to see the report, and I have seen 
nothing that indicates--any written report indicating that this 
event as described, had occurred.
    Mr. Rogers. What kind of barricade was it that they broke?
    Mr. Clancy. Sir, it is an orange construction type barrel. 
When the vehicle approached, initially it backed up because--on 
15th Street and E Street, which you may be familiar with. You 
may have come in sometimes at 15th and E Street. This orange 
barrel did not allow the vehicle to go through. It was to the 
right of the bumper.
    So they nudged this barrel out of the way. The barrel did 
not fall over. They nudged it over. They moved up to the 
checkpoint where the officer typically would be positioned, and 
it appeared that they were showing their badges to go through 
the checkpoint. And then that is the extent of the video that 
we saw as they continued to progress forward.
    Mr. Rogers. Why were they there?
    Mr. Clancy. Sir, my understanding is that the passenger in 
the seat in the vehicle was returning to get his vehicle. They 
had been at the reception and they left together. The passenger 
had his vehicle parked at the White House Complex.
    Mr. Rogers. Well, needless to say, we want to get to the 
bottom of it right away. And I am disappointed that you have 
not waged your own vigorous, tough investigation of this that 
occurred on White House grounds by security agents who appeared 
to be inebriated.
    Mr. Clancy. Yes, sir.
    Mr. Rogers. To say you are not investigating because you 
want the Inspector General of the Department to investigate is 
hogwash.
    Mr. Clancy. Yes, sir.
    Mr. Rogers. What do you think?
    Mr. Clancy. Sir, I am basing it on my limited experience 
since I came back.
    I read the report, sir, on 2011, the shooting from 
Constitution Avenue, that some rounds had hit Constitution 
Avenue. And one of the officers, I remember reading when I 
first came back was that this individual was interviewed three 
different times by our agency, by the OIG, I believe, and by 
the Federal Bureau of Investigation.
    And my recollection is that each of those interviews was 
different, which distorted what were the facts and what did 
that officer truly see and hear. And right or wrong, that 
resonated with me and I did not want any perception that we 
would be--it can be intimidating.
    If someone from my staff goes to one of these uniformed 
officers and said what did you hear, what did you write, what 
happened that evening, they may tell me and my staff one thing 
and the OIG another. They may interview them, and they may have 
a different perception of the words spoken. Words are 
important.
    And I am frustrated. I am very frustrated that we did not 
know about this. I did not know about this until Monday. I am 
frustrated that I cannot act until we get all the facts because 
I know that our workforce is waiting, what is your action going 
to be. But I just do not want to act improperly too soon.
    Let me just say this. The President, the first family, they 
are safe. We moved these individuals to non-supervisory 
positions. Rather than administrative leave where they are 
getting paid for no work, we can still get work out of them but 
in a different capacity.
    Mr. Rogers. They are still getting paid?
    Mr. Clancy. Yes, sir.
    Mr. Rogers. No reduction in pay, no penalties financial or 
otherwise, right?
    Mr. Clancy. No financial penalties. Sir, I would say that I 
am sure they are paying a penalty right now.
    Mr. Rogers. Well, unfortunately, this is the last in a long 
line of episodes somewhat similar, drinking, carousing on and 
off duty that this agency has suffered these last few years. It 
is not working right, Mr. Director.
    Mr. Clancy. Yes, sir.
    Mr. Rogers. We have got to have some changes, all right, 
and you have got to be the one that makes those changes. I do 
not sense at this moment that you have the determination to 
make that happen. Am I wrong?
    Mr. Clancy. Sir, I would disagree with you with that, with 
all respect. I will say that there is an element within our 
agency that does cope with the stresses that many of you have 
mentioned today by using alcohol. There is no question we have 
that element.
    We also have other elements in our agency that go a 
different route. Some go to exercise. Some go to religion. Some 
go to their family to cope with these stresses. But we do have 
an element that goes to alcohol.
    Three, four weeks ago, we kicked off a work life initiative 
to look at these stresses that our people are under, and they 
are considerable, but there is no excuse for the actions. There 
has to be self-discipline, self-accountability, but we have got 
to find a way to help some of these people that are going 
toward alcohol as a coping mechanism.
    Mr. Rogers. Well, I am concerned about their health as 
well, but I am more concerned about the health of the President 
of the United States, and who is protecting him from harm.
    Mr. Clancy. Yes, Mr. Chairman.
    Mr. Rogers. If we have special agents on the grounds at 
night at the White House ramming a barricade drunk, it seems to 
me that the only discipline that you could exert would be 
caused by the ability of you and your staff to terminate as 
punishment so that every other agent knows, `oh, I do not want 
to go there.' That director is going to fire me. That is what 
makes the mind work.
    What do you think about that?
    Mr. Clancy. No, I agree with you. I think deep down within 
our agency as in others, people want to see discipline. People 
want to be disciplined. They want to have people held 
accountable. I just want to respect the due process as 
frustrating as that is and then let my actions speak for how we 
are going to move forward in this agency.
    Mr. Rogers. We will be watching.
    Mr. Clancy. Yes, sir.
    Mr. Rogers. And waiting.
    Mr. Clancy. Yes, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Mr. Chairman, I believe that----
    Mr. Carter. Oh, I am sorry. Ms. Lowey. Excuse me.
    Mrs. Lowey. Thank you. And I want to thank you, but there 
are so many hearings today.
    I just want to follow-up briefly because with all due 
respect, I am just shocked by your testimony. First of all, you 
said it would not have been reported but for a whistleblower. 
It was not someone in the chain of command that reported it to 
you.
    What really shocks me, is that you said it will take time 
to change the culture. I do not understand this one bit. It 
seems to me, that it should take time to help people who think 
this is the culture, to get another job.
    How can we as Members of Congress have respect for an 
agency that feels this is okay? We are not talking about 
someone drinking at a party. We are talking about a respected 
member of the Secret Service who was absolutely drunk. How many 
people do you know, how many friends of yours do you know who 
go to a party and then ram a car into a fence or some other 
barricade? I find this testimony shocking.
    Following up on my colleague, I just do not understand it. 
I would think it would take five minutes to change the culture. 
Before you even know the facts, you can say based on the 
allegations. If, in fact, you are not aware that this kind of 
activity is inappropriate for a member of the Secret Service, 
you better get it now and go find another job. That is why I am 
so puzzled. I cannot believe you said it will take time to 
change the culture.
    Can you explain to me why it is okay for a member of the 
Secret Service to get so inebriated that they would take a car 
and run into a barricade?
    Mr. Clancy. If those are the facts, and they may come out 
exactly as you stated them, then you are absolutely correct and 
we have a table of penalties that explains exactly how they can 
be disciplined.
    When I said it is going to take some time for the culture 
to be changed, specifically I am talking about if there was an 
event that night as is described, and let's assume that it was 
as you described it, why was that not reported up to my office?
    And I think that is a longstanding process possibly where 
people do not want to relay bad information, and we have to 
prevent that. But to your point, you are right that my actions 
are going to determine how that culture is changed. But I do 
not have the ability to just fire people at will.
    In the government, my understanding is you cannot do that. 
It does not mean that after due process, there are not some 
actions.
    Mrs. Lowey. Maybe my statement is not clear. I understand 
due process, but do you think it would be inappropriate to send 
a very strong message that this kind of behavior is absolutely 
inappropriate, wrong for a member of the Secret Service? Did 
you do that?
    Mr. Clancy. I did that. That statement went out without 
going into the specifics of the events on March 15th. Although 
we referenced that, we did put out a statement saying that 
there is accountability. This type of activity is not 
tolerated, and we have got to shape the future of this service.
    Mrs. Lowey. I guess I just do not understand because in my 
time in Congress, which is 26 years, I have had such enormous 
respect for the Secret Service, protecting so many of our 
people in public life including Members of Congress.
    I just do not understand even off duty how a respected 
member of the Secret Service could get so inebriated that they 
take this kind of action going into a fence, knocking down a 
barricade. I do not get why it would take time to change the 
culture and that is why I am puzzled, sir, with your comment.
    I would hope it is very clear that if they are off on a 
Thursday and not on duty, they can get so inebriated that they 
can go into a fence. But when they are on duty, they must 
understand that this behavior is unacceptable.
    I would think I do not want a member of the Secret Service, 
frankly, who is capable of getting so inebriated that this kind 
of action can be accepted. It can be accepted when they are off 
duty, but not on duty. This is why I am totally puzzled. I do 
not think there is any doubt that this action took place; is 
that correct, sir?
    Mr. Clancy. That is correct.
    Mrs. Lowey. So is it clear now that it is going to take 
time to change the culture? Do you understand why that does not 
make sense to someone like myself, who has such respect for 
Secret Service?
    I do not think we want this kind of person in the Secret 
Service whether they are on duty or off duty; you do not want 
them behaving this way at any time. That is not the kind of 
person you want in the Secret Service. They can go find another 
job, frankly.
    Mr. Clancy. Yes, ma'am.
    Mrs. Lowey. Can the culture change immediately or do you 
still believe it will take time to change the culture?
    Mr. Clancy. I cannot terminate people this afternoon if 
that is----
    Mrs. Lowey. I understand that. But can there be a very 
clear directive that if you are a distinguished member of the 
Secret Service, whether you are on duty or off duty, you cannot 
get so inebriated. Isn't it not acceptable to take a car and 
drive into a fence or kill someone on the street? These are 
people with guns.
    Mr. Clancy. Yes. And, again, I agree with everything you 
are saying. I will tell you that again the workforce is hearing 
your message loud and clear today, and we have been stressing 
this through training, through mentoring, through coaching, 
through this discipline table that we have put in place one 
year ago.
    So people know the rules. It is up to individuals to have 
the self-discipline to follow those rules and conduct 
themselves in a professional manner both obviously on the job 
and off the job.
    Mrs. Lowey. Well, I just want to conclude by saying I do 
hope you can send a strong message again and make it very clear 
to the distinguished members of the Secret Service that it 
should not be business as usual, even if they are off duty 
because I know, I was the author of the .08 law, and to go get 
so inebriated that you are going to take a car and go into a 
fence, you need to be pretty, pretty inebriated out there.
    I do hope you send that strong message and that changing 
the culture can be done immediately, not take a long time. And 
I understand you cannot accuse anyone until an investigation is 
complete, but you can make it clear that whether you are on 
duty or off duty, this kind of behavior is unacceptable for a 
distinguished member of the Secret Service.
    Thank you, Mr. Chairman.
    Mr. Clancy. Thank you, ma'am.
    Mr. Carter. Thank you, Ms. Lowey.
    Ms. Roybal-Allard, thank you for yielding. It is your turn.
    Ms. Roybal-Allard. Okay. Director Clancy, I have to say 
that I am equally concerned by some of the responses that you 
have given today. And I hope that I misunderstood you in terms 
of your saying that you needed to wait for the IG's report to 
take any action.
    It seems to me that there are many things that can be done 
now and actions that you can take now before that IG report 
because I think it is quite obvious that there are lots of 
problems within the Secret Service, that the incidents at the 
White House and other incidents are just indicative of those 
problems.
    So I want to give you an opportunity to elaborate a little 
bit on your opening statement because I think it is important 
that we and the public hear loud and clear that you not only 
acknowledge that there are problems facing the Secret Service 
but that you are actually implementing an effective plan in 
turning things around, things that you can do now.
    Right now you can demand, and with a discipline behind it 
if it does not happen, that you are immediately notified of any 
other incidents. Hopefully there will not be such an incident. 
But there are things that you can do now.
    Also, as you are answering that question as to what you 
will be doing over the next weeks and months to reassure Secret 
Service personnel, the White House, Congress, and the public 
that you are moving in the right direction, if you could also 
talk a little bit about what you are doing in terms of sending 
a message of discipline, not dealing with this case, but just 
in general that certain things are not acceptable and that 
there will be consequences.
    And if, as reported in the paper, the Secret Service 
applied a less stringent approach to those who were involved in 
the incident at the White House, than the service has taken in 
the past, why? I just want to give you an opportunity to 
respond to that as well.
    Mr. Clancy. Yes. Well, consistency is very important. I am 
not aware of how our discipline or the actions we have taken so 
far would differ from the past. Now, I have not been here for 
three years, although I have been briefed on some of those 
recent incidents.
    You know, I talked to our legal counsel. I talked to our 
human resource people to see what options we have in terms of 
first steps in regard to this incident. I will tell you in 
general, and we may get into this later, but we are going 
through a restructuring within our organization. And that will 
be a subject maybe later during this hearing.
    But the idea of discipline and to give you examples, before 
every trip on a foreign trip, agents on that trip are given a 
briefing on ethics and what is expected of them. Before our 
personnel meetings, before a visit in any city, the agents 
working that visit are briefed on their professionalism as well 
as the operational aspect of the visit.
    But these topics are constantly brought up. Unfortunately, 
we have an element, and I would argue that it is a smaller 
element, but we do have an element that is causing this agency 
great distress.
    And I can tell you that those agents and those officers and 
our personnel who, as you saw at the Los Angeles field office 
last week, who go home to their families, who go to their 
church, who exercise, whatever, they are as distressed at this 
as all of you. It is their reputation.
    They work these eight-hour, 10-hour days, 12-hour days 
under great stress, and it is a very stressful environment. And 
then you go home and you see the media reports that we are 
alcoholics. And that is something that, you know, we have got 
to--this work-life initiative I may have mentioned that we 
kicked off a few weeks ago to try to address these stresses and 
how do we handle people that go in the wrong direction, but 
ultimately it comes back to what actions do I take and what 
actions does the agency take in terms of discipline.
    Ms. Roybal-Allard. Well, that was my question, Director 
Clancy. What are you doing now? What are your plans now to 
address these issues separate and apart from the incident? How 
are you getting that message across including--and I just want 
to highlight what Chairman Rogers said, that the best way to 
make sure these things do not happen and to weed out those who 
are the bad actors is for a hard and swift disciplinary action 
which could mean immediate dismissal.
    So what is it that you are actually doing now to start 
addressing the problems within the Secret Service? More 
specifically what are you doing now?
    Mr. Clancy. Some of these measures were put in place prior 
to me arriving and I think they are good measures. For example, 
the Office of Integrity reports directly to the director. So 
rather than in the old days if there was an issue of misconduct 
in a local field office, that special agent in charge would 
handle that. And there may be inconsistencies on the way 
discipline was handed out.
    So just over a year ago, this Office of Integrity was stood 
up to ensure consistency. And within that Office of Integrity 
is a table of penalties that is modeled after other agencies so 
that we do not stand alone. We are looking at the best 
practices in the industry and in the other agencies so that----
    Ms. Roybal-Allard. Can I just----
    Mr. Clancy. Sure.
    Ms. Roybal-Allard [continuing]. Stop you right there 
because obviously whatever has been done, what you are 
mentioning occurred a year ago, it is not working. Things are 
not working.
    So the question is, what is it that you are planning to do 
to reevaluate systems that are in place and make sure that they 
are working so that we do not have incidents like this, so the 
message is loud and clear that if a Secret Service agent, 
drinks or whatever the violation is that there is going to be 
immediate and quick, disciplinary action, something that really 
is going to count like, as Chairman Rogers said, you are 
dismissed, period?
    So the point is whatever has been put in place, whatever 
has been done, it is not working. If you are not able to answer 
my question now you can do it for the record. What are the 
plans that you are considering or putting into place that will 
make the system work and send the right message to the Secret 
Service so that they know that there will be a harsh penalty if 
they violate whatever the rules are of the Secret Service?
    That is my question. And like I said, you can submit it for 
the record if you do not have all the information now, but 
whatever has been put in place, whatever has been done in the 
past obviously is not working.
    Mr. Clancy. I agree with you that it is not working, and I 
would prefer to put together a document spelling out what we 
are legally able to do and what we cannot do and where we would 
move forward to try to correct this. It is not working.
    [The information follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
    
    Ms. Roybal-Allard. Are you saying that when someone 
violates rules, is drunk, whatever, that you do not have the 
authority to dismiss them?
    Mr. Clancy. I do not have the authority to dismiss them on 
the spot.
    Ms. Roybal-Allard. On the spot?
    Mr. Clancy. No.
    Ms. Roybal-Allard. Okay. But there are rules in place?
    Mr. Clancy. There are rules in place or there is a process 
in place where you make a proposal and the individual receiving 
that proposal has a chance to appeal that proposal. And it is 
somewhat of a drawn-out process.
    Ms. Roybal-Allard. Okay. Maybe you need to look at that as 
well.
    Mr. Clancy. Yes.
    Mr. Carter. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    Director, thank you for coming here. It is kind of a tough 
hearing.
    I got to tell you I am going to jump on and you will 
forgive me for that. Before that, though, I will tell you I 
recognize that you and most of the agents that serve under you 
are honorable. They are driven by a love for country and they 
are trying to do the right thing, but leadership is taking care 
of not the good people in some cases. It is taking care of the 
problems and you have enormous problems ahead of you in my case 
or in my opinion. And some of that has been talked about.
    And I got to tell you as a former military guy, I am 
stunned by this environment and this culture. And I will 
elaborate on that in just a minute. But I think there are two 
problems here. One of them is this. We have this behavior of 
drinking and driving and kind of carousing around. And there 
are lots of examples of it. I mean, I have got three pages here 
that I can go through.
    I kind of get that. I understand that a little bit. That 
happens. That is troubling, but it happens. We have to deal 
with it as we have talked about. But I think a greater problem 
to me is the fact that there was an officer who was aware of 
this or many officers, at least one who was aware of this and 
took steps to protect their friends rather than to hold them 
accountable.
    I mean, if anyone was aware of this and they did not tell 
you, they have lost your trust. How could you ever trust them 
again? You may not be able to fire them, but you should assign 
them to the furthest tip of the Aleutian Islands in my opinion 
because they have lost your trust and the trust of the American 
people. And they have shown loyalty to their friends and 
coworkers rather than loyalty to their responsibilities. And I 
do not know how you say it any differently than that.
    Again, I was a military member for many years. And I hear 
you say, well, you know, people are coping with stress. And I 
got to say, I kind of go, please, oh, please, because lots of 
people experience stress. This is a stressful job, but there 
are lots of stressful jobs in the world. Military members 
experience acute stress and they would never protect nor 
sanction the behavior such as this.
    And I can give you many examples, from young airmen to new 
lieutenants to senior colonels, in some cases generals, who 
were caught DUI on base and they were just gone. You know, they 
were dismissed and we knew that. And the military was better 
because we knew that was the rule and we knew that we would be 
held accountable for that. And the American people were better 
and our Nation was better protected because we had a culture 
that we simply do not entertain this.
    And for someone to have done that and then have one of 
their peers or a supervisor protect them is hard for me to 
imagine that that would happen. You know, in our cases we were 
dealing with top secret information, many of us, as are you and 
your agents. The most highly classified information that this 
nation has they have access to. And the accountability just 
simply is not measuring up to the responsibility that they 
have.
    And I guess I would ask you to respond to that, but I do 
not know what else you could say other than what you have 
already said here except for, you know, this idea of changing 
culture. You said, Mr. Director--and I understand what you are 
trying to do, I really do. When you say, I have to set an 
example, I have to earn their trust. Dude, you do not have to 
earn their trust. You are their boss, they are supposed to earn 
your trust, and they have not earned your trust. And the way 
you earn their trust is you hold them accountable.
    And then the others who are not out there driving through 
barricades and laying drunk in corridors of hotels in overseas 
locations, those guys know that they are going to be held 
accountable. That is how trust is developed, in my opinion.
    So, I mean, I have gone on for a while. And I am not 
berating you, I am berating this culture that has been fostered 
there. And if you would like to respond, you know, please do.
    Mr. Clancy. Thank you, sir. We have had incidents obviously 
in the past and previous directors, after due process, have 
moved these people off the job. They are gone. Cartagena is an 
example where I believe we lost ten people; they were 
terminated. So there is a history where we will discipline 
people. But, again, I cannot do this on day one. I am 
frustrated that the agency is taking this hit and rightfully 
so, but I have to allow this due process to take place.
    And then that will be our first test and our first 
indication of are we serious about holding people accountable. 
As bad as it may be to say this, maybe it is good that it 
happened early in my tenure, so that we can set a tone as we 
move forward. But, sir, I cannot say any more than that.
    Mr. Stewart. Well, and I appreciate that. And in one sense 
you are right, with irony, it may be good that this happened 
early in your tenure, because you have the opportunity now to 
truly lead and to truly show what your expectations are of 
these agents.
    And in my last few seconds, let me just say again, I 
recognize most of these agents are good people who are trying 
to do a very difficult job and to do it very well. But the 
ability and the willingness of some of them to protect one 
another like they have done instead of being loyal to the oath 
that they have taken, it is hard for me to respond to that, it 
is so foreign to my experience.
    Mr. Clancy. Yes, sir, and I honor that. And again, I think 
as we--again, the workforce is listening to this testimony 
today and I think the message is being broadcast loud and clear 
that that is not acceptable.
    Mr. Stewart. Thank you, Director.
    Mr. Clancy. Thank you, sir.
    Mr. Carter. Mr. Cuellar.

                       COMMUNICATIONS, IMPROVING

    Mr. Cuellar. Thank you, Mr. Chairman.
    Director, I know you are in a very difficult situation. You 
came in and, under the circumstances, I feel for you and I 
understand. And I thank you for taking this job in the first 
place. Imagine, put yourself in our shoes. We have heard other 
directors say, we are going to take care of it.
    What are you going to do that is going to be different? 
Because we have heard this before and with all due respect to 
you. Tell me, how do you convince us that what you are going to 
do is going to be different?
    Mr. Clancy. I cannot compare myself to the previous 
directors and what they did, but I will tell you that my focus 
is first accountability, and this will be our first test, but 
also listening and communicating with the workforce. And I know 
that sounds like 101 leadership, listening and communicating to 
the workforce, but our people want to be heard.
    And I think that is why there is frustration out there that 
we have not done a good job of listening to our people and 
showing them the respect. So that, you know, again, we have to 
see what the facts are for this case. But in general, if a 
young officer or a young agent sees something that is wrong, he 
has got to feel that when he moves up and gives that 
information up the chain that that will be respected; that 
information will be respected.
    And as we move forward, I have to ensure that those mid-
managers listen to those younger agents and younger officers 
and act upon them. I think too often information is passed up 
and nothing is done about it. So the younger agents and younger 
officers assume that nothing is going to be done. If I resonate 
something up to an upper-level middle management, nothing is 
going to be done. We have got to correct that.
    And there have been individual circumstances, just 
yesterday, as a matter of fact, where I took an action where an 
individual was not being heard, a young officer. I walk by the 
White House every day, and a young officer was not being heard 
on some recommendations that he wanted to make. So I brought in 
upper management. We immediately responded to that officer in 
writing, as well as sat down and went through each of his 
concerns. And we have got to do more of that. And I do not know 
if it has been done that way in the past or not.

                              POPE'S VISIT

    Mr. Cuellar. And, again, basic management 101, as the 
leader of this organization, I understand there is a lot of 
good, honorable men and women working for you all, so you have 
got to look at the morale of the employees, but at the same 
time you have to provide discipline when you have to provide 
discipline on that. So I hope you can find that balance 
quickly.
    I want to be supportive of that, the committee wants to be 
supportive, but I do have other concerns. One other concern is 
the Pope's visit. When he comes down it will coincide with the 
70th anniversary of the United Nations General Assembly, which 
is a very busy time for you all.
    How will the Pope's visit potentially impact the number of 
foreign heads of state attending the U.N. General Assembly this 
year?
    And just to add, my second question is a little different. 
You want to build a $8 million White House replica for 
training?
    Mr. Clancy. Yes.
    Mr. Cuellar. I have concerns about that. Not that I do not 
want to be supportive, but I have concerns about $8 million for 
a replica White House. But talk to me about the Pope first.
    Mr. Clancy. With the Pope's visit, he is confirmed to come 
to Philadelphia for the World Meeting of Families. We also are 
planning for New York and Washington. In Philadelphia alone, we 
expect upwards of 2.1 million people to attend those events.
    At the same time, in September of 2015, we anticipate--
well, we will have the United Nations General Assembly, and we 
expect 170 heads of state to come to that event, because it is 
the 70th anniversary of the U.N. It would not surprise us if 
some of those heads of state travel to Philadelphia to view 
those events.
    So it is going to be very taxing to our agency, but we have 
already started meeting with the local field office in 
Philadelphia, as well as Washington and New York, have already 
been working with our local partners, as well as with the 
Vatican and other federal agencies, to start to put together a 
good plan. Philadelphia has been designated an NSSE, so there 
is funding for that in Philadelphia. As you know, sir, it is 
two-year money. So we will use some of the money left over from 
fiscal year 2015 to help us with the Pope's visit.
    So we are going to be prepared. A lot of 12-hour days for 
all of our agents and all of our officers. We will reach out to 
our Department of Homeland Security partners, TSA 
[Transportation Security Administration] and ICE [U.S. 
Immigration and Customs Enforcement] and Coast Guard for 
support. But we are well on our way to a good plan for the 
Pope's visit.
    Mr. Cuellar. Thank you. And the other question we will do 
hopefully in the second round, because my time is up. Thank you 
so much.
    Mr. Carter. Mr. Young.

                             FIRING PROCESS

    Mr. Young. Thank you, Mr. Chairman.
    Director, thank you for being here today. You talked a 
little bit about how a thorough review needs to be done and a 
process needs to go through to let people go, if they are 
determined that they need to go. What are the steps? How long 
does this take?
    It seems to me that if you do not have swift action, it 
builds more on this low morale, this morale of complacency that 
we hear about. If it is not swift, what's the point? You never 
hear about it in the end. When was the last time the Secret 
Service did fire somebody because of their actions? Was it 
Cartagena or----
    Mr. Clancy. In the Netherlands, there was an individual who 
was drinking on the trip and he has been removed as well, is my 
understanding.
    Mr. Young. How long did that process take to----
    Mr. Clancy. I would turn to our legal----
    Ms. Cahill. He resigned. It was a very short period of 
time, but we did the investigation ourselves.
    Mr. Young. I am surprised that these officers who drove 
drunk through the barricade have not stood up and said they are 
resigning. What do you do with them if you do not let them go? 
I mean, do you trust them? Where would you put them?
    Mr. Clancy. Well, as it is now, they are in non-supervisory 
positions outside of their original offices. One assigned to 
the President's detail has been removed; the other was working 
in the Washington Field Office, [and] he has been removed. Both 
have desk jobs at this time, non-supervisory. Then once the 
process goes through, we will have options toward removing 
their security clearance. If we remove their security 
clearance, then termination would be a factor.

                                 MORALE

    Mr. Young. It seems like such a long and drawn out process. 
I know that if we have problems with a staffer here on the 
Hill, we have the ability to immediately let them go. I am 
wondering where all this comes from. And we will find out, I am 
sure, through the committee what the process is, but it is just 
amazing to me.
    The low morale issue that we hear about--I mean, I 
understand stressful jobs too. You talk about how maybe you are 
just not hearing your officers, but it has got to go deeper 
than that. There has got to be a culture there that you have to 
uncover that is contributing to this. And with the low morale, 
how is that affecting staffing needs in people wanting to come 
work for the Secret Service?
    Mr. Clancy. Yes. Well, with the morale, you are exactly 
right, sir. The staffing is our primary concern, because we do 
not have the proper staffing, although we are working 
diligently to get back up to speed and thank you for the 
funding here. We are building up our staffing pretty quickly 
here. We have added additional personnel in our HR department. 
We have brought in contractors to our HR department, so we can 
build up this staffing. And we are anticipating overreaching 
our goals in terms of hiring fiscal year 2015.
    And that will have a direct impact on morale, because their 
quality of life will be better. They will not have to have as 
many leave days canceled; they will not have to work as much 
overtime. The travel will be somewhat cut back, because there 
will be more people that we can use for this travel. But the 
most important thing with the staffing, or the second piece of 
it, is the training.
    When we get more staffing, then we can get more people out 
to our training facility. Since September 19th, we have already 
taken a big step in that regard. And with additional staffing, 
better quality of life, [and] more training, I think that is 
going to help morale, as well as the accountability. When these 
types of events occur, the accountability is critical.
    And I would just also say that this is not unique to the 
Secret Service, the way that we are handling this particular 
incident. I do not believe other agencies under Title V can 
terminate people at will either, it is my understanding. I may 
be corrected on that.
    Mr. Young. Thank you very much. I want to see you succeed, 
I really do. And we here at the committee want to do what we 
can to be helpful, but we can only do so much by making sure 
that we provide the necessary funds, exercises that you need, 
training and that kind of thing. But it has got to come from 
within and you have got to dig down and find the root of this 
problem, and I hope you succeed. The Secret Service has an 
immensely incredible job, a very important job, as you know, 
one of the most important jobs we have out here with our 
forces. So good luck to you. We are here for you as well, but 
we do demand some accountability.
    Thank you.
    Mr. Clancy. Yes. Thank you.
    Mr. Carter. Mr. Young, our employees are at-will employees, 
their employees are not at-will employees. That is one of the 
differences.
    Mr. Young. Thank you, Mr. Chairman. I knew that you would 
find that answer.
    Mr. Carter. Mr. Fleischmann.

                          TRAINING, CONTINUAL

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Director, thank you for your distinguished career in 
the Secret Service and for stepping up and taking over this 
agency at such a difficult time. When I was a young boy, I 
always looked up to the Secret Service. I would just think 
about protecting the President and the important mission that 
you all have.
    I share the sentiments with my colleagues on both sides of 
the aisle, we want you to succeed. This is something that is 
important for our country and it is a difficult time. We have 
heard about the different problems that the individual agents 
have had.
    After listening to some of the comments I just want to ask 
you this. At the fundamental base of any profession when 
someone is going through training--we heard from one of our 
colleagues in the military, I was trained in the profession of 
law, as was our chairman--there are certain fundamentals that 
are imparted in the recruitment process and in the training 
process. You have inherited this, sir.
    I guess my question for you is, how do we impart the 
values, the good inherent values of the Secret Service to the 
recruits and bring that through the training process, so that 
when an agent comes to the point of becoming an agent these 
issues are something that he or she would just stand up and say 
no to? I think that seems to be one of the fundamental problems 
that we have inherited. I would like your thoughts on that, 
sir.
    Mr. Clancy. Well, you are exactly right. First of all, in 
terms of our hiring and recruiting process, it is a seven-to-
nine-month process. And everyone gets a polygraph, a background 
check. They are thoroughly checked out. Then when we get them 
into our training, they are given classes on ethics, 
professionalism, and it is driven home.
    Somewhere after that training is where we lose them. And I 
think that is because of my leadership, our leadership, that 
somewhere we lose them where they forget those lessons learned. 
And I think the only way we get that back is by, again, the 
accountability that we drive home, so that people realize that 
there are consequences to individual behavior.
    Mr. Fleischmann. Okay. I harken back to the different 
professions. There is continued training for those 
professionals who go through either annual or semi-annual 
updates of what is expected of them. Is that going to be part 
of the process, sir?
    Mr. Clancy. We do five-year updates to go back into their 
neighborhoods to make sure that they are good citizens and so 
on. We continuously do training throughout their careers. But 
in many ways it comes to individual accountability, each of us. 
If you see someone in your presence not performing properly, we 
have got to step up individually and correct it. As well as, of 
course, the supervisors have to do it. But as an agency, we 
have just got to work together to try to get through this.

                     PROFESSIONAL STANDARDS REPORT

    Mr. Fleischmann. Yes, sir. When can the committee expect 
your report on the reviews of professional standards at the 
Secret Service as required by the conference report to the 
Fiscal Year 2015 Homeland Security Appropriations Act? And as a 
followup to that, do you intend in that report, sir, to address 
the concerns that have been raised on both sides of the dais 
today?
    Mr. Clancy. I am sure that will be addressed in that 
report. I do not have a date. Does anyone have it? The near 
future, yeah, within the near future. But we will give you a 
more definitive date, sir, once we conclude this hearing.
    Mr. Fleischmann. Okay. And thank you, Director Clancy. I do 
wish you every success in your endeavors, sir.
    And with that, Mr. Chairman, I yield back.
    Mr. Clancy. Thank you.

                             ACCOUNTABILITY

    Mr. Carter. Thank you for yielding. I have been looking at 
some numbers over here while we were talking. By my estimate, 
you have about 4600 people in your agency who either carry a 
weapon or are eligible to carry a weapon.
    Mr. Clancy. Yes, sir.
    Mr. Carter. Okay. Mr. Stewart made a good example. You are 
not in the Army, you are not in the military, but you have an 
armed force under your command of 4600 armed men and women.
    Mr. Clancy. Yes, sir.
    Mr. Carter. That is a huge responsibility.
    Mr. Clancy. Yes, sir.
    Mr. Carter. The kind of responsibility the chiefs of police 
in major cities have. The chain of command has to be rigid to 
maintain the kind of discipline that is necessary to handle an 
armed force. It is just that simple. By its definition, it is a 
dangerous group of people, whether it be the Houston Police 
Department or whether it be your office. Okay?
    On the IG, I think I know why you did that, because you 
want to make sure this is a clean investigation from the start. 
But having dealt with-- and I am not criticizing any IGs here-- 
it also can be a place to put something to go away for a while. 
And they can take an awful lot of time in an IG investigation 
before it becomes a current event again in Washington, D.C., 
and a lot can calm down in that period of time.
    And having had experience in our Veterans Administration, 
some of the IG investigations, and the results of those 
investigations, can be disappointing. I do not want this to be 
a policy of, ``we have got a problem, punt it to IG, by the 
time they get their job done everybody will have forgotten 
about our problem''. Because I am not going to forget about the 
problem, and I do not think anybody up here is going to forget 
about the problem. The IG, I hope, has been told that they 
better build a fire under their selves and get us a response 
very promptly as to what is going on here. But in reality, you 
are the head-- you have got people above you in the chain, but 
you are in charge of these armed people----
    Mr. Clancy. Yes, sir.
    Mr. Carter [continuing]. And there has to be a strict chain 
of command. The managers of those people should be all over 
them today. If these two people were senior management, you 
should be all over them today.
    Mr. Clancy. Yes, sir.
    Mr. Carter. I realize you have got union contracts, you 
have civil service issues. All those issues protect the worker, 
sometimes to the detriment of the agency. It is a weakness that 
I find appalling. It is one of the things that I wish I could 
wave a magic wand to fix in Washington. I would think the 
ability not to terminate someone for dangerous or bad behavior 
immediately, quite honestly, is unacceptable. But it is not 
your fault, that is the way it is, I recognize that. But in 
turn, you are in command.
    Mr. Clancy. Yes, sir.
    Mr. Carter. You are the two-star. You have a division under 
your command and you have to make sure that everyone in your 
command and control structure are meeting that obligation. If 
everybody is just sitting around and watching me talk on 
television to figure out what it is, I can chew their ass, too.
    Mr. Clancy. Yes, sir.
    Mr. Carter. But that is not my job. That is your job and 
those people in the chain of command. It needs to be done 
whether the IG is making any recommendation or not.
    Mr. Clancy. Yes, sir.
    Mr. Carter. I think it is a barrel push, barrel bump and a 
tape break. But then the question is, you are both holding 
badges, why don't you get out of your car, walk to the crime 
scene and say, what is going on? Instead of being so arrogant 
as to think you can intrude into a crime scene. That is another 
issue. If they were stone sober, that is an issue you have to 
ask them. Are you such a big shot in this agency that you think 
you can just drive right through one of my taped-off crime 
scenes?
    Mr. Clancy. Yes, sir.
    Mr. Carter. That should be something that they get called 
to the carpet for if they were stone sober. They were arrogant.
    Mr. Clancy. Yes, sir.
    Mr. Carter. Part of the politics you can have in an agency 
like you have is people who think they do not put their pants 
on one leg at a time like everybody else.
    Mr. Clancy. Yes, sir.
    Mr. Carter. They are Superman, so they can act like 
Superman. They cannot act like Superman. That is what we are 
really all talking about up here. Your job right now. You know, 
some of these outside reports told the President not to hire 
inside the agency.
    Mr. Clancy. Yes, sir.
    Mr. Carter. You have got a big responsibility, because you 
have 30 years of friends, but you have to start jerking them 
out of their table.
    Mr. Clancy. Yes, sir.
    Mr. Carter. That is your job. When I met you, I believed 
you were the guy that could do it. I still believe you are the 
guy who could do it, but recognize what your authority is and 
exercise that authority.
    Mr. Clancy. Yes, sir.
    Mr. Carter. That is not a question, I just wanted to say 
that, because I think sometimes we get so off acting like 
bureaucrats we forget you are a dangerous bunch of people.
    Mr. Clancy. Yes, sir.
    Mr. Carter. As dangerous people, you have to be within a 
set chain of command regulated from top to bottom or something 
dangerous is going to happen.
    Mr. Clancy. Yes, sir.
    Mr. Carter. That is what we are all worried about up here. 
We do not want anybody under your tutelage to get hurt or to 
allow someone that they are supposed to be protecting to get 
hurt, whether it is the President, the Pope, people at the 
U.N., or whatever. Those are big responsibilities and I think 
your chain of command is haywire.
    Mr. Clancy. Yes, sir.
    Mr. Carter. Work on that.
    Mr. Clancy. Yes, sir.
    Mr. Carter. Ms. Roybal-Allard.

               PROTECTIVE MISSION PANEL: RECOMMENDATIONS

    Ms. Roybal-Allard. Thank you, Mr. Chairman. And let me just 
associate myself with the comments that were made by the 
Chairman. I too believe that you are up to the task and can do 
it.
    Last December, the Protective Mission Panel made a number 
of recommendations for staffing, training, leadership, and 
protective enhancements at the White House complex, and I have 
a few questions that are related to that.
    First, what can you tell us about your schedule for 
fulfilling those recommendations, particularly with regards to 
the improvements to and the replacement of the White House 
fence? And is the budget request sufficient for allowing you to 
fulfill all of the panel's recommendations as expeditiously as 
possible?
    Mr. Clancy. First of all, the budget request is definitely 
a good step forward. And the recommendations from the blue 
ribbon panel, the ones that we can do short term have been 
completed, such as adding additional posts or some enhancements 
on security around the complex. The ones that are more longer 
term, as you mentioned, the fence, we are in the process of 
doing a study. By the end of April, I should get some options 
to choose what is the best new fence or new structure to 
protect the complex there.
    And with the National Park Service, we will make a decision 
on where to go with that. But even after we pick and choose 
that option, then we go into a design stage, about six months. 
Then a procurement stage, maybe two months. Then the 
construction phase. So it is still going to take almost a year 
and a half to complete that project.
    However, we have been testing at our facility some interim 
measure for the fence. Putting something on top of the fence 
that will deter people from climbing and will prevent people 
from getting over in a timely manner. We recognize that that is 
a long time to wait, a year and a half. So we are looking at an 
interim measure to go in place this summer, if we can get the 
proper approvals.

             PROTECTIVE MISSION PANEL: RESTRUCTURING STAFF

    Ms. Roybal-Allard. Okay. And the Mission Panel also 
recommended that the next director, which would be you, conduct 
an honest top-to-bottom reassessment of the agency and that he, 
and this is a quote, ``move the service forward into a new era 
and drive change in the organization.''
    What are you putting into place to help you look more 
broadly at the agency's practices, processes and activities to 
identify places where improvements are needed, so that the 
initial training of new agents is not lost and senior members 
help to reinforce the ethics and the training that young agents 
get, rather than whatever is happening today?
    Mr. Clancy. Well, overall, we have begun a restructuring of 
the executive staff. First of all, with bringing in some new 
staff members with new ideas and reinvigorating some of the 
things that we want to do in the agency.
    But additionally, we are empowering and elevating our 
civilian professional subject matter experts. Just as an 
example, traditionally the Secret Service has had a director 
and a deputy director. We now have, and it should go out this 
week, a vacancy announcement for a chief operating officer who 
will be on the same level as that deputy director. That chief 
operating officer will ensure that the business is run 
correctly, efficiently. And we have put under this chief 
operating officer positions that traditionally have been agent-
held positions.
    We are using, for example, the chief financial officer. 
Traditionally, the chief financial officer has answered to an 
agent. Well, now we have elevated the chief financial officer, 
so that we do a better job in the budget world. Same with our 
technology. Typically, that directorate was run by an agent. We 
have moved our engineer chief technology officer now to run 
that directorate. We also have a nationwide search right now 
for a civilian private-sector CIO, chief information officer. 
So we want to leverage their experiences, their 
professionalism, their subject matter expertise in our agency.
    Now, additionally, on the operational side, you mentioned 
the training piece of it. Prior to me being named the director, 
the HR and the training directorate, it was all one 
directorate. I split them out to provide focus on training, as 
well as the hiring process, but specifically the training. Now 
we are spending a lot of time ensuring that the people get the 
right integrated training that they need.
    Since September 19th, Uniformed Division training has 
increased 110 percent; the agent training has increased 78 
percent. We have got to sustain that, though, and that is why 
we have got this new directorate for training, to sustain that 
level of training that our people need; they need that 
training. So in general, to your question, we are restructuring 
the management of the agency.
    Ms. Roybal-Allard. I see that my time is up, Mr. Chairman.
    Mr. Carter. Thank you. Mr. Cuellar.

                   PROTECTIVE MISSION PANEL: TRAINING

    Mr. Cuellar. Thank you so much, Mr. Chairman.
    The Department of Homeland Inspector General and I think 
the Professional Reinforcement Working Group have come up with 
different recommendations. Have you all--well, I know you have 
implemented some of them, but have you implemented all of them 
or there are still missing? What still needs to be done on 
those recommendations?
    Mr. Clancy. For the Protective Mission Panel?
    Mr. Cuellar. Yes.
    Mr. Clancy. I'm sorry. The longer-term projects, for 
example, you mentioned earlier the training facility out at our 
Beltsville training facility, the mockup of the White House, we 
feel that is important. Right now, we train on a parking lot 
basically. We put up a makeshift fence and walk off the 
distance between the fence at the White House and the actual 
house itself. On that parking lot, we do not have the bushes, 
we do not have the fountains, we do not get a realistic look at 
the White House. And even our K-9, they are responding on hard 
surfaces rather than grass.
    So we think it is important to have a true replica of what 
the White House is, so we can do a better job of this 
integrated training between our Uniformed Division officers, 
our agents, and our tactical teams. In fact, when I mention 
tactical teams, I think Special Forces before they go out to do 
some kind of an operation, typically they have a model built 
first, so they know exactly what they are getting into, and 
that is where we would like to be. We would like to have a good 
mockup of the White House where we can train, I think, more 
efficiently.
    Mr. Cuellar. Okay. When you look at the Secret Service, you 
have got to look at the employees that are there and then the 
employees that will be there, that is, hopefully a diverse 
hiring process.
    How will you focus on the folks--and I know you have gone 
over this, but just summarize it--on the employees who are 
there and then on the new hires that will be coming in to make 
sure that you do not compound the problem?
    Mr. Clancy. Right. There is of course continual training. 
You mean the problem that we have had recently, the March 5th--
--
    Mr. Cuellar. Well, the problems that have been going on for 
years.
    Mr. Clancy. Years. I'm sorry. Yes, sir, for years. We have 
continuous training. We hit it very hard in our first seven 
months of training when they first are hired, as well as that 
background check that we do. We look for any deficiencies in 
their background and the polygraph. We lose a considerable 
number of candidates because of the polygraph. We are looking 
for those people with the best character and then we go through 
that background check.
    So we think we are hiring very good people. Then we go 
through that seven-month training that the ethics and 
professionalism is stressed, as well as the operational piece 
of our job.
    Although we continue to train and we continue to give 
classes on ethics and professionalism throughout their career, 
I think as much as anything it has to be, how do we react to 
these mishaps? Or not mishaps, this misconduct. How do we hold 
people accountable? And I think that is the piece that may be 
missing and that is the piece that it is my responsibility to 
ensure that we hold people accountable.

                               ATTRITION

    Mr. Cuellar. Do you lose a lot of people by attrition?
    Mr. Clancy. We lose a lot of people by attrition. More 
recently, I would say because of their quality of life. When 
you are working 12 hours per day and you think you have the 
next day off and it is canceled, the amount of travel they do, 
and the stress that we are under increases. And I know maybe 
folks do not want to hear us talk about it----
    Mr. Cuellar. Do you lose some--I'm sorry, I apologize, sir. 
Do you lose them to other agencies or do you lose them to the 
private sector?
    Mr. Clancy. We lose them to other agencies. But what I have 
done since I have come here is, for example, Uniformed 
Division, I have encouraged and insisted that these Uniformed 
Division officers who want to roll over to the special agent 
positions, we have got to make that happen. We cannot do it all 
at once, but we have got to make more of an effort to let them 
become agents, because they want to experience that side of our 
agency.
    And if we do not do that--and we invest a lot of money in 
them--if we do not do that, they are going to go to other 
federal agencies or the private sector. So we do not want to 
lose them after all the investment that all of you have 
supported.

                           HIRING: DIVERSITY

    Mr. Cuellar. Do you in the hiring process--and I do not 
know how diverse your workforce is, but do you work with 
historically black universities or Hispanic institutions to 
expand the pool? Because you are going to have a small pool and 
then, as you vet them, you lose a lot. But if you expand the 
pool, do you work with those universities to help expand the 
pool to look for potential recruits?
    Mr. Clancy. Part of this I will have to go on memory. I 
know that we did and then over the last few years I think just 
our overall hiring process has been limited, but now we are 
back on track and we are going to go out to those colleges. 
This fiscal year 2016, we have asked for additional money so 
that we can have these hiring fairs at these universities and 
in the military as well, to get a good diverse group of people 
that we can hire.

                        SECRET SERVICE TRADITION

    Mr. Cuellar. I have got about 45 seconds. Just real 
quickly. The Secret Service has a tradition, but lately it has 
taken a black eye. How do you expect to turn this around 
quickly? Because we have heard other folks sat exactly where 
you are at. How do we take your new initiative to say this will 
be different this time?
    Mr. Clancy. It has to start with building that trust, and 
part of that building that trust is how we hold people 
accountable. And that people's views matter. Whether you are a 
brand new agent, officer, or professional, that we are 
listening to your concerns. And then we have to act on those 
concerns. If we do not act on their concerns and show their 
value, show that their concerns are of value, then they are 
going to lose interest and we are going to have these 
discipline problems. But we have got to do a better job of 
communicating, mentoring, teaching, and each of us, whether you 
are a supervisor or not, has to take responsibility to ensure 
that these types of events do not happen.
    Mr. Cuellar. I wish you the best.
    Mr. Clancy. Thank you.
    Mr. Cuellar. Thank you, Director.

             PROTECTIVE MISSION PANEL: ZERO-BASED BUDGETING

    Mr. Carter. Director Clancy, you mentioned in your 
statement zero-based budgeting.
    Mr. Clancy. Yes.
    Mr. Carter. And one of the Mission Panel recommendations is 
the need for a new budget structure that is zero-based or 
mission-based as its subject matter. How is this different from 
the budget presented in your fiscal year 2016 request? What 
type of budget reform is being considered, and how will it be 
implemented? How might a new type of budget drive future 
funding needs? Have you already identified gaps in funding 
based on initial reviews of the budget?
    Mr. Clancy. No, that is fine. Thank you, Mr. Chairman. 
Again, the fiscal year 2016 budget is one that basically I 
inherited. I think it is a good budget. I think that it is 
definitely a step forward in a very positive direction. We are 
in the process now of identifying from top to bottom where are 
our deficiencies.
    And that zero-based budgeting, which, to be candid, our 
chief financial officer has some experience in that from a 
previous position in another agency, we are going directorate-
by-directorate to see what those needs are, so that we can have 
our people best trained, staffed, and give them the proper 
equipment. So we are compiling a list of those priorities and 
things that we really need.
    Mr. Carter. My friend, Mr. Cuellar, has talked to me about 
some of the budgeting and appropriating ways they do things in 
the great State of Texas and points out that when you have a 
mission, when you are defining what it is going to cost to do a 
certain mission, then we can see where the failures are in each 
mission and we can budget and make changes accordingly. Isn't 
that what you have been furnishing me with, Mr. Cuellar?
    Mr. Cuellar. Yes.
    Mr. Carter. That is what you seem to be proposing, which 
quite honestly gives us a clearer picture. It gives you a 
clearer picture and gives us a clearer picture of how the 
agency is functioning.
    Mr. Clancy. Right.
    Mr. Carter. I like the idea. I hope you do well.
    Mr. Clancy. Thank you. And we are constantly looking at the 
emerging threats. As we talked before in your office about the 
UASs and what we need to address these emerging threats. So 
that is all part of this budget process.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Just quickly I would like to follow up 
on the zero-based budget. Can you tell me what the time line is 
for completing that kind of analysis?
    Mr. Clancy. Initially, we were hoping that we might get 
into-- My chief financial officer just gave me an answer here.
    At 2017, you can expect a mission-driven, programs-
identified budget. So by 2017, we will be well on our way to a 
zero-based budgeting.

                    PROTECTIVE MISSION PANEL: HIRING

    Ms. Roybal-Allard. Okay. Great. One of the central 
recommendations of the Protective Mission Panel was to hire an 
additional 200 uniformed division officers and to increase the 
number of protective division agents by 85. The panel described 
this new hiring as an interim step while the agency does the 
necessary analysis to match personnel requirements with mission 
needs. I am also aware that the Secret Service has struggled in 
recent years to keep attrition from outpacing hiring and that 
you have recently taken steps to address that.
    So my question is, are you satisfied that you have resolved 
the shortcomings in the hiring process and do you anticipate 
that the Secret Service will be able to meet its hiring goals 
for fiscal year 2016?
    Mr. Clancy. Yes. In short, yes. With regard to the 
Protective Mission Panel and recommending 85 agents come to the 
President's detail, as of this date we have 30 who have been 
reassigned to the President's detail. But now, thanks to your 
good work with the continuing resolution being resolved, we can 
transfer more people into Washington, so that we can fulfill 
that 85 number requirement.
    In Uniformed Division, we are working with your staff to 
look for retention measures that may allow us to keep some of 
these people that are close to retirement or maybe looking at 
other opportunities. The retention piece is important to us as 
well, because our hiring, we are going to surpass our goals. 
Initially, we planned to have six classes of agents, six of UD, 
now we are anticipating nine agents' classes and eight 
Uniformed Division.
    Ms. Roybal-Allard. Okay. My time is up, Mr. Chairman.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. No further questions. Just we want to work 
with the Director. Thank you.
    Mr. Clancy. Thank you.
    Mr. Carter. Ms. Roybal-Allard is recognized.

             MISSING AND EXPLOITED CHILDREN INVESTIGATIONS

    Ms. Roybal-Allard. The budget once again proposes to 
eliminate $8.4 million for support of missing and exploited 
children investigations, including funding that has supported 
activities at the National Center for Missing and Exploited 
Children. The justification materials indicate that forensic 
support for missing and exploited children investigations will 
continue to be provided through the agency's field offices.
    The Secret Service has a longstanding partnership with the 
National Center for Missing and Exploited Children going back a 
decade. And while I understand there may be a need to 
prioritize funding for activities within the agency, it seems 
to me that we should be wary of weakening that partnership.
    What would be the specific impacts on the National Center 
if we were to appropriate no funding for the support program in 
fiscal year 2016 and what are the benefits to the Secret 
Service from the existing partnership?
    Mr. Clancy. We understand this is a pass-through grant 
through the Department of Justice. This is a very important 
mission to us. It has so many good things; it is such an 
important job. But we offer a lot to our local law enforcement 
partners with the forensics that we can do, the polygraphs that 
we can do for them, and just the relationship building as well. 
But we can bring a lot to the table to try to help with this 
very important mission and we are very thankful to be able to 
do this moving forward, if we can.
    Ms. Roybal-Allard. Okay.
    Mr. Carter. All right. If no one else has any questions, 
then We will end this hearing. I want to say that this has been 
a tough day for you, but it is all a learning process. Once 
again, we are part of that chain and we are willing to help.
    Mr. Clancy. Yes, sir. Thank you, Mr. Chairman.
    Mr. Carter. Thank you.
                                          Thursday, March 19, 2015.

                 TRANSPORTATION SECURITY ADMINISTRATION

                                WITNESS

MELVIN CARRAWAY, ACTING ADMINISTRATOR
    Mr. Carter. All right. I am going to call this hearing to 
order.
    This morning, we welcome Acting Administrator Melvin 
Carraway.
    Administrator, thank you for being here today to testify 
about the Transportation Security Administration's fiscal year 
2016 budget request.
    While threats to transportation security obviously evolve, 
one thing remains constant. America's aviation sector is a 
primary target for terrorists.
    A recent Al-Qaeda publication encouraging attacks on U.S. 
flights using homemade explosives provided yet another reminder 
that we must be vigilant and we must adapt to address these 
changing threats.
    Fiscal year 2016 budget for TSA is nearly $4.8 billion 
which is $68 million below fiscal year 2015. This decrease is 
primarily driven by a reduction in screening personnel and 
other efficiencies achieved as a result of savings from TSA's 
continued implementation of risk-based security initiatives.
    As you know, this committee has long supported risk-based 
approaches to transportation security as an effective means of 
improving security and streamlining operations, also while 
reducing costs.
    In this time of shrinking budgets, I commend TSA for 
finding ways to maximize the impact of limited resources and 
for continuing to see ways to build upon these efforts. 
However, we must ensure the expansion of TSA's risk-based 
programs are carefully considered and purposely implemented and 
they are first and foremost grounded in improving security.
    Transportation security has, and will remain, a priority 
for this subcommittee. I look forward to hearing from you today 
about how TSA is further implementing its risk-based efforts in 
driving down costs while strengthening the security of our 
Nation's transportation system.
    Administrator, your written statement will be placed in the 
record, so I ask you to take five minutes to summarize.
    But first I would like to recognize Ms. Roybal-Allard, our 
distinguished ranking member, for her opening remarks.
    [The information follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Administrator Carraway, welcome to your first appearance 
before the subcommittee and congratulations on your appointment 
as acting administrator.
    Mr. Carraway. Thank you very much.
    Ms. Roybal-Allard. We are here to support your efforts to 
ensure the security of the traveling public and we appreciate 
your hard work and commitment and that of TSA personnel.
    For several years now, the proposed budget for TSA has been 
coming down instead of going up with net savings of $68 million 
proposed for fiscal year 2016 compared to fiscal year 2015, 
including a reduction of $51 million for screeners. This has 
occurred in the context of a growing volume of passengers. 
Given the fiscal challenges we face, we are going to need that 
savings from TSA in the coming years and perhaps even more.
    TSA's risk-based approach to aviation security is a success 
story, but I think it is important for us to understand and to 
have confidence in the underlying risk assessments. And I will 
be asking you later in the hearing about that process.
    Most of the TSA workforce is performing admirably in what 
is a very difficult, often very strenuous occupation. And as 
was tragically confirmed in late 2013 with the shooting death 
of TSO Gerardo Hernandez at the Los Angeles Airport, it can 
also be a very dangerous occupation.
    As you know, the fiscal year 2015 funding bill that the 
President signed into law just a few weeks ago included a 
provision making the family of TSO Hernandez eligible for 
benefits under the Public Safety Officers Benefits Program.
    We do still hear about unprofessional behavior by some 
TSOs, however, and occasionally see it ourselves in our 
frequent travels between home and Washington.
    We want to work with you on continuing to improve the 
interactions between TSA and the public. Administrator 
Carraway, I look forward to this morning's discussion of TSA's 
proposed budget for the coming year.
    [The information follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    Mr. Carter. Administrator Carraway, I am looking at the 
ticking clock on our vote. I think we have got time for us to 
do your opening statement and then we will take a brief recess 
while those of us up here go vote. And then we will get back to 
the business we are about.
    Mr. Carraway. No problem.
    Mr. Carter. I will recognize you for five minutes to give 
us a summary of your presentation and it is your turn.

            Opening Statement: Acting Administrator Carraway

    Mr. Carraway. Yes, sir.
    Good morning, Chairman Carter and Ranking Member Roybal- 
Allard and distinguished Members of the subcommittee. Thank you 
for the opportunity to appear before you this morning.
    TSA is tasked with protecting the Nation's transportation 
systems and has developed its fiscal year 2016 budget request 
with three priorities in mind, advancing risk-based security, 
enhancing workforce engagement, and improving organizational 
efficiency. TSA could not accomplish this mission without a 
trained and equipped workforce.
    In recent years, the adversaries we face have become more 
inventive, persistent, and adept in design, construction, and 
concealment of explosives, and they are not isolated to a 
single country or to a single region of the world. As such, TSA 
is working to mitigate the risk we all face when traveling 
from, within, and to the United States.
    In 2014, TSA and transportation security officers screened 
approximately 650 million passengers and more than two billion 
carry-ons and checked bags preventing approximately 105,000 
dangerous, prohibitive items including 2,300 firearms from 
being carried on to planes.
    Federal air marshals flew thousands of miles providing in-
flight security for high-risk routes. Visible Intermodal 
Prevention Response, we call them VIPR teams, conducted almost 
17,000 operations. Transportation security inspectors completed 
17,000-plus aircraft operator inspections and more than 3,000 
foreign air carrier inspections to ensure compliance with rules 
and regulations.
    And TSA's vetting system perpetually vetted 14.8 million 
transportation workers' records each day against the terrorist 
screening database.
    Our risk-based security [RBS] initiatives boost the 
effectiveness of security resources by focusing on high-risk 
and unknown travelers and commerce, while at the same time 
facilitating the efficient movement of legitimate travel and 
trade. As a result, TSA's RBS initiatives are responsible for 
approximately $350 million in savings over the past two years.
    There are now 132 airports offering expedited screening 
through TSA pre-check, and we have opened 326 enrollment 
centers to support our ability to grow the population of 
eligible travelers across the country. As a result, TSA 
increased the percent of passengers receiving some form of 
expedited screening from 9.6 volume in September of 2013 to 
44.3 one year later. TSA pre-check volume has increased 600 
percent since 2013.
    To help facilitate greater participation in our expedited 
screening initiatives, TSA is exploring private-sector 
enrollment capabilities leveraging industry's expertise.
    This President's budget for fiscal year 2016 includes $7.3 
billion for TSA, which represents a seven percent decrease over 
the past five years and a savings of $653 million in 
appropriated funding.
    The fiscal year 2016 budget includes a reduction of $119 
million and 1,748 personnel related to workforce savings from 
RBS efficiencies. As RBS measures change the nature of the 
airport screening operations including reducing the number of 
necessary lanes, TSA can also reduce the number of 
transportation security explosive technicians.
    These experts resolve checkpoint alarms when a suspected 
threat is detected; with fewer screeners and improved 
technologies, these experts are required. They are necessary. 
This will result in a reduction of $2 million and 18 employees.
    Additionally, TSA recently conducted an analysis of 
inspection data and risk scores to drive and prioritize 
inspection activity. And as a result, TSA is proposing a 
reduction of $6.5 million and 64 employees.
    In April of 2012, TSA established the TSA Academy located 
in the Federal Law Enforcement Training Center [FLETC] in 
Glynco, Georgia and joined more than 92 partner organizations 
who train there at FLETC. The academy's initial course offering 
taught the essentials of supervising screening operations and 
was led by a dedicated group of instructors and facilitators 
including academy staff, federal air marshals [FAMs], and FSDs, 
federal security directors.
    In support of TSA's effort to further professionalize its 
screening workforce, this budget request includes $2.5 million 
to expand the mission, essential training at the TSA Academy. 
The funding will expand training staff to serve more and more 
employees and support beneficial follow-on training.
    The budget request also supports an increase of $5.2 
million to hire and train additional FAMs. The last class of 
FAMs came on board in September 11, 2011, and it is again now 
time for this vital program to be refreshed.
    As TSA continues applying risk-based security principles 
throughout the organization, we must also continue investing in 
the workforce. We need to ensure our future successes. Through 
hard work and operational efficiencies, we are becoming a 
smaller, more capable, more professional workforce.
    Mr. Chairman, thank you again for the opportunity to 
discuss the President's fiscal year 2016 budget for TSA. I look 
forward to working with this committee, and I am pleased to 
answer any questions that you may have.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    Mr. Carter. Well, thank you, Administrator, and good time.
    Give us a chance to go vote and I hope that everybody will 
return. How many votes do we have, two? Probably 30 minutes, 45 
minutes at a max.
    Mr. Carraway. Yes, sir.
    Mr. Carter. Okay. We will try to get back as quick as we 
can.
    Mr. Carraway. I will be waiting patiently.
    Mr. Carter. All right. Just relax. Have a cup of coffee.
    Mr. Carraway. Yes, sir.
    [Recess.]
    Mr. Carter. Well, we are pretty close on the time.
    Mr. Carraway. Yes, sir.
    Mr. Carter. I said 30 minutes and that is just about 30 
minutes. Thank you for waiting.
    Mr. Carraway. No problem.
    Mr. Carter. We will try to get through this as efficiently 
as we can.
    Mr. Carraway. Yes, sir.

                          RISK-BASED SECURITY

    Mr. Carter. Let me start off. You and I had a pleasant 
conversation yesterday.
    Mr. Carraway. Yes, sir.
    Mr. Carter. As I mentioned in my opening remarks today, I 
was very pleased to see TSA that the fiscal year 2016 budget 
request is $68 million below fiscal year 2015 levels, primarily 
due to staffing reductions and other efficiencies that are the 
result of implementing risk-based security measures.
    As TSA continues to expand these efforts, do you anticipate 
additional efficiencies and the ability to further reduce the 
number of federal screeners? And what metrics is TSA using to 
project future efficiencies?
    Mr. Carraway. Thank you, sir.
    Yes. Although the savings from both 2014 and 2015 were 
significant, the 2015 request has particularly significant 
savings it will be difficult for us to get that amount of 
savings in future years. But, yes, I believe we can get 
additional savings by increasing the enrollment in pre-check. 
We believe there is an initiative there that if we increase 
that enrollment, that is where additional savings can come 
from.
    We believe also by looking at purchasing technology, 
networking them together, [and] using better acquisition 
management skills and processes that we put in place, we can 
create some savings there as well. So, yes, I believe we can. 
But at the rate of the past two years, it will be tough, but I 
believe we can create some savings.
    Mr. Carter. Well, you know, every little bit counts.
    Mr. Carraway. Yes, sir.

                           PRE-CHECK PROGRAM

    Mr. Carter. I was with a group of people last night and we 
were talking about TSA. And there was a lot of praise, I will 
let you know.
    Mr. Carraway. Thank you.
    Mr. Carter. But one of the questions somebody raised when I 
asked them ``what is the ability to advertise this pre-check 
program'', and someone told me, and this may be a hearsay that 
they told me, that some of the industries, airline or airport 
industries had volunteered to do a public relations campaign. 
And they said it was not possible to be done.
    Now, you know, we have put together public/private 
partnerships already in our Homeland Security Department and we 
are having good results from them. Chambers of Commerce and the 
travel industry would be a perfect partner to partner up with 
TSA to do a promotional campaign about how pre-check works 
because the regular traveling public pick it up in rumors or so 
forth.
    This is a program that we are shooting for as we discuss 
around a 50 percent participation.
    Mr. Carraway. Right.
    Mr. Carter. Would you be amenable or would you look in to 
seeing if there is any kind of roadblock somewhere that I am 
not aware of?
    Mr. Carraway. Most definitely, sir. As you well know, TSA 
pre-check has been the premier initiative of RBS. And we always 
look for better ways to increase the enrollment. We had 
recently put out an RFP [request for proposal] in regard to 
third-party options for TSA pre-check. Because of some 
technical changes, I have pulled that RFP, but hopefully in the 
near future here, we will have that back out.
    But that was simply recognizing that industry may be better 
at the marketing effort than we are. We do have individuals 
within our office that are helping to market TSA pre-check, but 
we believe that a third party might be able to do that even 
better. But we are constantly making those relationships 
happen, so I will be more than happy to pursue that even 
further.
    Mr. Carter. It seems to be a good solution. You have a lot 
of parts of our country that are very dependent on tourist 
trade. The Chambers of Commerce may be willing to participate. 
There is a lot of avenues that might be very productive----
    Mr. Carraway. Yes, sir.
    Mr. Carter [continuing]. To start promoting this. This 
committee strongly supports the expansion of the program. And 
we just talked about the private sector screening.
    Do you think we have the ability in place to meet our goal 
of 50 percent to utilize current staff, and meet what we are 
trying to do to move things along in the pre-check line?
    Mr. Carraway. Well, I think to get there, and we are close, 
Mr. Chairman, we are very, very close. That is why I believe 
better marketing, increasing with the traveling public and 
others to market TSA pre-check even better will get us to that 
50 percent.
    Mr. Carter. Okay. Ms. Roybal-Allard.

               BEHAVIORAL DETECTION AND ANALYSIS PROGRAM

    Ms. Roybal-Allard. I want to talk a little bit about the 
Behavioral Detection and Analysis Program which, as you know, 
has been the subject of some criticism, including a 2013 
Government Accountability Office assessment concluding that, 
and this is a quote, ``The human ability to accurately identify 
deceptive behavior based on behavioral indicators is the same 
as or slightly better than chance,'' end of quote.
    I also understand that, in response, TSA enlisted an 
independent third party to evaluate the behavioral indicators 
on which the program is based.
    As you know, the fiscal year 2015 House report also 
expressed concerns about the program and we included language 
in the enacted bill requiring TSA to document evidence within 
90 days of enactment that behavioral indicators can be 
effectively used to identify travelers who may pose a threat to 
aviation security.
    Has a third-party evaluation been completed and, if so, 
what can you tell us about its conclusion? Also given the 
concerns about the program with regards to it being used as a 
basis for profiling, what safeguards are in place in terms of 
both training and supervisory review to ensure that this is not 
occurring either intentionally or unintentionally?
    Mr. Carraway. Well, I can tell you the reports should be 
coming to you very, very soon. And we will get that and discuss 
it with you as well as other Members of the committee. So they 
should be to you very shortly.
    Ms. Roybal-Allard. Okay. Do you have any idea? Are we 
talking a month, two months or----
    Mr. Carraway. It should be within the month. It should be 
very shortly. It is being reviewed right now. I know that is 
occurring.
    Ms. Roybal-Allard. And will that have also recommendations 
in terms of safeguards or is that something that you are now 
looking at and putting into place?
    Mr. Carraway. I am looking at putting into place.
    Ms. Roybal-Allard. Okay. And you will be able to report to 
us----
    Mr. Carraway. Yes.
    Ms. Roybal-Allard [continuing]. What those safeguards are?
    Mr. Carraway. Yes. And further in regard to your question, 
I have over 30 years of experience with law enforcement, and I 
have a great deal of experience in dealing with behavior 
detection both with officers in the Indiana State Police as 
well as BDOs [Behavioral Detection Officers].
    For us in TSA, it is again another layer that is utilized, 
and it is totally agnostic to what the threat is. It provides 
to us a real layer of security that is indispensable.
    In regard to profiling, I have disciplined folks for 
profiling. What the BDOs do is not profiling by any measure. 
And I think there is a lot of misconceptions about that. We do 
not tolerate profiling. It is inappropriate, and it does not 
help us in regard to the threat that is ever changing, that is 
ever evolving in the aviation environment.
    And in regard to the BDOs, they are constantly going 
through certifications among themselves and with their 
supervisors. As you can imagine, the only metric that is the 
best metric is that there has not been a bomb or a person 
through the checkpoint with that. That is a cost benefit that 
is totally immeasurable.
    So I am very satisfied with what the BDO is doing, but I 
would be more than happy to bring you the report as soon as it 
is completed.
    Ms. Roybal-Allard. I would appreciate that.
    And I just have a follow-up question with regards to BDOs. 
The budget request proposes a reduction of around 470 BDO 
personnel in fiscal year 2016.
    Mr. Carraway. Yes.
    Ms. Roybal-Allard. And although I understand that some TSOs 
will carry out BDO activities on a part-time basis, overall 
should we interpret that as a downsizing of the Behavioral 
Detection and Analysis Program?
    Mr. Carraway. No. It is more really the true application of 
RBS. As you know, the RBS philosophy and practice is to take 
those resources and put them in places where the high risk 
really is. And what we have done is we have taken those BDOs 
and put them in the airports that we have determined to be the 
highest risk, the highest threat areas. So that is what is 
really occurring with the BDOs.

                     PROHIBITED CARRY-ON ITEMS LIST

    Ms. Roybal-Allard. Okay. Mr. Chairman, I do not know how we 
are doing with time.
    Mr. Carter. I am not keeping time. If you want to ask some 
more questions.
    Ms. Roybal-Allard. Well, I will just ask one more if I may.
    Mr. Carter. Please do.
    Ms. Roybal-Allard. Okay. Thank you.
    TSA continues to make progress in adopting a risk-based 
approach to aviation security with clear benefits in terms of 
cost savings and more convenience for the traveling public. But 
as we found out in 2013 with the proposed changes to the list 
of prohibited carry-on items, it is essential that risk 
analysis be rigorous, transparent, and convincing to 
stakeholders.
    Despite the fact that the International Civil Aviation 
Organization changed its standards to permit passengers to 
carry small pocketknives in 2010, the House and many 
transportation stakeholder groups were not convinced, and TSA 
was ultimately forced to withdraw its proposed changes.
    More recently, GAO [U.S. Government Accountability Office] 
issued a report addressing shortcomings of the 2013 process and 
included two recommendations for the future. First, GAO found 
that TSA did not sufficiently engage external stakeholders, 
including a failure to solicit input from the Aviation Security 
Advisory Committee. And, second, GAO found that TSA did not 
actually measure whether airport screeners would be better able 
to identify explosives if they no longer had to screen for 
small knives.
    I understand that TSA is now actively working with the 
Aviation Security Advisory Committee; is that correct?
    Mr. Carraway. Yes.
    Ms. Roybal-Allard. Okay. My question is, does TSA 
anticipate proposing any new changes to the prohibited carry-on 
items list? Also, what is the agency's process for considering 
such changes and is it part of a routine analysis of the 
agency's practices or is it a less formal process?
    Mr. Carraway. Thank you for that question.
    There are no changes being proposed or considered at this 
time in regard to the prohibited items list at all. And there 
is considerable engagement with the Aviation Security Advisory 
Committee. One of my very first actions as deputy to TSA was 
meeting with the Advisory Council. And my experience and my 
background is developing those types of relationships.
    I understand how valuable they really are to an agency such 
as TSA and to moving forward with any recommendations of that 
type. It is my experience to get advice, to counsel, to 
communicate with them about any of those types of--the aviation 
industry particularly--about any changes in that regard.
    Ms. Roybal-Allard. Okay. And do you agree with GAO's 
conclusion that TSA did not conduct an adequate risk analysis 
before----
    Mr. Carraway. Well, I was not----
    Ms. Roybal-Allard [continuing]. Proposing? I am sorry.
    Mr. Carraway. I was not here at that particular time, but I 
can simply say that any changes of that type require 
communications and sometimes the aggressiveness to try to do 
things in what you think would be an appropriate way. In the 
case of the knives, that seemed to be a very innocuous thing to 
take off the prohibited items list.
    It is very significant to the traveling public as well as 
to flight attendants and even to our own personnel. So, again, 
it is an RBS, certainly an RBS initiative because if you think 
about the knives, the small knives, what vulnerability or 
consequence would really come from those. But in the long run, 
it really becomes an issue of all of those entities, airlines, 
flight attendants, passengers as well. And so we have to take 
those things into consideration.
    Ms. Roybal-Allard. So are you reviewing the risk analysis 
process?
    Mr. Carraway. We do that constantly.
    Ms. Roybal-Allard. You do. That is constant. Okay.
    Mr. Carraway. That is a constant effort with us because the 
threat changes.
    Ms. Roybal-Allard. All right. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Fleischmann.

               INTERNATIONAL PARTNERS, RELATIONSHIP WITH

    Mr. Fleischmann. Thank you, Mr. Chairman. Mr. Chairman, 
thank you.
    Good morning, Mr. Administrator.
    Mr. Carraway. Good morning. Good morning.
    Mr. Fleischmann. It is a pleasure to see you again and I 
thank you for your patience as we started and went and voted. 
And it is good to see you, sir.
    Mr. Carraway. Likewise.
    Mr. Fleischmann. Mr. Administrator, I have spoken 
previously with the former administrator about the 
Transportation Security Administration's close work with 
industry since September 11th to stay ahead of the latest 
threats to our Nation. As TSA works to keep the Nation's 
aviation sector secure, it is important to maintain that close 
working relationship.
    Could you discuss with us today what TSA is doing to learn 
from international partners as well as other stakeholders with 
global footprints to gain insight into industry efforts and 
experiences abroad and how these lessons could be shared and 
applied in the U.S., sir?
    Mr. Carraway. Certainly. With the 200-plus last points of 
departure in our international domain, we keep close ties with 
those international partners. We have officers from our Office 
of Global Strategies. They are liaisons with our international 
partners.
    I myself have made trips to international partners to 
discuss the threat, to talk about partnering in activities in 
which we can minimize and buy down the risk. We talk about 
technologies as well.
    That is an important factor because, as I stated in my 
opening statement, the threat can come from overseas as well as 
was indicated by the underwear bomber, the shoe bomber, and 
others. It is from those points of international departures 
that the threat may come to the United States. So it is 
critical to maintain those relationships and we do that 
constantly.

                  AVIATION SECURITY ADVISORY COMMITTEE

    Mr. Fleischmann. Thank you, sir.
    As a follow-up, I believe you have already talked about it, 
and I am glad you are meeting with the Advisory Council. I 
would like to ask for an update on the Aviation Security 
Advisory Committee which former Administrator Pistole noted, 
and I quote, `` plays a vital role in helping TSA continuously 
enhance our ability to ensure the security of the traveling 
public,'' end quote.
    What is the status of TSA's activities to solicit 
stakeholder input through ASAC, sir?
    Mr. Carraway. Oh, that is a great question, sir, because 
right now, because of an incident that occurred in Atlanta, the 
Advisory Committee is working with us in putting together 
initiatives and safeguards in regard to employee and worker 
screening activities at the airports.
    They have been totally engaged. We provided staff to work 
with them. We have had collaborations. Their responsibility is 
to provide us a report that should come to us about the first 
week of April. And I look forward to sharing with you the 
findings and the recommendations from their activities.
    Mr. Fleischmann. Thank you, sir.
    Mr. Chairman, that concludes my questions. I will yield 
back, sir.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Mr. Administrator, thank you so much for being here with 
us.
    Mr. Carraway. Thank you.

                          RISK-BASED SECURITY

    Mr. Cuellar. Let me direct your attention to page 3 of your 
testimony where you are talking about how TSA has gained 
efficiencies through the RBS initiative with savings of 
approximately $350 million over the past two years. And I do 
not know if this has been covered because I had another----
    Mr. Carraway. I understand.
    Mr. Cuellar [continuing]. Meeting at the same time. Tell me 
about that because I am really encouraged by that and I 
congratulate you. And how in details have you--how do you 
calculate those $350 million in savings?
    Mr. Carraway. Thank you, sir.
    And I know many of you here understand RBS, so I do not 
mean to downplay any of that at all. But it is really about the 
risk-based security initiative. For us, it has gone from a 
philosophy to truly a practice within TSA. We are not adverse 
to risk. We understand it.
    And what we try to do is buy down that risk in a number of 
ways. And once we do that, we can take our critical resources, 
BDOs, our screening workforce, our explosive officers, our 
inspectors, and push them toward where the threat really lies. 
And that is what has happened here.
    Because of the technology that we provide, which is the 
very best in the world, because of the information and 
intelligence that is provided through all of the entities in 
the counter-terrorism community that is shared with us each and 
every day, we are able then to focus our activities away from 
the low risk. That is why pre-check is so valuable and esteemed 
by the public. We focus then on where that risk is.
    And so what we are able to do to answer your question 
succinctly is we are able to cut down the number of individuals 
on the screening work floor because the technology allows us to 
push 300 passengers per hour through pre-check because we know 
about those individuals. You see?
    And so we are able then to take our transportation security 
inspectors and move them to places where we know there are bad 
actors in the cargo or the inspection areas. And we can push 
those inspectors there and think about the quality of 
inspections rather than the quantity of inspections.
    And so those are just little examples why RBS is so 
effective and it works so well with us. There will never be a 
mountain of resources to do the things that we want to do, so 
it seems for us to be prudent, to be wise about the dollars 
that the committee provides to us, we need to use [resources] 
wisely. And RBS allows us to do that.
    Mr. Cuellar. Okay. Thank you.
    I also want to congratulate you on your customer service 
initiative. That is very key. I know we are all under pressure 
and there are situations that happen at certain times, but I do 
want to say congratulations.
    I would ask you also to look at what we--we added some 
language with the chairman and the ranking member's help to CBP 
because the way they were handling folks, especially on the 
southern border, you got to find that balance between security 
and legitimate trade and tourism. So I would ask you to just 
look at----
    Mr. Carraway. Certainly.
    Mr. Cuellar [continuing]. What they did, a program called 
PRIDE. We announced it in Laredo, my hometown, and then in the 
McAllen area, the Valley, and they----
    Mr. Carraway. Yes.
    Mr. Cuellar [continuing]. Have taken that initiative. So I 
would ask you to take a look at that.
    Mr. Carraway. Yes, sir.

                          RAPISCAN BACKSCATTER

    Mr. Cuellar. Finally the last question that I have has to 
do with, I think it was in 2013 you all got rid of the Rapiscan 
backscatter because it would be intrusive. My question is, not 
into the merits of they were good or bad, but my question was 
at that time, and I am going by memory, they were in a 
warehouse, it was costing money to keep them there. I asked the 
previous administrator, well, what are you going to do with 
them? He said, well, you know, maybe we can work with prisons, 
maybe we can work with local county governments that might want 
them.
    So I reached out and put him in contact with some of my 
local governments and jails and they said, well, you know, 
yeah, we can get this but there is a contract tied in that we 
have to pay a certain amount. So in other words, you get the 
equipment but it is going to cost you a lot of money to upkeep. 
And there was some sort of contract there. So it literally 
became prohibitive to use them. So it was not really helpful on 
that.
    So my question is, are you all still paying warehousing 
costs? Do you still, I know the contract was cut off, but there 
was some sort of maintenance contract that was being paid. And 
then my question is do you still have any left and what are you 
doing with them?
    Mr. Carraway. I do not know exactly, and I will follow up 
with you with that. But I do recall us actually getting rid of 
a lot of that inventory that was outdated, and I think this 
committee or another committee was very clear about reducing 
that. And we did go about the business of clearing out that 
extra surplus in the warehouse. But I will get back with you to 
ascertain specifically what occurred.
    [The information follows:]

    Hearing Before HAC-HS: March 19, 2015--Melvin Carraway, Acting 
         Administrator, Transportation Security Administration

          rapiscan advanced imaging technology (ait) disposal
    Per the Federal Aviation Administration Modernization and Reform 
Act of 2012 (P.L. 112-95), which required all Advanced Imaging 
Technology (AIT) systems use Automated Target Recognition (ATR) 
technology, TSA removed 251 Rapiscan AIT units from service when the 
vendor was unable to comply with the ATR requirements. Subsequently, 
these units have been stored at the contractor's expense in its 
facilities in North Carolina.
    TSA is working to transfer all of the excess AITs to other 
entities. As of this date, 169 have been transferred to other entities, 
with 82 still in storage with the vendor. There is no cost for the 
unit, however, the recipient is responsible for all operations and 
maintenance costs following the transfer.
    TSA posts all of the units in the General Services Administration 
(GSA) property reporting system known as GSAXcess. Once posted, other 
Federal agencies have visibility of the units for 21 days and may 
select as many units for which they have requirements. After day 21, 
the units become available to State agencies for a period of five days. 
If there is no interest in the units at the Federal or State level 
during the allotted time period, the posting process restarts.
    Rapiscan is required to hold the units until December 12, 2017.

    Mr. Cuellar. Thank you so much.
    Mr. Carraway. You are welcome.

                           FIREARMS: SEIZURES

    Mr. Carter. I am going to start off with a question from 
your testimony you just made a minute ago that just dazzles me 
and confuses me.
    Mr. Carraway. Oh.
    Mr. Carter. You announced a number of handgun, or 
firearms----
    Mr. Carraway. Yes.
    Mr. Carter [continuing]. That were seized. And it was a 
really big, big number.
    Mr. Carraway. A thousand, more than 2,300 firearms.
    Mr. Carter. So there are 2,300 people we know of that are 
still that stupid?
    Mr. Carraway. Some of them may have two weapons, Mr. 
Chairman, even.
    Mr. Carter. Good Lord. I do not understand why anybody 
would, maybe if they were seized out of their suitcase that 
they checked, maybe I could understand it, but if they are 
going through TSA, I just do not see how that could happen.
    Mr. Carraway. I cannot speak to, you know, some of the 
motivation of folks. A lot of times it is simply they forget 
that it is in there, in their carry-on luggage. Or----
    Mr. Carter. So what do you do with those weapons when you 
seize them?
    Mr. Carraway. It depends. It varies state by state. In some 
states the U.S. Attorney will take [the case] and prosecute. 
Sometimes even the local prosecutor will take the, will take it 
and do that. But it really varies from state to state.
    Mr. Carter. And do they destroy the weapons after they have 
seized them?
    Mr. Carraway. Again, if they are going to prosecute, they 
do not.
    Mr. Carter. So it is done by the state.
    Mr. Carraway. Yes, in most cases they are. But no, we do 
not destroy any weapons.

               FIREARMS: SMUGGLINGS BY AIRPORT EMPLOYEES

    Mr. Carter. We have had some recent occurrences of some 
employees of the airport trying to smuggle guns onto planes, 
for what purpose I am not sure. That certainly scares the 
flying public to think about. What have you all been doing to 
respond to those incidents?
    Mr. Carraway. So that goes back to Mr. Fleischmann's 
question about the ASAC. They are working on this effort to 
address employees being, that may, or the insider threat, 
taking weapons or other prohibited items into the secure area, 
possibly putting them on an aircraft. I mean, that is where it 
really goes. So what the advisory council is doing is working 
on recommendations in which to address----
    Mr. Carter. That is the report we have been talking about 
that will hopefully be a current event?
    Mr. Carraway. Yes.
    Mr. Carter. I assume that they are looking into the 
possibility of having additional screenings for employees?
    Mr. Carraway. Those are the types of things that they----
    Mr. Carter. They are looking into it?
    Mr. Carraway [continuing]. Are looking at, yes, sir.
    Mr. Carter. All right. Ms. Roybal-Allard.

                           MANAGED INCLUSION

    Ms. Roybal-Allard. Administrator Carraway, as we have been 
discussing, TSA has made great strides over the past year with 
the expedited screening approaches that have allowed you to 
move passengers more quickly, especially considering the 
growing volume of passengers that we have. And of course, as 
you know, we always want to make sure that in our efforts to 
reduce cost and inconvenience that we do not sacrifice 
security. The pre-check program and the inclusion of low risk 
populations, such as members of the military, children, and the 
elderly have really been a big part of that equation. But 
managed inclusion has also been an important factor.
    As I understand it, managed inclusion facilitates the more 
efficient use of expedited screening lines when the volume of 
formally identified low risk passengers does not fully utilize 
the capacity of those lanes. I have witnessed managed inclusion 
practiced in my travels back and forth to California, and my 
experience sometimes makes me wonder just how successfully the 
program is being implemented. But beyond the sometimes 
difficult logistics involved in managing expedited screening 
lanes, I wanted to ask you a little bit more about the basic 
approach.
    Based on a December, 2014 GAO report, TSA planned to begin 
testing the security effectiveness of managed inclusion last 
October. But GAO expressed concern that TSA was unable to show 
that it had a solid plan for conducting the testing and 
recommended that TSA conduct the testing according to, and this 
is in quotes, `` established evaluation design practices.'' So 
has TSA begun testing its managed inclusion approach? And if so 
are you confident that the test design adheres to the best 
practices and appropriate methodologies?
    Mr. Carraway. Quite honestly, I cannot speak to that report 
or the testing methodology that they are referring to. But I 
can speak, in a general way, about managed inclusion, what it 
really brings to the table, and how it provides that other 
layer of security.
    Managed inclusion is just another tool, and it is a real-
time vetting instrument that is used. What is not seen by the 
typical public is that, when you are put into the pre-check 
lane, you are getting a better technology screening experience 
than when you go through the standard lane, which may include 
the K-9s, which may even include an explosive trace detection 
on the hand, and could also include an additional pat down. So 
the GAO report may not have fully understood, you know, the 
benefit of what RBS and managed inclusion really brings.
    Most people simply refer to it as, gosh, it is another way 
just to get into the pre-check lane, but it is really more than 
that. It is really a security posture that provides for us 
another layer in which to--again, because of BDO, behavior 
detection, the K-9s, and others, we can determine whether this 
individual, these individuals are low risk and put them into 
the pre-check lane.
    Ms. Roybal-Allard. Okay. Now did I understand you to say 
that you do not know whether the testing of managed inclusion--
--
    Mr. Carraway. I am not familiar with the testing----
    Ms. Roybal-Allard [continuing]. Is taking place?
    Mr. Carraway. I am not familiar with the methodology that 
they are talking about.
    Ms. Roybal-Allard. Then perhaps you could get back to me 
on----
    Mr. Carraway. Yes, I could do that.
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Ms. Roybal-Allard [continuing]. The committee on that?
    Mr. Carraway. Yes.
    Ms. Roybal-Allard. Because my follow up question was 
actually when you anticipate the testing would be completed and 
have the results? How do you think managed inclusion is 
working? I think you have already highlighted that. More 
specifically, how precisely are you able to fully utilize 
expedited screening lanes without causing inadvertent delays 
for pre-check passengers, who have paid a fee and submitted 
their personal information in order to minimize their time at 
the check point? And the reason I am asking that, I have been 
in the pre-check line many times when there is absolutely 
nobody or one or two persons in the other line.
    Mr. Carraway. Yes.
    Ms. Roybal-Allard. And those who are in pre-check get so 
frustrated they just say, forget it, it is worth having to take 
out their computer and take off their shoes and they just go in 
the other line and actually go through faster than those of us 
standing in pre-check.
    Mr. Carraway. Unfortunately yes, I agree. That has 
occurred. But I think it is because of those unfamiliar with 
the process in pre-check, you know, not taking off your jacket 
or your shoes, and that tends to create some issues. Managed 
inclusion is just a tool. It is not something that is used all 
the time. And as I spoke earlier about increasing the 
enrollment into pre-check, the idea of using managed inclusion 
will reduce. It could always be a tool, but the idea of using 
managed inclusion would surely reduce because of the enrollment 
into pre-check. I think maybe we need to do a better 
explanation at the checkpoint about what really should happen 
before those individuals get into the lane to help move it 
along. As I explained earlier, that pre-check lane really is 
designed to move faster. And occasionally you get individuals 
who are unfamiliar with that process.
    Ms. Roybal-Allard. Okay. Would it create a problem if those 
who were in the pre-check line were able to go into the other 
line and----
    Mr. Carraway. There is a----
    Ms. Roybal-Allard [continuing]. Just go through the same 
way?
    Mr. Carraway. You are exactly, and there is nothing to stop 
you from doing that.
    Ms. Roybal-Allard. No. I mean actually go through the other 
line as a pre-check passenger, without having to take out your 
computer and your shoes and everything else? If the agent is 
just sitting there doing nothing?
    Mr. Carraway. It may be able to occur. But I would say 
typically it would be difficult.

                                 MORALE

    Ms. Roybal-Allard. Okay. The 2014 Best Places to Work in 
the Federal Government Report again listed the Department of 
Homeland Security 19th out of 19 large agencies considered, 
with a satisfaction score of 44, compared to 46.8 in 2013. The 
report listed TSA 305 out of 314 agency subcomponents, with a 
satisfaction score of just 39.9 down from 43.4 in 2013, and 
45.2 in 2012.
    GAO has also done work in this area and also concluded that 
low morale at TSA is a significant problem. Granted there were 
five other DHS components that scored lower than TSA, but the 
agency's low score and downward trend is nevertheless 
disconcerting.
    I know that you are fully aware of the employee morale 
issue at TSA and I understand the agency has taken steps to try 
and deal with it, including a focus on career progression 
opportunities. What are some of the efforts underway to help 
reduce attrition, raise employee morale, and contribute to a 
more experienced and professional workforce? And then based on 
the surveys from 2014 do you think those efforts are having any 
effect, or is it too soon for us to tell at this point?
    Mr. Carraway. Thank you for the question. I am very 
passionate about this issue. This is really one of the things 
that, when I came here to headquarters to take on, and just in 
this short period of time I believe, there has been an impact 
already made. We have done several things. We created a 
leadership blog that we are providing, pushing it out to all of 
the workforce about professionalism, about career paths, and 
about what they can do, which opens the conversation about 
morale issues and things within TSA.
    I will not sugarcoat it. The real issue is about having 
those communications and wanting to be valued at every level. 
We have done that in a number of ways. The TSA Academy is 
creating this culture that simply did not exist for us before. 
Just because we have the Academy does not establish it; we have 
to keep it going. So that is why we are increasing some of the 
training opportunities that we have, increasing the 
opportunities for women to succeed in TSA. We have created what 
is called WE in TSA, Women Executives in TSA, another avenue to 
keep that conversation going. I have created an advisory group 
within my office again to have that conversation to occur.
    In addition to all of those things, being transparent about 
promotions, how salaries are met and kept, how individuals can 
go from being a TSO all the way to a Federal Security Director. 
It has happened in this agency, and we need to promote those 
types of things as well.
    So I am really passionate about it. And I have taken that 
on to be one of the main pins of my term here.
    Ms. Roybal-Allard. And have you been looking at the GAO 
recommendations also?
    Mr. Carraway. Yes, yes, I have. And the fed reports are 
very important to that. They are just not a document that I 
look at. It really sets the framework of the activities that we 
end up doing. We have what is called the idea factory, where 
ideas come in from the field, and I look at those things and 
talk about how are we going to utilize that, giving the 
workforce an opportunity to be engaged not just from a 
spectator's perspective but actually a participant interaction 
with activities here.
    Ms. Roybal-Allard. Thank you.
    Mr. Fleischmann [presiding]. Thank you. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. Thank you for being 
here today, Mr. Carraway.
    Mr. Carraway. Thank you.
    Mr. Young. You have got a tough job and you know that.
    Mr. Carraway. Thank you.
    Mr. Young. It is a very important job that you have and 
there is no where to go but up, right? You are 19th right now. 
Nowhere to go but up----
    Mr. Carraway. I am enjoying it. I am really enjoying it.
    Mr. Young. I know you are. And thank you for your service.
    Mr. Carraway. Thank you.
    Mr. Young. But I can see how there can be low morale 
sometimes when your screeners are staring at lines of people 
who feel hassled, who are not smiling, who feel like they are 
waiting around. So I am rooting for you and I am rooting for 
this agency.
    Mr. Carraway. Thank you very much.

                           PUBLIC PERCEPTION

    Mr. Young. What are you trying to do, though, to try to 
change that public perception of the TSA?
    Mr. Carraway. You will probably laugh at this.
    Mr. Young. No, I will not.
    Mr. Carraway. Before I got here I looked at what media 
reports we were getting. We were getting 80-percent positive 
recognition from the public for our efforts. That is an 
enormous change in previous years. I think it took a number of 
things to do that. TSA Pre-Check has changed the passenger 
experience. And so what I try to do when I visit all of the 
airports is to engage our workforce, to let them know about the 
appreciation for their hard work that they do.
    It is no surprise that our employees are some of the lowest 
paid in the federal service. But they are passionate about 
being here because they are mission driven, and you cannot beat 
that; you cannot put a price on that.
    Mr. Young. I am not laughing. I will say that things in Des 
Moines--where I fly in and out of----
    Mr. Carraway. Great airport.
    Mr. Young [continuing]. Great things are happening there. I 
mean, five years ago, four years ago, there were lines, long 
lines. It's pretty swift today. So I appreciate that, thank you 
very much.
    Mr. Carraway. Thank you.

         ENSURING CHILDREN NOT SEPARATED FROM PARENTS/GUARDIANS

    Mr. Young. In the fiscal year 2015 Homeland appropriations 
bill, this committee directed your agency to be sure that you 
not separate children from parents or guardians during pre-
boarding inspections of passengers. What procedures are you 
putting in place to ensure the directive is being followed?
    Mr. Carraway. Our SOP [standard operating procedures] 
guidance and testing with our workforce is continuous. That is 
the critical component, that is where that really happens, and 
that is where we ensure that the proper policies and 
regulations are followed.
    Mr. Young. That 80-percent number that you mentioned just a 
little bit ago?
    Mr. Carraway. Yes?
    Mr. Young. I think for the most part people, I do anyway, 
find your service just fine. Sometimes it is just a matter of 
the airports being so big, and they are hubs, and there is more 
population there. So keep smiling.
    Mr. Carraway. Thank you. Thank you.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Fleischmann. Thank you, sir. At this time I would like 
to recognize the Ranking Member of the full Appropriations 
Committee Mrs. Lowey.

                TRANSPORTATION SECURITY OFFICERS, FEMALE

    Mrs. Lowey. Well, thank you very much. I appreciate your 
work this morning and I am sorry that there are several 
conflicting hearings. I would have wanted to be here right on 
time otherwise. So I do want to thank you, Mr. Chairman and 
Ranking Member Lucille Roybal-Allard for holding this hearing. 
And thank you so much, Administrator Carraway, for joining us.
    Over the last year we have continued to see savings in 
aviation security as TSA continues to use risk based screening. 
In fact if enacted the fiscal year 2016 request would represent 
a savings of $68.4 million below the fiscal year 2015 enacted 
level. Administrator Carraway, I worked with your predecessor 
Administrator Pistole to ensure that employees have 
satisfactory workplace rights and responsibilities. As I think 
you can agree, TSOs put themselves on the line everyday to 
protect us and deserve an enriching workplace environment.
    Last year in both the hearing with Administrator Pistole 
and Secretary Johnson's hearing, I asked about the prospects 
for a healthy career path for female transportation security 
officers. Female TSOs are much more likely than their male 
counterparts to be called on to conduct pat downs at screening 
points, particularly for female and minor passengers, which 
makes it less likely they can gain other kinds of experiences 
that can better lead to promotion.
    Administrator Pistole indicated that he had asked the 
Office of Training and Workforce Engagement to take a fresh 
look at advancement opportunities for both women and 
minorities. Did anything ever come from that request? Does TSA 
have any new programs or policies in place to ensure 
advancement opportunities for women and minorities? And are you 
confident that TSA has the right kind of tools in place that 
allow you to monitor progress in this area?
    Mr. Carraway. Yes. Yes, ma'am. Thank you very much. Yes, I 
recall that discussion about the females in the workplace, and 
we have put several initiatives into place. Mentoring programs 
for all individuals, as a matter of fact, no matter what 
gender. And in addition to that I was explaining earlier [an 
organization] was created. It is called WE in TSA, which stands 
for Women Executives in TSA, which is a mentoring effort that 
is going to all of the seven regions within TSA within this 
month talking about opportunities for women to progress in TSA 
from TSO all the way up to Federal Security Director or here at 
headquarters. So those are, I believe are going to be 
invaluable to, to the workforce.
    In regard to the promotion and selection process, I always 
ascertain and ensure that there is equality and fairness in the 
selection process, and that, in regard to dealing with our 
collective bargaining unit, ensure that things are met and that 
the rights of our TSOs are tantamount in discussion. So that is 
what I have done since I have been here in this acting role.
    Mrs. Lowey. Well, thank you. As I understand it 
Administrator Pistole also indicated that 43 percent of TSOs 
were women. What is the current ratio of women to men among 
TSOs, and what about the supervisory and leadership positions?
    Mr. Carraway. I do not have that ratio. I will get that 
back to you. I can tell you in the leadership role in my staff, 
more than half are females. Yes.
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Mrs. Lowey. Are you not wise?
    Mr. Carraway. Well, no. They are, well, you know, to be 
quite honest, they are fantastic. It is not because of, you 
know, they are just wonderful individuals, period.
    Mrs. Lowey. That is the correct answer. I do not know if I 
have time for one more question? What is your schedule?
    Mr. Fleischmann. Absolutely.

                           PERIMETER SECURITY

    Mrs. Lowey. Okay. Another issue which I have raised 
regularly is perimeter security, which continues to be a real 
problem. Last November an unauthorized man was able to gain 
access to the tarmac at Mineta San Jose International Airport, 
the same airport where a 15-year-old stowed away in the wheel 
well of an airplane bound for Hawaii last spring. In February a 
Florida woman described in the news as a serial stowaway was 
arrested after traveling from Jacksonville to Minneapolis 
without a ticket. Now we are hearing concerns about access 
control at airports. Last December there was news of a Delta 
Airlines employee using his access badge to help smuggle guns 
from Atlanta to New York City. And earlier this month there 
were even reports that hundreds of security badges were missing 
from Hartsfield-Jackson Atlanta International Airport.
    Now I understand that airports are responsible for 
perimeter security and access control, but TSA is responsible 
for approving security plans and for inspections to ensure 
plans are being followed. So can you tell us what steps TSA has 
taken since I raised the issue of perimeter security with 
Administrator Pistole last year? What steps have been taken 
following last December's access control incidents? Do security 
plans need to be strengthened? And if so what are the cost 
implications?
    Mr. Carraway. I had a meeting on this. I had my staff in 
yesterday to have a meeting on this, specifically on perimeter 
security. Perimeter security is a joint issue between airports 
and TSA. Yes, we have standards in which they are to meet. But 
it is one of those things where the cost for some of the 
detection issues may be an issue for the airports as well.
    So I divided them into three things with my staff: 
response, prevention, and detection, response really being the 
critical component. And I say that because I have to put this 
in the framework of the RBS initiative. Where do we put the 
most resources, and how do we create and buy down that risk? We 
cannot eliminate all things. You know, if you have a fence, 
someone is going to climb it. If you have a gate, someone may 
ram through it. I think just the other day, we had an 
individual who was drunk who ran into the gate at DFW [Dallas-
Fort Worth International Airport].
    So you have to then look and say, well, what is the 
consequence? Is there a vulnerability there? And how do we 
change the environment? So we work with the airport to 
determine whether or not technology may be of assistance, or 
are there additional personnel that you put toward there? And 
you think, ``what is the cost of doing that?'' So we work very 
closely to try to make certain that we do not do an unfunded 
mandate in any sort of way, but to assist them in covering the 
ground in that.
    We do the very same thing as it relates to employee and 
screening initiatives as well. I mentioned to the committee 
earlier that the Aviation Security Advisory Committee is 
working on bringing to us recommendations, and hopefully they 
have it here the first of April, and I will share with you 
things that can be done. But it was a joint discussion and not 
something that TSA said. Although regulatory as we are, it 
makes more sense if we join together in solving that issue. And 
that is where we are.
    Mrs. Lowey. Thank you very much. And thank you, Mr. 
Chairman.
    Mr. Fleischmann. Thank you. Dr. Harris.
    Mr. Harris. Thank you very much.
    Mr. Carraway. Mr. Harris.

                          EXPEDITED SCREENING

    Mr. Harris. And thank you, Administrator, for being here 
today. I just have a couple of brief things. First, just a 
comment, and it was kind of a question, because I read through 
your testimony and, you know, you do say that we have increased 
the number of expedited, the people going through expedited 
screening. But you kind of imply that we know every, we know 
most of the people that go through that expedited screening and 
they are actually safe to be expedited.
    But I will tell you, the last time I flew through Dulles, 
and I do not usually because I usually fly through BWI, it was 
in the morning. The lines were getting a little long. And then 
they just directed one of the lines to TSA pre-check. No, no 
decision by an agent, you know, looking at, you know, perhaps 
on some risk based assessment. It was just everybody in that 
line went through pre-check. So nobody got the, you know, the 
higher intensity screening. That is a little worrisome to me. 
Because, you know, I do not mind if somebody is making a 
decision, or you know, or it is purely random. It is, you know, 
we take numbers one, four, and seven in the line, and they go 
to Pre-Check. This was everybody in the line. And I actually 
got, you know, an email the week before from someone flying to 
Israel who was worried because Pre-Check was being done on 
random people on a flight to Israel. I just got to tell you, 
that gives me some concern. So that is just a comment.
    Mr. Carraway. Yes, sir.
    Mr. Harris. And, you know, and I know it is difficult. I 
know you want to expedite people through. But, you know, I 
think we have to be certain that people who are expedited, 
there is a reason for them and it is not just, gee, the other 
line is too long----
    Mr. Carraway. Yes, sir.

               AVIATION PASSENGER SECURITY FEE INCREASES

    Mr. Harris [continuing]. You know, with that. So anyway, 
but the one thing, and I will be brief, is one thing that 
bothered me a little bit, and this bothers me across the 
government, is you know when we collect a fee from someone we 
actually ought to use it for that purpose. So in the budget 
there is a line about the fee increases to the aviation 
passenger security fee that is planned, that TSA plans to 
submit two fee proposals.
    Mr. Carraway. Yes, sir.
    Mr. Harris. And I, and you actually use the word adjust. It 
is not adjust, both of them increase the fee. So, you know, why 
do we not just use the English language the way it is supposed 
to be used? If TSA wants to increase these fees, and I 
understand it, because, you know, the fee that we collect from 
passengers does not fully cover the cost. I get it. The 
disturbing thing is it says that in fiscal year 2016 we want to 
raise the fee and then take that $195 million and put it to the 
general fund for deficit reduction.
    And I have got to tell you, if we tell an airline passenger 
their fee is going to a, security, it ought to go to security. 
Let us just be honest about it with the, that is why people do 
not trust us. Because we do not, because we use words like 
adjust when we mean increase, and then we say, well for the 
first year we are just going to put it to a deficit reduction 
fund. And then there is very, very ambiguous language about 
what happens after that year, where some goes to the deficit 
reduction and some goes to discretionary, begin to provide 
discretionary offsets for aviation security, with no specifics 
about it.
    And we are dealing with hundreds of millions of dollars. We 
are dealing with an industry that is just recovering, and thank 
goodness our American airline industry has turned a profit, and 
people are generally happy with the way things are. I just, 
again, it is just a comment. Why would you put it to deficit 
reduction and not actually put it to airline security? It is 
just a question I have got to ask.
    Mr. Carraway. I do not have an answer to that one.
    [The information follows:]

    Hearing Before HAC-HS: March 19, 2015--Melvin Carraway; Acting 
         Administrator, Transportation Security Administration

                passenger fee use for deficit reduction
    The Administration has made reducing the size of the deficit one of 
its primary goals in recent years. The FY 2015 and FY 2016 budgets 
proposed increasing the passenger fee and dedicating a portion of that 
increased revenue to deficit reduction. This is a goal also shared by 
Congress, as reflected in past House annual budget resolution 
proposals, which assumed an increase in the passenger fee.
    In 2013, the Congress enacted the Bipartisan Budget Act (BBA), 
which raised the fee for the first time since inception, from $2.50 per 
enplanement to $5.60 per one-way trip. The BBA also designated a 
portion of this increased revenue towards offsetting the budget 
deficit. In FY 2015, $1.19 billion of $3.6 billion in total expected 
collections is dedicated towards deficit reduction. The FY 2016 budget 
proposes to increase the fee by 40 cents to $6.00, and dedicate the 
entire increase in collections to deficit reduction, estimated to be 
$195 million.

    Mr. Harris. Okay. And thank you for being so brutally 
honest. Thank you, Mr. Chairman. I yield back the time.
    Mr. Fleischmann. Thank you. Mr. Administrator, thank you 
for being with us today and for answering our difficult 
questions. I know you have an arduous task. We wish you every 
success in your endeavors as you work to keep us safe with TSA. 
And with that we are going to conclude our hearing.
    Mr. Carraway. Thank you so very much. Thank you all. Thank 
you. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, March 24, 2015.

                       UNITED STATES COAST GUARD

                                WITNESS

ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, UNITED STATES COAST GUARD
    Mr. Carter. All right. The subcommittee will come to order.
    Admiral Zukunft, welcome. We are really glad to have you 
here. Thank you for testifying before us today. Congratulations 
on being selected the 25th commandant of the United States 
Coast Guard. This is your first time testifying before this 
subcommittee, and we look forward to your perspective on the 
Coast Guard's budget for fiscal year 2016.
    I would like to personally thank you for your service over 
a long and distinguished career in the Coast Guard. We look 
forward to working with you this year.
    The Coast Guard secures our borders, safeguards our 
maritime commerce, and combats transnational crime.
    To be sure, yours is a complex mission, Admiral. This 
mission requires a significant investment in resources 
including vessels, aircraft, and personnel.
    In previous discussions with your predecessor, the 
subcommittee expressed concern over a diminished budget that 
did not address front-line operations and future capabilities 
adequately.
    The fiscal year 2016 budget does address some of these 
concerns such as reduced staffing members. However, I am still 
alarmed by the continued decrease in overall discretionary 
funding and how that decrease will impact the timely 
acquisition, maintenance, and readiness of your assets.
    Admiral, you have a difficult job and I know that you 
support the President's budget. However, surely there are unmet 
needs within this budget request. You have a fleet of vessels 
that are past their useful life and replacements are years away 
from being commissioned.
    You are planning to award a contract acquiring 25 offshore 
patrol covers to replace a portion of the aging fleet, yet the 
program is stuck in the design phase.
    During your testimony, I would like you to address whether 
the fiscal year 2016 budget begins a deliberate process to 
recapitalize your fleet in a timely manner. In addition, I look 
forward to a candid discussion about the unmet needs that are 
not addressed in this budget.
    Admiral, we fully understand the challenge that you face in 
balancing a shrinking budget while also trying to care for 
Coast Guard families, sustain the operations of aging vessels, 
and recapitalizing for the future is not a small task in 
today's fiscal environment.
    That is precisely why we will allow you to explain how this 
budget meets our Nation's needs for both fiscal discipline and 
robust security.
    Before I turn to the Admiral for his statement, the text of 
which will be included in the record, let me recognize our 
distinguished ranking member, Ms. Roybal-Allard, for her 
comments.
    [The information follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Admiral, welcome to your first appearance before the 
subcommittee as the Commandant of the Coast Guard.
    This morning, we will discuss the Coast Guard's budget 
request for fiscal year 2016, which totals $8.1 billion in 
discretionary funding, a cut of $238 million or 2.8 percent 
from the current year appropriation.
    As I am sure you are aware, we have been frustrated in 
recent years by the lack of a timely delivery of the Coast 
Guard's five-year capital investment plan, which by law is 
required to be submitted concurrently with the budget request.
    My understanding is that part of the problem is a 
bureaucratic one under which the process for OMB review of the 
CIP is misaligned with the annual budget submission and the 
subcommittee's annual hearing schedule.
    But it also seems to reflect a continuing mismatch of 
expectations between the Coast Guard and the Administration 
regarding the future of the Coast Guard fleet.
    Acquisition of air and surface assets is usually a main 
focus of our annual oversight hearing for the Coast Guard, so I 
hope the Administration can better align its review of the CIP 
with a timely submission of the information we need to provide 
oversight.
    As I know you can appreciate, we cannot effectively budget 
for or provide oversight of multi-year capital investments 
without information about future-year plans. For this year, I 
look forward to getting the updated CIP as soon as possible.
    The fiscal year 2016 request for Acquisition, Construction, 
and Improvements is just slightly more than $1 billion, a cut 
$208 million or 17 percent below the fiscal year 2015 level.
    Compared to fiscal year 2010, the proposed fiscal year 2016 
funding for ACI represents a 34 percent reduction. Your 
predecessor, Admiral Papp, thought properly recapitalizing the 
Coast Guard fleet would require at least $1.5 billion per year. 
So there appears to be a continuing disconnect between the 
needs of the Coast Guard and the budget request the 
Administration submits.
    It will be particularly important this morning to get a 
better sense of how big that disconnect is. We will also want 
to know whether the other components of the request adequately 
support your missions, including the number of military 
personnel and funding for operations and maintenance.
    So thank you again for joining us this morning and I look 
forward to our discussion.
    [The information follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
    
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    I now recognize Hal Rogers, the chairman of the full 
committee.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Admiral, welcome to the committee and congratulations on 
being selected the 25th Commandant. You got a lot of people 
riding on your shoulders, but we will be there to try to help 
you as best we can from this side.
    I want to thank you for your service to your country.
    As the chairman mentioned, the Coast Guard has a diverse 
but critically important mission from drug interdiction in the 
Carribean to breaking ice in the great lakes shipping channels, 
from marine safety enhancements to expert and heroic search and 
rescue operations.
    The Coast Guard is uniquely poised to safeguard our 
Nation's maritime interests and to ensure that our Nation's 
waterways are safe and ripe for commerce.
    I would be remiss if I did not acknowledge and thank the 
service of the 42,000 men and women on active duty who you 
represent here today.
    As this subcommittee has done in the past, we want to 
reaffirm our commitment to providing these selfless individuals 
in your corps with the tools, the training, the equipment, and 
support necessary to carry out their vital missions here at 
home and on the high seas.
    This diverse set of mission requirements necessitates a 
fleet of effective and efficient vessels and aircraft. To echo 
the chairman, we certainly understand the pressures of a 
shrinking budget, but we do continue to be concerned by the 
decreasing allotment of discretionary funds to important Coast 
Guard acquisition programs.
    The budget you are defending today constitutes a 17 percent 
reduction in acquisitions. And while I am pleased that you are 
moving forward with funding for six Fast Response Cutters to 
revitalize the aging fleet of patrol boats as well as support 
for a new polar icebreaker, the request supplies no funding for 
the Offshore Patrol Cutter even though it is scheduled to award 
a contract design in the fourth quarter of the upcoming fiscal 
year.
    At this rate, we will not see an OPC until 2021 and I am 
not sure that we can afford delays when the average age of the 
two classes of medium endurance cutters it is intended to 
replace is 46 years.
    Finally, I suspect this issue will be raised in greater 
detail later in the hearing, but I have to express my 
disappointment that the Coast Guard has not provided its 
Capital Investment Plan with the budget submission.
    Like every other federal agency, we expect the Coast Guard 
to plan its work and work its plan. And it makes it much more 
difficult for this committee to do its important work and 
oversight without all the necessary information that we need 
from you. So I would encourage you to submit that plan as soon 
as possible, preferably before the April 3rd deadline.
    Admiral, thank you for being here today. Thank you for your 
staff for being here today, too, and we salute your work on the 
high seas and on the ground. We wish you well and 
congratulations on your elevation.
    Admiral Zukunft. Thank you very much, sir.
    Mr. Rogers. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Carter. Admiral, at this time, we will recognize you 
for a summation of what you have to say here, and what you have 
submitted here. At this time, you roughly have five minutes. If 
you need a little more, we will give to you.
    Admiral Zukunft. Okay. Well, thank you, Mr. Chairman. And, 
again, thank you, Ranking Member Roybal-Allard. And, Chairman 
Rogers, thank you for being here and Members of this 
distinguished committee.
    I especially want to thank this subcommittee for your 
tremendous assistance that you have given to the Coast Guard. 
Your robust support to my acquisition program of record will 
pay significant dividends to Coast Guard missions. Without you, 
I would be facing a fundamentally different service.
    Before I proceed with my oral statement, I would like to 
ask that my written statement be accepted as part of the 
official record.
    Mr. Carter. It will.
    Admiral Zukunft. Okay. I will first start in our western 
hemisphere where we are witnessing extreme violence in Central 
America stemming from insidious transnational organized 
criminal networks. We are also seeing significant maritime 
commerce shifts fueled by the American energy renaissance. 
Third, we have a rapidly increasing demand in the world's 
newest domain of cyber and, fourth, the Arctic Ocean is open to 
more commerce and tourism every year.
    Most importantly, all of these geo-strategic trends have 
converged on the Nation in a non-precedented manner 
dramatically increasing requirements placed upon the Coast 
Guard and its operations worldwide. This is at a time when much 
of the Coast Guard's infrastructure and many of our platforms 
are well past their service life.
    Last year, I sent four 50-year-old Medium Endurance Cutters 
to costly emergency dry-dock availabilities losing 20 percent 
of my planned patrol days due to this unscheduled maintenance. 
These pressures put the Coast Guard under tremendous strain.
    To help alleviate the strain, I have developed strategies 
to address these converging trends and moving forward, we will 
align our budget strategies and priorities to meet them.
    I will spend a moment discussing some of these converging 
trends. First, illegal trade and drugs, people and weapons is a 
$750 billion global enterprise. And since 9/11, over 450,000 
Americans have died from drug use and drug violence in our 
homeland.
    Combating these networks requires a forward-based presence 
that draws upon the Coast Guard's unique global authorities to 
attack illicit trafficking where they are most vulnerable, at 
sea. We have visibility on approximately 90 percent of known 
maritime drug movements in the Carribean and in the Pacific. 
However, we are only able to target and intercept 20 percent of 
those targets. This is clearly an issue of capacity for the 
Coast Guard and working with our interagency partners.
    The United States is first and foremost a maritime Nation. 
This is one of the reasons why the Offshore Patrol Cutter is my 
number recapitalization priority. The offshore patrol cutter 
will provide affordable and persistent offshore presence needed 
to meet national objectives well into the 21st century.
    A subset of being a maritime Nation is being an arctic 
Nation. And, yes, the United States is an arctic Nation. Our 
Nation's fleet of ocean-going icebreakers is comprised of one 
heavy icebreaker, the Polar Star, and one medium icebreaker, 
the Healy. There is no self-rescue capability for either of 
these ships should they suffer casualty or become beset in ice.
    Concurrently human activity in the Arctic is on the rise 
including trans-arctic shipping, eco-tourism, and resource 
exploitation. By reactivating Polar Star, we have purchased up 
to ten years of decision space to recapitalize this ice-
breaking fleet. Two of those years have expired.
    And while I am exploring several options to reconstitute 
our Nation's fleet of icebreakers, I will need top-line relief 
to my acquisition budget to make this requirement a reality.
    Finally, investing in 21st century Coast Guard platforms 
and people is a smart choice. No one will return more 
operational value on every dollar than the 88,000 men and women 
who proudly serve in the United States Coast Guard.
    Our acquisition workforce received five federal acquisition 
awards in 2014 and we were the first military service to 
achieve a clean unqualified financial audit, an accomplishment 
we have earned two years running as we continue to strengthen 
our financial management processes.
    Finally, we have proved to be responsible stewards of our 
financial resources and capital plan, operating and maintaining 
platforms well beyond the service life of those platforms, but 
we do it on the backs of our people who deploy and maintain 
these platforms.
    Going forward, the key to our future operational success is 
stable and predictable funding. I look forward to working with 
the subcommittee as we make prudent investments in the 21st 
century Coast Guard.
    Thank you and I look forward to your questions.
    [The information follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Mr. Carter. Thank you, Admiral, for your summation.
    I want to start off with a very simple question. It was 
raised by my colleague, Ms. Roybal-Allard. It was raised by the 
chairman. Congress has record of submission of a Capital 
Investment Plan with the submission of the President's budget. 
We have not had it. We do not have it now.
    Let me just be direct. What are your chances of getting us 
that Capital Investment Plan before the April 3rd deadline?
    Admiral Zukunft. Mr. Chairman, that was signed out last 
week. And so I will follow through to make sure that it gets in 
the hands of my overseers, but we have released our five-year 
Capital Investment Plan.
    Mr. Carter. And you think we will make that time schedule? 
It is coming up very quickly.
    Admiral Zukunft. Absolutely.
    Mr. Carter. Good. That is what we want to hear. Now, I have 
got a question about this offshore patrol cutter situation. I 
told you in my opening remarks that this is going to be one of 
the largest, if not the largest, acquisition ever completed by 
DHS. Over $130 million has been appropriated to the program 
since 2004, yet we will not see an operational OPC until 2021.
    I am confused by your clear support of the OPC acquisition 
if there is no funding request in the 2016 budget. Why are 
there no funds requested for OPC in 2016? Your acquisition plan 
indicates a contract award by late 2016, fiscal year 2016. What 
will be the impact if the contract award needed to be shifted 
to fiscal year 2017?
    Admiral Zukunft. So we have partial funding to do final 
construction and design work for the OPC. The work would 
actually begin following that. We are working very closely with 
the Department of Homeland Security to provide the offset that 
will be needed to do full design work for the Offshore Patrol 
Cutter in 2016.
    The underlying criteria is affordability. We have adhered 
to very stable requirements. I revisited those and I am 
convinced that we will be able produce an affordable Offshore 
Patrol Cutter using fixed-price contracting. And we have three 
very highly-incentivized contractors competing to get this 
largest contract in Coast Guard history.
    Mr. Carter. Is that the reason there are no funds requested 
for 2016? You already have the money?
    Admiral Zukunft. No, sir. I requested full funding. I am 
short about $69 million to proceed forward with the final 
design of this, but, again, working very closely and with the 
great support of our Secretary of Homeland Security to move 
this forward in 2016.
    As you mentioned, I cannot afford to let this date lapse. I 
need relief ships for our 50-year-old ships today that will be 
55 years old by the time their relief arrives.
    Mr. Carter. I understand your dilemma but that is one of 
the reasons why my first question was so important. We asked 
this question over and over and over. Most of the time, you 
have always been late on getting this information.
    The five-year plan that is over the horizon to see where we 
are going to be to try to figure this thing out. I would say 
that there is no group of people has been more helpful than 
this particular subcommittee to the Coast Guard the last few 
years. We have really tried to continue things and squeeze the 
budget every direction we can to look out for the individual 
coast and the equipment to provide them to go to sea on.
    We are on the solid with the Coast Guard on the 
subcommittee on both sides of the aisle and trying to get you 
the adequate ships on the sea. I hate these gaps that are kind 
of wish lists that upset me.
    I have used enough of my time.
    Lucille.
    Ms. Roybal-Allard. Well, as has been mentioned, this 
subcommittee has long been concerned that the proposed budgets 
for the Coast Guard have been insufficient for realistically 
addressing your mission needs.
    As I noted in my opening statement, the fiscal year 2016 
request for Acquisition, Construction, and Improvements is $208 
million below the current level and 34 percent below the fiscal 
year 2010 funding level.
    The statement accompanying the fiscal year 2015 funding 
bill directs the Coast Guard to provide an updated Mission 
Needs Statement by July 1st of this year and to submit a 
revised concept of operations by the end of fiscal year 2016 
that will address how to fill gaps in the Coast Guard's mission 
needs.
    What can you tell us about the status of revising the Coast 
Guard's Mission Needs Statement and do you expect that 
statement to conclude that the Coast Guard needs a 
substantially different mix of air and surface assets than is 
currently planned?
    Admiral Zukunft. Thank you, Ranking Member.
    The initial mission needs statement was prepared in 2004 
and there has been changes since that time. There has been 
changes on a our global scale and where our Department of 
Defense partners have re-balanced to and transit we are seeing 
in this hemisphere.
    But we are convinced that the initial mission needs 
statement and our program of record for eight National Security 
Cutters, 25 Offshore Patrol Cutters, and 58 Fast Response 
Cutters is the right mix, but we need to validate that to 2015 
for platforms that are actually going to be operating 40 and 50 
years from now.
    So we will have that mission needs statement back to you, 
but right now I rest on our program of record with great 
confidence as someone who has operated literally on a global 
scale on many classes of cutters and commanded three classes of 
ships in the coast guard.
    But the number we have right now is right, but it is 
imperative that I get you that mission needs statement as we 
make informed decisions for these large capital investments 
going forward bearing in mind that these are investments not 
just for today but will serve our Nation 50 years from now just 
as the current platforms are serving today.
    Ms. Roybal-Allard. The fiscal year 2016 request for 
continued development of the Offshore Patrol Cutter is $18.5 
million, which is substantially below the planned spending 
level in the fiscal year 2015 CIP, which is the most recent CIP 
that we have.
    The budget request proposes new bill language that would 
provide unlimited authority to transfer funding to the Coast 
Guard for the OPC project.
    What can you tell us about the need for this new transfer 
authority and the likelihood that the Department would actually 
use it? And if there is a reasonable expectation that more 
funding for the OPC will be needed, why not just include the 
funding in the request?
    Admiral Zukunft. Yeah. First and foremost, we have great 
support from the department and so that transfer authority 
would be imperative for us to be able to have full funding in 
2016 to be able to move this project forward.
    You will hear from our Secretary two days from now. I 
believe he is testifying as well. And clearly counter-terrorism 
and homeland is always a highest priority for our Department of 
Homeland Security.
    But at the same time, so is recapitalizing in the Coast 
Guard in the Offshore Patrol Cutter. I have a very open and 
frank dialogue with our Secretary and I need to demonstrate to 
him that we can produce an affordable offshore patrol cutter.
    And I remain confident that I will be able to do that and 
with that, the transfer authority would be very critical for us 
to meet this very important time line short of an additional 
appropriation for full funding to move this project forward.
    Ms. Roybal-Allard. Do I have time for more?
    Mr. Carter. Yes, you do.
    Ms. Roybal-Allard. Okay. I understand that we are still in 
the preliminary contracting design phase, but is there a rough 
consensus within the Administration as to what the capabilities 
of the OPC need to be?
    Admiral Zukunft. Yes, Ranking Member. We sit on an 
Executive Steering Committee and also we have created a Joint 
Requirements Council with the department that looks at 
affordability but also looks at requirements.
    And so we have stripped down every line item of the 
Offshore Patrol Cutter right down to how many drinking 
fountains will be on this ship, that level of detail to make 
sure that what we produce is an affordable platform. And by 
holding stable requirements, fixed-price contracting, I am 
convinced that our ship builders in the United States will be 
able to produce an affordable Offshore Patrol Cutter for our 
Nation.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Rogers.
    Mr. Rogers. Admiral, the recent announcement by the 
President that restoring diplomatic relations with Cuba must be 
something that bears on you and your colleagues greatly given 
the fact that I am told that since that announcement, the 
number of people apprehended coming from Cuba has jumped 
dramatically.
    And, I am told that you reported interdicting 82 Cubans in 
December of 2011, 104 in 2012, and 222 in 2013, but that in 
December of 2014 alone, that number shot up to 507 
interdictions, most of them in the two weeks after the 
President's announcement.
    Tell us what is happening and what kind of a strain that is 
putting you under, if any. I am worried that you are diverting 
a lot of resources there away from the war on drugs and other 
things. Is it or not?
    Admiral Zukunft. No, sir. We have a fleet of Fast Response 
Cutters that routinely operate in the straits of Florida. And 
what happened with the policy announcement, there was a 
misinterpretation in Cuba that our feet dry policy would come 
to an end as well. So we did see a surge in activity and then 
at the end of the month as those Cuban nationals were 
repatriated, the word then on the street was the policy has not 
changed when it applies to being feet dry.
    But we are Semper Paratus in this regard. We routinely 
patrol the Florida straits and this was within our operating 
limits within the resources that we have to be able to sustain 
that level of presence without having to compromise my counter 
drug presence which over the last three months I have more than 
doubled our presence off Central and South America as we look 
at what are the highest priority threats.
    And so up to now we have been able to balance between 
illegal migration and counter drug flow to properly resource 
each of those mission sets.
    Mr. Rogers. Likewise, on the counter-narcotics strategy and 
policy of the Coast Guard, the cocaine flow from South America 
into the central and eastern Carribean region has doubled over 
the last four years from 42 metric tons in 2010 to 95 in 2013. 
That represents about 15 percent of total documented cocaine 
flow in the western hemisphere.
    So these cutbacks or these slow-downs, if you will, of 
equipment that you need is having an impact today. Is that 
right or wrong?
    Admiral Zukunft. Yeah. I will go back to 2013, Mr. 
Chairman, when sequestration hit and it hit halfway into that 
fiscal year. At that point, I had to cut 50 percent of my 
remaining patrol days for fiscal year 2013. So the impact of 
that is the first two months of fiscal year 2015, we have 
removed more drugs in the eastern Pacific than we did in all of 
2013 which is why a predictable budget is so imperative for us 
to be able to sustain this level of effort.
    As of two weeks ago, we have already removed in excess of 
50 metric tons of cocaine. In the last week alone, we have 
confiscated over two tons. And so we have gone from about a 
three to four-ship presence 24 hours a day 365 days a year to 
over six ships operating. But, then again, two-thirds of those 
ships are well beyond their service life.
    But we are having a market impact and not just coast guard 
but working with the national intelligence community, our 
interagency partners. It has really been a team effort, if you 
will, on an international scale.
    Mr. Rogers. The Office of National Drug Control Policy, 
ONDCP, the White House war on drugs recently released a 
Carribean border counter-narcotics strategy to address BTO and 
TCOs operating in and around Puerto Rico and the Virgin 
Islands, U.S. Virgin Islands, the goal to substantially reduce 
the threat posed by drug trafficking transnational organized 
crime and associated violence in the region.
    Your seventh district has reallocated resources based on a 
threat-based risk assessment, but unlike in previous years, 
your budget has not proposed to reduce personnel or flight 
hours, but its reduction in acquisition funding could have a 
long-term impact on its operational capabilities in this source 
transit zone.
    What do you say about that?
    Admiral Zukunft. So our operating budget has been steady. 
And so at the same time, we are seeing increased demands for 
services, as I mentioned in my opening statement. And so we are 
able to sustain that, but, again, we are doing so as some of 
these platforms are reaching the end of their service life.
    So what we are able to sustain today will not be 
sustainable four to five years from now, but this does allow us 
to maintain the momentum that we have been able to develop just 
over the last year, especially a very concerted effort against 
drug flow.
    We work very closely with our CDP counterparts and with 
ICE. In fact, in the last week, we have had three major drug 
interdictions that were destined for Puerto Rico. The three of 
those probably total in excess of over 3,000 kilograms of pure 
cocaine destined for Puerto Rico and the profits from those 
drugs are no longer in the hands of these illicit criminal 
organizations either.
    So we are able to maintain this effort today, but certainly 
we cannot do this indefinitely.
    Mr. Rogers. Well, you are treading water. You are just 
treading water. Not even that. Your budget includes a three 
percent reduction in operating expenses, a 17 percent reduction 
in acquisition monies. And you said earlier that you are only 
interdicting 20 percent in the Carribean as it is now.
    But with even reduced funding, you are going to be lucky to 
do 20 percent; are you not?
    Admiral Zukunft. That is true. That is true, Mr. Chairman.
    Mr. Rogers. I fail to understand the logic, if any, in the 
budget proposal in that regard.
    I yield, Mr. Chairman. Thank you.
    Mr. Carter. Thank you, Mr. Rogers.
    Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    Admiral, thank you for your service. I wear a blue suit as 
well, although I do not have those funky things on my sleeves 
like you do. I was an Air Force guy, so we appreciate you and 
the many who work with you.
    I flew rescue helicopters for a while and we flew and did 
some exercises with the Coast Guard. Very, very capable pilots 
and crew and I was always impressed with them.
    I would like to talk for a little bit about sequester and 
budget cuts and help me see the big picture. As I look through 
your opening statement, 88,000 personnel is something like what 
you have right now; is that right?
    Admiral Zukunft. Yeah. That is active, reserve----
    Mr. Stewart. Right.
    Admiral Zukunft [continuing]. Civilian, and our Coast Guard 
all volunteer auxiliary.
    Mr. Stewart. What was your high watermark in personnel and 
when was that; do you know?
    Admiral Zukunft. Our high watermark for personnel was 
probably about four to five years ago active-duty strength.
    Mr. Stewart. Okay. And do you know that number or about?
    Admiral Zukunft. We can provide that number for you.
    [The information follows:]

24 March 15 Hearing on: ``Coast Guard FY 16 Budget Request''--Witness: 
              Admiral Paul Zukunft, Coast Guard Commandant

    GENERAL QUESTION MEMBER ASKED: When was the highest number of 
personnel working for the Coast Guard and how does that number compare 
to today?
    COAST GUARD/ADM ZUKUNFT RESPONSE: U.S. Coast Guard personnel levels 
grew to the highest levels in 2012 at 51,136 FTE (43,016 military and 
8,120 civilian).
    The current personnel level, based on 2014 reported actual, is 
48,499 FTE (40,546 military and 7,953 civilian). These levels reflect 
average end strength for military personnel and FTE for civilian 
personnel.

    Mr. Stewart. Substantially different than it is today?
    Admiral Zukunft. A slight reduction.
    Mr. Stewart. Only a slight reduction? What about in 
operations cost, $8.145 billion is what you are requesting this 
year? What was your high watermark for funding; do you know?
    Admiral Zukunft. Again, for the record, I will have to 
provide you that.
    [The information follows:]

24 March 15 Hearing on: ``Coast Guard FY 16 Budget Request''--Witness: 
              Admiral Paul Zukunft, Coast Guard Commandant

    GENERAL QUESTION MEMBER ASKED: In what FY did the Coast Guard 
receive the highest amount for Operational Costs (OE), and how does 
that compare to the FY 2016 Budget request?
    COAST GUARD/ADM ZUKUNFT RESPONSE: The Coast Guard received its 
highest Operational Expenses (OE) appropriation amount in Fiscal Year 
(FY) 2015 $6.830 B. The FY 2016 Budget request for OE is $6.821 B ($9 
million below FY 2015 Enacted).
    For comparison purposes, the FY 2015 amount excludes a $3 million 
rescission and funds designated as emergency pursuant to BBEDCA.

    Mr. Stewart. Yeah. It was probably three or four years ago 
as well.
    Admiral Zukunft. Probably in 2012 roughly.
    Mr. Stewart. Okay. And a substantial reduction from what 
you have now?
    Admiral Zukunft. The largest reduction we have seen and it 
was mentioned by the ranking member has been in our AC&I budget 
which at one point was nearly $1.5 billion. 2016, it puts us 
just over a billion.
    Mr. Stewart. My point is this. As a former military member, 
and this is not a unique concern among the Congress, and that 
is that we have gone too far too deep too fast in cuts to our 
military. And we are going to pay a price. In fact, we are 
seeing a substantial price in my opinion in our ability to 
serve and to protect our country.
    I would ask you to respond to that. If you have had cuts in 
funding or a re-prioritization in funding in some cases to 
areas that you yourself probably, I am projecting now, but I 
would say that there has been at least conflict in some cases 
about what the priorities and where the funding should be 
spent, help us understand the impact that that has had on your 
ability to do the mission. What are the concerns that you have 
in that regard?
    Admiral Zukunft. The concern is our ability to 
recapitalize, and to recapitalize at a pace that would make it 
affordable. We have had unpredictable budgets. I have been 
through 21 continuing resolutions in the last four years. Under 
a continuing resolution it prohibits me from engaging in major 
acquisition programs. So a predictable, reliable budget, to 
have an acquisition budget that is equally predictable and does 
not experience a 35 to 38 percent reduction over a period of 
three or four years.
    At a point in time where I have a confluence of finishing 
the National Security Cutter, I need to bring on the Offshore 
Patrol Cutter, finish out the fast response cutter by 2020, and 
that does not even touch the Arctic domain. There is no money 
for me to even address the Arctic. And so those are the 
challenges that I face. And I could not be more clear is that a 
one-point, you know, a $1 billion AC&I budget will not address 
these concerns that are, they are not even over the horizon. 
They are now in front of me----
    Mr. Stewart. They are here.
    Admiral Zukunft [continuing]. Staring me in the face today.
    Mr. Stewart. Let me just quickly ask a sort of question and 
then I am going to switch gears a little bit. Your 
recapitalization has primarily focused on your surface assets. 
What about your air assets? As I look through your list you 
have got substantial air assets. How are they? And I see no 
requests for new funding as far as purchasing assets. It is all 
operations and maintenance. Is that true?
    Admiral Zukunft. Yes, the previous Congress, through their 
tremendous support we acquired 14 C-27J aircraft from your 
prior service, from the Air Force. We are now missionizing 
those aircraft. But that for the Coast Guard was a cost 
avoidance of over half a billion dollars. So as a result of 
that it has postured our aviation program quite well going 
forward. Now we just to need to missionize these 14 aircraft.
    Mr. Stewart. That is good to know. Last thing, and if I 
could quickly, and this is, I do not know how you are going to 
respond to this. It is not really a question perhaps, just an 
observation. But it is worth mentioning, at least I believe it 
is. You have this very successful and a substantial effort in 
drug interdiction, 340 smugglers detained, 91, as the chairman 
said, 91 tons of cocaine. This is the one that is interesting 
to me, 48.9 tons of marijuana.
    It is a dangerous mission in some cases. It is obviously a 
priority for you. And yet I could take you to states in the 
west and show you acres and acres of marijuana that is being 
grown, I guess legally. How does that disparity kind of play 
out among your Coast Guard personnel? That they are doing this 
mission at the same time back home, you know, it is legal in 
some cases? Has that made that mission more difficult? Or is it 
a lesser priority to you now then?
    Admiral Zukunft. For me it is not the commodity itself, it 
is the organized criminal element behind it. So there is a 
black market for marijuana in the United States. I get it. But 
who is growing it, who is harvesting it, who is distributing it 
is the Sinoloa Cartel, the most violent organized criminal 
element right now in this hemisphere.
    Beheadings is not a new phenomenon to these cartels. And so 
I look at this is a big part of their operating base, is 
growing, harvesting, distributing marijuana. And maybe it has 
become easier because we have taken a more lenient approach to 
it, but the Coast Guard does not. But this is a key enabler for 
organized crime, is to market marijuana in the United States. 
And I am committed to depriving them that opportunity.
    Mr. Stewart. So you have not re-prioritized that mission at 
all over the last several years?
    Admiral Zukunft. No, we have not.
    Mr. Stewart. It is as high a priority for you now as it was 
two or three or four years ago?
    Admiral Zukunft. Absolutely, Congressman.
    Mr. Stewart. Good. Thank you. I appreciate your time.
    Admiral Zukunft. Thank you.
    Mr. Stewart. Chairman.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. I appreciate your 
service to the country and I want to follow up on a couple of 
questions that you had just from Chairman Rogers and in 
particular concerned about the size of the fleet. We have in 
the 2009 fleet mix analysis that the program of record's 
planned force of 91 cutters does not look to be enough for you 
to be able to perform your mission. And what in your opinion 
force size would be capable of fully performing your statutory 
mission? And what would that cost in annual acquisition 
funding? Just to give us an idea of what you think your needs 
are and what that would cost, if we had that opportunity?
    Admiral Zukunft. All right. Let me first begin with our 
program of record, you know, which calls for again eight 
National Security Cutters, 25 Offshore Patrol Cutters, 58 Fast 
Response Cutters. For me that is the right fleet mix, operating 
and then leveraging our authorities that we have offshore.
    I look back to better years in our acquisition budget, when 
we had an acquisition budget of $1.5 billion. That allows me to 
move these programs along at a much more rapid pace. And the 
quicker I can build these at full rate production, the less 
cost it is in the long run as well. But there is an urgent need 
for me to be able to deliver these platforms, and in a timely 
and also in an affordable manner.
    But to at least have a reliable and a predictable 
acquisition budget would make our work in the Coast Guard much 
easier. But when we see variances of 30 or 40 percent over a 
period of three or four years, not knowing what the Budget 
Control Act may have in store for us going on, yes, we are 
treading water now. But any further reductions, and now I am 
beyond asking for help. We are taking on water.
    Mr. Culberson. Well it is a real source of concern. We 
support your mission and want to do all we can to help in a 
difficult environment where so much of the budget today, so 
much of our tax dollars are going to Medicare, Social Security, 
and social safety net programs that are devouring the almost 
entire federal budget. It is a source of real concern to all of 
us on this committee that want to make sure that you and all of 
our men and women in uniform have what they need.
    We are urging our colleagues to deal with the looming 
problems in both Medicare and Social Security as the truly best 
way for us to be able to help you and to help make sure the 
nation is able to defend itself and for you to be able to 
perform your mission. We just simply have got to get all of our 
colleagues focused, and the country focused, on solving these 
terrible problems with Medicare and Social Security, 
particularly Medicare. It is just devouring every available 
dollar. And too many people keep looking to the Appropriations 
Committee to solve these problems, Mr. Chairman, and it is 
simply cannot be done on the backs of this committee. It has 
got to be dealt with in the bigger picture, with the Ways and 
Means Committee, and Energy and Commerce, and the authorizing 
committees.
    But we will continue to do our very best to help you, sir. 
And then as you have seen the, you know, of course the Navy has 
also seen its fleet shrink, which is a source of deep concern 
to all of us in this committee. And the people of Texas are 
worried about it as well. And in response you have partnered 
with the Navy and the Marine Corps to better coordinate 
maritime security. And could you elaborate on what that 
security cooperation means in the Gulf of Mexico in particular? 
And what, talk to us a little bit about some of the examples of 
success you have been able to achieve in terms of sharing costs 
and responsibility with the Navy and the Marine Corps.
    Admiral Zukunft. The Cooperative Strategy for the 21st 
Century, it lays out a global force allocation among the 
maritime services. We have seen a rebalancing within the Navy, 
much of that going to the Pacific, whereas I have written a 
strategy for the Western Hemisphere where our authorities are 
unique and most relevant in terms of applying Coast Guard 
resources to the threats that we see here in the Western 
Hemisphere.
    So rather than follow the other services where they may go, 
if there is an area where they are placing less emphasis, that 
is probably an area where the Coast Guard needs to place a 
greater emphasis, especially for threats that directly impact 
the homeland. The number of deaths that we have seen in the 
United States that are drug related. The violent crime, eight 
out of ten of the most violent nations in the world today are 
in our Western Hemisphere. They are not in Southwest Asia, they 
are right here at home. And the reason they got that way is 
because of organized crime, and much of that aided and abetted 
by drug flow.
    So among the three services within the Cooperative Strategy 
this is an optimal application of our Coast Guard resources and 
most importantly our authorities that we have to be able to 
operate in this domain. The ships that we operate are 
interoperable with the other maritime services. The Navy 
invests in our weapons systems, in our C4ISR system, so we can 
integrate with the Navy if called upon to do a higher end 
mission such as naval warfare. But right now the war that we 
are seeing is non-state sponsored and much of it is organized 
crime related.
    Mr. Culberson. Well we appreciate your service to the 
country, sir. Thank you very much.
    Admiral Zukunft. Thank you.
    Mr. Carter. I am going to go into a second round. Admiral, 
the eight National Security Cutters that have been funded 
through fiscal year 2015 will replace the high endurance 
cutters that are 50 years old. Congress has appropriated over 
$4 billion to acquire these vessels. With the delivery of the 
eighth NSC the program of record is complete. I understand that 
four have been delivered to date. What is the status of the 
final four NSCs?
    Admiral Zukunft. Thank you for that question, Mr. Chairman. 
Number five we will commission this summer. Six and seven are 
being built, and seven will be completed in 2018. And we are 
awarding the contract, now that we have a full budget 
appropriation, for national security number eight, and then 
that will complete that program of record.
    Mr. Carter. I was going to ask you whether the Coast Guard 
needs more national security cutters because I hear the Senate 
is interested in funding a ninth. What are the acquisition and 
operational costs for an additional NSC? Can you absorb the 
cost inside the budget request? Is an additional NSC necessary 
for mission success? Would the ninth cutter endanger other 
acquisition programs like the OPC?
    Admiral Zukunft. Mr. Chairman, your last statement is 
correct. It would endanger other programs. It also endangers 
our mission need statement, our program of record, that we have 
gone on record time and again for, eight National Security 
Cutters, 25 Offshore Patrol Cutters, and 58 Fast Response 
Cutters. As soon as we start waffling, then where is our 
credibility?
    But the other piece of this, it is not just the initial 
acquisition cost. It is what I call the total life cycle cost. 
And the total life cycle cost of a national security cutter 
would be much greater than an offshore patrol cutter. And so I 
need to look at what is our budget going to be ten, 15, 20 
years from now? And so make a smart investment. And for me the 
smarter investment is the offshore patrol cutter to keep those 
total life cycle costs to the bare minimum.
    Mr. Carter. Now going to another thing, I had the great 
pleasure of being able to go up to the Arctic with the Coast 
Guard and discuss issues up there. We are sort of on the dying 
end of polar icebreakers in the Coast Guard. Your budget 
includes a relatively small amount of funding for polar ice 
breaker capabilities, specifically in the 2016 budget request 
$4 million towards the continued acquisition of a new polar ice 
breaker, additional funding to assess the sea worthiness of the 
Polar Sea Icebreaker, which has been out of commission for 
quite a few years now. What is the status of the polar 
icebreaker acquisition? What is the long term plan for polar 
icebreaker capability in the U.S. Coast Guard?
    Also, I understand that a new icebreaker is on the north 
side of a billion dollars. It is an expensive proposition. But 
I honestly believe there is a huge need, if the Arctic 
continues to perform as the Arctic is performing right now. I 
would like your comments.
    Admiral Zukunft. Mr. Chairman, I will first start near 
term. And our near term approach was, you know, by decision 
time to recapitalize our ice breaking fleet. So we did that by 
activating the Polar Star. And we estimate that buys us about 
ten years of decision time. It is not a hard fixed number, but 
roughly ten years.
    We will have to recapitalize these ships. If we reactivate 
the Polar Sea, and we are doing an assessment right now, now 
that we have an appropriation for this fiscal year, we will 
take the Polar Sea out of the water, we will do a preservation 
dry dock, and then that will start the full assessment of what 
would it take to reactivate the Polar Sea. And that may take us 
in one of two directions.
    The cost may be so exorbitant that it may be more prudent 
for us to instead invest in a new icebreaker. That is a 
critical decision because it then means it is a serious 
investment going forward. We do not have shipyards in the 
United States today that fabricate rolled steel to the hull 
thickness that the Polar Sea and the Polar Star were built to 
40 years ago. And so industry would have to make that front end 
investment. And would they make that investment for one ship? I 
cannot speak for industry. But that is certainly, that is a 
concern of ours as well. But we clearly need a heavy icebreaker 
and not a medium icebreaker, or not an ice capable vessel.
    We saw that this year. The Polar Star was diverted, rescued 
a fishing vessel on the way back from Antarctica. They went 
into 150 miles of ice, some of it 14, 18 feet thick. And if the 
Polar Star was beset in that ice, we do not have another 
icebreaker that could extract it. The only other nation that 
might would be Russia, and I do not think we would ask Russia 
to come to our assistance in this current environment that we 
are in. So we have no self-rescue capability. But that is why 
it is imperative for us to first invest in a heavy icebreaker 
before we consider a medium one.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Beyond the unfunded priorities lists 
which you submitted, which does not include major asset 
recapitalization items, where would you allocate additional 
AC&I funding beyond the need you have already stated for the 
OPC? For example, could we expedite the acquisition of the Fast 
Response Cutter? Or could we move faster on a polar icebreaker?
    Admiral Zukunft. One of our first unfunded priorities is 
our air station in Los Angeles. Ranking member, as you know, 
LAX has squeezed us out and we will be operating out of Ventura 
County for the near term. There is a $31 million line item to 
build that facility out to make it a permanent air station. And 
so, you know, before I look at a $1 billion icebreaker, 
thinking in more realistic terms, building out that facility in 
Ventura County would be a prudent investment going forward. 
Among our list of unfunded priorities, that would be a very 
high one for me following the Offshore Patrol Cutter.
    Ms. Roybal-Allard. Okay. And what is the time line? When do 
you have to be out?
    Admiral Zukunft. We will be moving out in fiscal year 2016.
    Ms. Roybal-Allard. Sixteen, okay. The Coast Guard, as I 
understand it, is the only component that currently has its 
headquarters at the St. Elizabeths campus. Renovation of what 
will be the main DHS headquarters building, including the 
Secretary's office, is underway and should be completed by 
2017, as I understand it. The fiscal year 2016 budget proposes 
$26 million through the Office of the Under Secretary for 
Management to reconfigure the Coast Guard's headquarters 
facility, known as Munro Building. As I understand it, this 
funding will allow the Coast Guard to make more efficient use 
of space in the Munro Building and to reduce the number of 
offsite locations for Coast Guard personnel.
    Can you describe for us what changes will be made to the 
Munro Building through this funding and how it will affect your 
operations in terms of long term facility costs and other 
efficiencies? And also, as the first tenant on the St. 
Elizabeths campus, what is your take on the benefits of 
continuing to consolidate a departmental management and 
component headquarters on the campus?
    Admiral Zukunft. Ranking member, first I will start with 
the consolidation effort and Coast Guard efficiencies. I have 
two GSA leases out of Boston Commons that I am going to close 
down and that will save the U.S. government $7 million by 
moving 600 people that currently work there into the Munro 
Building at our Coast Guard headquarters. It is efficient. It 
is the right thing to do.
    There is other available space that would be available to 
the Department of Homeland Security, clearly not the entire 
department. But certainly for unity of effort having everybody 
working on the same campus, much like the Pentagon, would 
certainly go a long way to furthering unity of effort within 
the Department of Homeland Security. And I would welcome that 
opportunity.
    I have not seen the full plan, the floor plans, if you 
will, for $26 million, and how the building would be 
repurposed. But certainly for me it is all about efficiency. As 
I am looking for, you know, some relief in our out year 
budgets, at the same time I need to be responsible and look for 
the vestitures, efficiencies, and we are doing just that, and 
we are doing it starting right here in Washington, D.C.
    Ms. Roybal-Allard. Also I would like to ask a slightly 
different kind of question, perhaps less to do with oversight 
or resource requirements. I know the men and women who serve 
are the lifeblood of the Coast Guard and that you are very 
proud of them, and that recruitment and retention are 
critically important. What are the current retention rates for 
military personnel at the Coast Guard? And are you satisfied 
that they are at a good place?
    Admiral Zukunft. Ranking member, we are healthy as a 
service. Our people is the happy story of the Coast Guard. We 
had 90 percent retention of our enlisted workforce last year, 
and it has held at 90 percent for the last ten years. We have 
had 93 percent retention of our officer corps and we have 
stayed within 93 percent for the last ten years. And those 
numbers are actually healthy. You do not want 100 percent 
because then there is no room for new accessions. But the 
quality of the people that are joining this all volunteer 
service are beyond anything I have seen in my 38-year career.
    Junior enlisted members serving as E-2s with full masters 
degrees before they even come into the Coast Guard. Years ago 
they would be direct commission officers. But they enjoy law 
enforcement, search and rescue, working with the maritime 
industry, environmental protection, and also being part of the 
military service. We are drawing some of the best, if not the 
best, talent that this nation can provide in an all voluntary 
military service. I could not be more pleased.
    Ms. Roybal-Allard. Okay. I noted that the Coast Guard 
ranked 66th of out 314 agency subcomponents in the most recent 
rankings of the best places to work in the federal government. 
I am sure you would like to be much higher, but I did want to 
note that only one other DHS subcomponent ranks higher than the 
Coast Guard. Is there anything that you feel needs to be done 
to improve morale at the Coast Guard? And if so what are the 
challenges that you face moving forward?
    Admiral Zukunft. Several challenges we face. One is the age 
of our platforms. We are able to operate and maintain ships for 
50 years because our people do the maintenance. When they 
deploy for 185 or more days a year, as busy as that is they are 
even more busy when they return to port because they have got 
to get that platform ready to sail again.
    We rarely contract out to do grounds maintenance, or some 
of our shore infrastructure is 100 years old. They are on, they 
are national historic properties. But we are operating from 
veritable museums. But it is our people who do the plumbing 
work, the wiring work, the roof work. So we get an awful lot of 
self-help within the Coast Guard, in addition to just doing the 
mission.
    And then there is distractions. We have distractions when 
there is talk of a budget lapse and then our people may not get 
paid. And so I cannot afford our folks doing front line 
operations to be distracted with something as fundamental as 
are we going to be paid or not? And then there is a lot of 
distraction that is also playing out with the Pay and 
Compensation Commission and what is going to come from that as 
well. So there is uncertainty within the force right now. And 
so that is the uncertainty within our budget, and then also 
uncertainty within their pay and compensation packages. So it 
is a distraction to our folks.
    Ms. Roybal-Allard. Okay. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you. Tell me again how many CRs have 
you seen in what period of time? It is an astonishing number, 
but I knew it was a lot. But that is----
    Admiral Zukunft. Approximately 21 continuing resolutions in 
the last five years.
    Mr. Culberson. Yes, that is what I thought you said.
    Admiral Zukunft. It is the new normal.
    Mr. Culberson. It has got to be really distracting to your 
folks and a worry. And the retention rate is so impressive. And 
I know Chairman Carter serves on the Defense Subcommittee, and 
I am delighted to hear that you, the level of self-help that 
you do. That you handle a lot of your own needs on base. Our 
armed services, I think, Chairman Carter, a lot of the other 
branches of the service have gotten to where they almost, they 
hire out so much of that. It is nice to hear you take care of a 
lot of that. And I suspect you save money as a result and it is 
probably good for your folks, too, is it not?
    Admiral Zukunft. Necessity is the mother of innovation.
    Mr. Culberson. I do worry also about the fact that the, you 
said a minute ago, Admiral, that we do not have the ability to 
rescue, or you do not have the ability to rescue yourself if 
you get that polar icebreaker stuck in the ice. The only folks 
you can turn to to rescue you are the Russians, which you 
obviously would just as soon not do. That is the exact same 
testimony we had right here in this room about two weeks ago 
with the NASA Administrator discovering that there is no, the 
United States has no ability to rescue our astronauts from the 
Space Station, that we would have to turn to the Russians.
    I just think it is an appalling situation and it just 
drives home the point of how critical it is that we deal with 
the looming bankruptcy of Medicare and Social Security and 
these social safety net programs that are just devouring the 
entire federal budget. It is just a source of real concern. 
Because we are going to be in the position where Europe is 
today.
    The British are just about to disappear. The Royal Navy is 
just unable to even, they are a shadow of their former selves. 
And if the United States, if the United States Congress, all of 
us in both parties, do not make sure our constituents 
understand the severity of the problem and the urgency of 
solving the looming bankruptcy of these critically important 
social safety net programs, but to make sure that they are 
solvent, that we are keeping people that are here illegally off 
of those social safety nets to save money. That we doing 
everything we can to help you and enforce the law and protect 
our coastline, we are just simply not going to have the money 
to take care of a lot of these fundamental things. And we are 
going to find ourselves in the position of the, of Great 
Britain, and these European countries that now are facing the 
situation where they simply cannot fulfill the security needs 
of their nations. It is a source of great concern to me, sir. 
And I deeply appreciate your testimony.
    I want to ask about the, on the polar icebreakers, what if 
the, to the extent is the Coast Guard able to, for example, 
contract that work out? To lease icebreakers? Commercial 
icebreakers, for example, particularly in the Antarctic? Talk 
to us a little bit about that. Can you farm out some of that 
work, and contract it?
    Admiral Zukunft. Congressman, we put every option on the 
table. From reactivating an old ship, purchasing a new one, or 
leasing. One of the challenges when we lease is that lease is 
scored up front. So if you want to lease it for, say, 20 years, 
you pay the 20-year lease at the very beginning. You do not, 
you know, we do not amortize that payment. So from a business 
case we lose the flexibility of how and where we operate it, 
and yet we pay this, almost the equivalent of an acquisition 
expense up front.
    Mr. Culberson. That is statutory federal law that requires 
you to do that?
    Admiral Zukunft. Yes, sir.
    Mr. Culberson. I do not believe that is the way the private 
sector handles it. A lot of things around here, you were 
telling me the other day, Judge, on the floor, we were visiting 
about it. If you really looked at the way the federal 
government does business, no private business would ever do a 
lot of the things that we do around here. Yes, I believe we are 
the only outfit in the world that is able to borrow money to 
pay off debt, and then, and intergovernmental loans. It is just 
incredible. So talk to us a little bit about that. The law 
requires you to score the cost of that lease up front for 20 
years? Which of course, how do you absorb that? You cannot.
    Admiral Zukunft. No, we could not.
    Mr. Culberson. It just eats you alive.
    Admiral Zukunft. So it is the same dilemma that we have 
right now in the recapitalization. But whether we reactivate a 
ship or not, all that does is it pushes the decision point 
further to the right of when you acquire new platforms. And----
    Mr. Culberson. What is, if I could, the logic of that lease 
requirement, that you put the cost of that lease up front. 
Where is that? It is a federal statute. Do you know the history 
of it? Or what was the logic behind that? And it is something 
maybe we ought to explore, Mr. Chairman. Because I am, that is, 
frankly I know a way a lot of the other countries have handled 
the ice breaking problem. If you are one of the, particularly 
Norway, or Sweden, or I think Denmark, some of these other 
countries that do not have a lot of money because they have 
poured it all into their social safety net and they are about 
to bankrupt themselves, they have got almost nothing left 
because their politicians will not deal with this hard reality, 
they have farmed out that work and they are leasing it. What is 
the origin of that rule that says you have got to count the 
cost of that lease up front?
    Admiral Zukunft. Congressman, we will have to, my staff 
will be happy to----
    Mr. Culberson. We will help run that down. Because that may 
be something we can help them with, Mr. Chairman. That would 
help you a lot, would it not? If you could----
    Admiral Zukunft. Yes, what I look at is what is the 
requirement? And so is there a heavy icebreaker in the U.S. 
inventory right now that we could lease? And the answer is no.
    Mr. Culberson. A foreign flag ship?
    Admiral Zukunft. Perhaps.
    Mr. Culberson. I know they are out there.
    Admiral Zukunft. Yes.
    Mr. Culberson. Because this was a concern a number of years 
ago. I have been on CJS for a number of years, and love that 
subcommittee, and the National Science Foundation, when George 
Bush was President the President just signed an executive order 
or some sort of an internal memorandum that shifted the 
responsibility for the ice breaking from the Coast Guard to the 
National Science Foundation. And because of the costs 
associated with the recapitalization of the ships it was going 
to devour much of the National Science Foundation's budget. So 
with the help of the authorizing committee, we were able to get 
that responsibility, I know it is difficult for you, sir. And 
we are going to help you deal with it. But that was devouring 
the National Science Foundation, had the potential to really 
eat them up.
    We would, I would like to work with you on that, Mr. 
Chairman. That is a real source of concern. It is important not 
only for the work the coast guard does but for the National 
Science Foundation to get down to the, to the Antarctic.
    I have some other questions I will submit for the record. I 
appreciate the time, Mr. Chairman. And thank you for your 
service, Admiral.
    Admiral Zukunft. Thank you, Congressman.
    Mr. Carter. Thank you, Mr. Culberson. I do not think we are 
going to do another round, but I have one more question for 
you. Just recently, we were on the Island of Cyprus. Cyprus 
needs two coastal patrol vessels. I know we have either given 
or sold some of our old assets from the Coast Guard to other 
places, Sri Lanka I think has one of our ships. How would one 
go about working with the Coast Guard to get a couple of patrol 
vessels that you are getting rid of for someplace like Cyprus?
    Admiral Zukunft. We have a very aggressive foreign military 
sales program, so we have Nigeria, Philippines, Bangladesh, I 
am meeting with the Crown Prince of Saudi Arabia who is 
interested in buying some of our response boats. So we have a 
program within the Coast Guard that I can, can work on these 
foreign military sales options. The next ships that we will be 
taking out of service will be our Island Class 110 foot patrol 
boats that would perhaps meet that need. We work with our 
embassies but I have a staff dedicated to be able to provide 
those services and we do so on a global scale.
    Mr. Carter. Lucille, did you have a question?
    Ms. Roybal-Allard. Thank you, Mr. Chairman. I just have a 
really quick follow up question to the last one I had. Beyond 
the air station in L.A., what major air or surface asset could 
you use additional AC&I funding for?
    Admiral Zukunft. Ranking member, as you know we have a 
small line item in there for unmanned aerial systems. And this 
is now becoming commercial off the shelf technology. But for 
the Coast Guard, our ability to do covert surveillance without 
having to wear out our manned air crews. But we actually need 
both. We need a manned helicopter to do search and rescue, 
aviation use of force, sniper fire, but also an unmanned aerial 
system as well. So that would be an opportunity for us to 
leverage that technology to make best use of our platforms at 
sea.
    Ms. Roybal-Allard. Thank you. Thank you, Mr. Chairman.
    Mr. Carter. Okay.
    Mr. Culberson. Thank you. Very quick, I forgot to ask, I 
want to follow up if I could, do you look at for example ships 
that the Navy is taking out of their inventory for whatever 
reason as an opportunity to pick up a U.S. Navy ship for 
example at a, it may not be brand new, but one you could 
certainly save a tremendous amount of money on and expand your 
fleet. Do you have that authority under existing law, and have 
you examined, Dr. Robert Ballard, who has become a good friend 
and the scientist that discovered the Titanic, told me 
yesterday the Office of Naval Research has DSS'd just recently 
two or three of their research vessels. Have you ever looked at 
for example picking up ships from the Navy?
    Admiral Zukunft. Right now the Navy is taking their Perry 
Class Frigates out of service, and as we look at that it is 
really designed as a guided missile frigate and that is not a 
capability I need to go after go fast vessels. It consumes a 
lot of fuel. Then I have to reschool our Coast Guard personnel. 
And so those systems are being taken off line. The systems are 
also no longer stocked as well. So I am gaining an obsolete 
ship that we are not trained for and then it becomes even more 
difficult to spare part and maintain that platform.
    Mr. Culberson. Sure, you would not need the guided missile, 
for example. But I mean, could you not redesign the ship? Have 
you all taken a serious look at this?
    Admiral Zukunft. We have. We have, Congressman. And when I 
look at it from a total life cycle cost, again, it does not 
meet our mission needs.
    Mr. Culberson. Okay. Thank you.
    Admiral Zukunft. Thank you.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Carter. Everybody got all your questions? All right. 
Admiral, you know one of the things I want to say is back in 
the days of Katrina and Rita, just about everybody failed but 
the Coast Guard did the job. I think that is the badge that the 
Coast Guard wears on their chest, that all of the American 
people still realize. That while everybody else was making 
excuses the Coast Guard did the job. That is why this committee 
has worked very diligently to make sure that we provide the 
resources to the Coast Guard. We will do so because you are 
people who do the job. Thank you for doing the job for us. We 
appreciate you.
    Admiral Zukunft. Thank you, Chairman, and thank you members 
of the committee.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 26, 2015.

                  U.S. DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JEH C. JOHNSON, SECRETARY, DEPARTMENT OF HOMELAND SECURITY
    Mr. Carter. All right. I am going to call today's hearing 
to order.
    Mr. Secretary, welcome. We are happy you are here today. It 
is good to have you back to testify on the President's fiscal 
year 2016 budget for Department of Homeland Security, DHS.
    Last year, you testified on a budget that was developed 
before you came on the job. This request, however, is a true 
reflection of your priorities. We look forward to having a 
robust discussion.
    The fiscal year 2016 budget for DHS is $41.2 billion, an 
increase of $1.7 billion above fiscal year 2015.
    Mr. Secretary, there is a lot to like in this request, and 
I have some concerns too. But for the first time since I have 
been chairman, I am pleased with many of the recommendations in 
your request.
    The request prioritizes DHS's frontline operations and 
personnel. It doesn't include unauthorized fees as an offset. 
It complies with the law by funding 34,040 detention bends.
    With a focus on preventing terrorism, securing the border, 
administering immigration laws, safeguarding cyberspace, and 
strengthening national preparedness, I believe the request is a 
very constructive first step in the appropriations process.
    Some highlights include: $9.1 billion for CBP's mission to 
protect America's borders while still allowing the free flow of 
trade and travel that is vital to our economy; $3.3 billion to 
deter illegal entry into the United States, with full funding 
for the 34,040 detention beds, 129 fugitive operation teams, 
and the increased use of alternatives to detention; $4.4 
billion for TSA to fund screening personnel, training 
equipment, and other resources in support of more efficient and 
more traveler-friendly screening methods; and $1.9 billion for 
the United States Secret Service, a $273 million increase, to 
improve perimeter security of the White House, for better 
training, and to cover the costs of several upcoming events, 
including the 2016 Presidential campaign--it is worth noting 
that this proposal mirrors recommendations made by the United 
States Secret Service Protective Mission Panel--and $818 
million to protect and strengthen the government's ability to 
counter cyber attacks on critical information technology 
systems and infrastructures.
    Funds are included to care for at least 58,000 
unaccompanied children. I look forward to hearing from you on 
the latest apprehension trends and whether the $162 million 
contingency fund is required.
    I want to commend you for making management reform a top 
priority. Improving decisionmaking processes and strengthening 
back-office functions is never easy, yet the Department is 
making progress under your leadership. I am pleased to see many 
senior-level vacancies have been filled. Even GAO gives DHS 
positive marks in their latest high-risk report. So thank you, 
and keep up the good work.
    For all that is good in this request, there are some 
problems. To begin with, the $1.5 billion increase absorbs 
almost 75 percent of the nondefense discretionary spending 
available under the limits of the Budget Control Act of 2013.
    Mr. Secretary, the Congress intends to live within the 
confines of the law even if the administration does not. As a 
result, I doubt DHS's budget will rise as steeply as the 
request proposes.
    Within FEMA, a new $300 million climate change initiative 
is proposed at the expense of first-responder and State and 
local grant programs.
    Across all DHS components, hiring frontline personnel is 
not happening in a timely manner, resulting in large carryover 
balances. ICE and Secret Service aren't keeping up attrition. 
NPPD has major staff shortages. CBP continues to struggle to 
hire the 2,000 officers funded in fiscal year 2014. I 
understand only 700 are currently on board.
    Hiring problems doesn't have just budgetary implications. 
At DHS, an inadequate force structure could lead to national 
security and public safety concerns.
    Mr. Secretary, this is a problem that we need to fix, and I 
think you are the man to do it.
    However, I would be remiss if I did not mention two major 
frustrations.
    Last week in the press, I read that ICE released 30,000 
criminal illegal aliens into the United States in communities 
in 2014. Once again, the releases were made without notice to 
Congress, and we don't know whether the releases endanger 
public safety.
    What really annoys me, however, is that many of the 
criminal aliens were released from detention because their 
countries of origin would not repatriate them, and that is a 
real problem. I realize the law requires this result, but it is 
wrong, and we need to figure out how to fix it.
    Also, back in 2013, this committee was surprised by the 
release of approximately 36,000 criminal aliens. We had a 
pretty good discussion about that at the time. In the 2014 DHS 
appropriations bill, we had language requiring the Department 
to notify this subcommittee prior to the implementation of 
further releases. We had the same language in the 2015 DHS 
appropriation bill. Yet, your department gave us no notice 
until after the fact.
    This committee is concerned about the Department's failure 
to inform us as required. And, quite honestly, as I have told 
you already, I am getting real tired of learning about these 
releases in the press rather than from the Department as 
required. And so, for that reason, I am very concerned about 
that.
    Lastly, Mr. Secretary, you know that I am completely 
opposed to the Executive actions issued by memo under your 
signature last December. Those memos jeopardized the fiscal 
year 2015 conference agreement and transformed it from a law 
enforcement and public safety measure into a battleground for a 
fight between the executive and legislative branches of 
government. Though the fight was the legitimate use of 
legislative process, the actions caused unnecessary dissension 
and partisanship that is damaging DHS's mission to protect 
Americans from terrorist threats and secure the border.
    I have directed the subcommittee staff to report to me on 
any departmental actions that appear to violate the injunction 
issued by the Federal district court in Brownsville, Texas. I 
am putting this department and you on notice. And, as an 
attorney, you know and I know that you will respect the 
authority of the court and that you will demand the same from 
your staff.
    With that, I would like to recognize Ms. Roybal-Allard, our 
distinguished ranking member, for any remarks she may make.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And good morning, Mr. Secretary, and welcome.
    I would like to start by commending your efforts to make 
the Department of Homeland Security more cohesive and better 
focused on budgeting performance, joint requirements, and 
acquisition best practices. Those kinds of processes and 
capabilities are sometimes overlooked, but we understand they 
are ultimately the foundation for almost everything the 
Department does and that you need to get them right.
    Your efforts are all the more compelling because they are 
the beginning of long-term endeavors, the full payoff for which 
will likely be enjoyed not by you but by your successor as 
Secretary.
    We have just come through a very difficult appropriations 
cycle for the Department. Frankly, Congress is not doing its 
job when an agency's funding remains in legislative limbo for 
the first 5 months of a fiscal year. I know the basis for that 
delay was a disagreement over the legality of your immigration 
enforcement approach, even though the Federal courts are the 
appropriate place to sort that out. And I hope we can avoid any 
repeat of unnecessary delays to appropriating your funding for 
fiscal year 2016.
    The fiscal year 2016 net discretionary budget request for 
the Department of Homeland Security is $41.4 billion, as scored 
by the Congressional Budget Office. This does not include an 
additional $6.7 billion in disaster relief funding that does 
not count towards the discretionary cap. The net total is $1.7 
billion above the current-year funding level.
    A significant portion of that increase is needed for 
second-year funding and step increases for CBP personnel, 
addressing protective mission panel recommendations, and other 
needs of the Secret Service, and for Federal cybersecurity 
enhancements.
    Much of the budget request for the Department seems well 
justified, but there are some areas where I am concerned about 
cuts, particularly for the grant programs. If the committee is 
forced to do its work within the constraints of the current 
discretionary budget cap, we will be hard pressed to address 
the Department's needs for funding grants and other purposes 
for the coming year.
    Before I close, I want to try and frame the discussion we 
may have this morning about immigration.
    Mr. Secretary, we know you have a tough job to do, and 
perhaps the toughest part is the enforcement of our immigration 
laws. It is tough because it exposes the tension between values 
we as Americans hold dear.
    We are a country of laws, and respect for the law is 
paramount to our democracy and our way of life. However, we are 
also a country that values human life, humane treatment of 
every individual, and due process. We value keeping families 
together, protecting children, and we believe in second 
chances.
    While it is essential that we protect our borders and 
enforce our immigration laws, we must grant all people due 
process and treat them with fundamental human dignity and 
respect. And I hope in our discussion this morning we can keep 
these American values in mind.
    Mr. Secretary, I look forward to your testimony and our 
discussion today, and I look forward to continuing to work with 
you this year in support of the Department's important 
missions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Carter. At this time, I will yield to Mr. Rogers, 
chairman of the full committee, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, welcome again to these premises.
    I am pleased that we finally managed to pass a full-year 
spending bill for your department to support our men and women 
on the front lines and bolster our critical security agencies 
and fund vigilant antiterrorism and law enforcement efforts on 
our home turf. I am absolutely committed to moving all 12 of 
our appropriations bills through the regular-order process to 
ensure that we responsibly fund all Federal agencies, including 
Homeland.
    Mr. Secretary, in years past, my colleagues and I have 
expressed disappointment in budget submissions from DHS that 
were political in nature, not reflective of the security needs 
confronting the country, and chock-full of budget gimmicks that 
made our job on the Appropriations Committee needlessly 
difficult. With a few exceptions that I will highlight later, I 
am happy to say that I cannot make those criticisms about this 
budget submission.
    After CBO scoring, the request constitutes a $1.7 billion 
increase over enacted levels. It includes important funding for 
our frontline operations, including a $98.8 million increase to 
support 21,270 Border Patrol agents, and essentially level 
funding for Coast Guard operations. The request for ICE 
includes sufficient funds for the 34,040 detention beds 
required under law. And you have done away with many of the 
unauthorized fees the Department previously proposed to offset 
critical security spending.
    While this budget submission is indeed a vast improvement 
over those we have seen in the past, it does not mean that I am 
left without concerns.
    First and probably most important, I question whether this 
request constitutes a realistic funding level. Unfortunately, 
the President's budget request government-wide is billions of 
dollars above the level of our committee that we will 
ultimately be allocated to support nondefense discretionary 
spending and is supported by unrealistic tax increases that the 
President knows are DOA here in Congress. That is not 
responsible budgeting. And I question whether your recommended 
level is possible, given all of the domestic priorities at 
stake.
    Second, the President's Executive order on immigration 
remains, as the chairman has said, the elephant in the room. 
The President's unilateral action demonstrates intentional 
disregard for the legislative authority of the Congress under 
the Constitution, jeopardizes the ability of this committee to 
move forward with appropriations for the Department, poisons 
the well for any meaningful immigration reform package, and 
even jeopardizes your very well-intentioned agenda to better 
unify DHS's practices and policies.
    You have unfortunately become the poster child for this 
ill-thought-out immigration policy because your Department is 
charged with implementing it. Mr. Secretary, there are 
separation of powers in this country, and you simply cannot 
expect the Congress to stand idly by when the President 
circumvents this entire branch of government.
    Mr. Secretary, I have been involved with funding for this 
department since it started--actually, before it started--and 
we take seriously our responsibilities to support our men and 
women on the front lines as they protect our homeland. Because 
of the importance of the DHS mission to our country's security, 
we, on both sides of the aisle on the Appropriations Committee, 
have worked earnestly to cast politics aside and focus on the 
critical task at hand.
    It is supremely disappointing to me that the President's 
egregious circumvention of Congress has shifted the 
conversation away from where it ought to be, on keeping this 
country safe from threats, domestic and foreign, and making 
sure the men and women who protect us all stay safe.
    We look forward to hearing your testimony, and we welcome 
you to the Hill, sir.
    I yield.
    [The information follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    Mr. Carter. Thank you, Mr. Rogers.
    It is now my pleasure to recognize Mrs. Lowey for an 
opening statement.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And I would like to thank Chairman Carter, Ranking Member 
Roybal-Allard for holding this hearing today, and join them in 
welcoming you, Secretary Johnson. Thank you for joining us.
    The Department of Homeland Security is tasked with the 
mission of securing our Nation from consistent threat, and this 
is no easy feat. To keep us safe, 16 different agencies and 
offices have to operate on a cohesive and cooperative basis.
    I do hope that today and for the next few weeks and months 
we can focus on that mission, get to work on a comprehensive 
immigration bill. Let's do it. Let's do it now. And while we 
are focusing on homeland security, let's focus like a laser on 
the important work that you have ahead.
    Last week, at the Louis Armstrong New Orleans International 
Airport, a man attacked TSA agents with wasp spray and a 
machete after being questioned about his boarding pass. This 
incident serves as a reminder of the risks DHS personnel take 
every day to keep us safe.
    On any given day, DHS personnel will process nearly 1 
million travelers entering the U.S., provide $3.7 million in 
Federal disaster grants to individuals and households, patrol 
3.4 million square miles of U.S. waterways, conducting 54 
search-and-rescue missions, and seize approximately $300,000 of 
undetected or illicit currency.
    Yet, last month, Republicans took the Department of 
Homeland Security to the brink of a shutdown. Secretary 
Johnson, despite what your department accomplishes, for more 
than 5 months you were forced to operate under a continuing 
resolution instead of having a full-year funding bill. I am 
very pleased that eventually we passed a clean bill fully 
funding DHS, and it is my hope that we will move forward on a 
bipartisan basis and not hold the Nation's security hostage 
over partisan games.
    The fiscal year 2016 request is $41.2 billion in net 
discretionary budget authority, a 3.8 percent increase from 
fiscal year 2015. This includes $11.2 billion for FEMA, with 
$6.7 billion for the Disaster Relief Fund cap adjustment. It 
also includes $818.3 million for cybersecurity advancements, a 
$65.1 million increase from fiscal year 2015. I was 
particularly pleased to see that, given the growing threat and 
the importance of our focusing like a laser on the cyber 
threat.
    I just want to mention one other thing in closing. While it 
is still too early to know what actually occurred, the chief 
French prosecutor handling the investigation said today that 
the Germanwings plane was deliberately crashed by the copilot. 
This should be a reminder that, as global threats persist, 
DHS's mission must remain the same: Keep us safe. Now, more 
than ever, we must support the Department in fulfilling this 
most essential yet complex goal.
    I look forward to a productive discussion this morning, and 
thank you very much.
    [The information follows:]

Statement of Nita M. Lowey--FY16 Department of Homeland Security Budget 
            Hearing with Secretary Johnson, March 26th 2015

    I'd like to thank Chairman Carter and Ranking Member Roybal-Allard 
for holding this hearing today, and to Secretary Johnson, welcome, and 
thank you for joining us.
    The Department of Homeland Security is tasked with the mission of 
securing our Nation from consistent threat. This is no easy feat. To 
keep us safe, 16 different agencies and offices have to operate on a 
cohesive and cooperative basis.
    Last week at the Louis Armstrong New Orleans International Airport, 
a man attacked TSA agents with wasp spray and a machete, after being 
questioned about his boarding pass. This incident serves as a reminder 
of the risks DHS personnel take every day to keep us safe.
    On any given day, DHS personnel will:
        <bullet> Process nearly 1 million travelers entering the U.S.;
        <bullet> Provide $3.7 million in federal disaster grants to 
        individuals and households;
        <bullet> Patrol 3.4 million square miles of U.S. waterways, 
        conducting 54 search and rescue missions;
        <bullet> And seize approximately $300,000 in undetected or 
        illicit currency.
    Yet last month, Republicans took DHS to the brink of a shutdown. 
Secretary Johnson, despite what your Department accomplishes, for more 
than five months you were forced to operate under a continuing 
resolution instead of having a full year funding bill.
    I am pleased that eventually, we passed a clean bill, fully funding 
DHS. It is my hope that we will move forward on a bipartisan basis and 
not hold the nation's security and prosperity hostage over partisan 
games.
    The FY16 request is $41.2 billion in net discretionary budget 
authority, a 3.8 percent increase from FY15. This includes $11.2 
billion for FEMA with $6.7 billion for the Disaster Relief Fund cap 
adjustment. It also includes $818.3 million for cybersecurity 
advancements, a $65.1 million increase from FY15.
    [While it is too early to know what actually occurred, the chief 
French prosecutor handling the investigation said today that the 
Germanwings plane was deliberately crashed by the copilot. This should 
be a reminder that] as global threats persist, DHS's mission must 
remain the same--keep us safe. Now more than ever, we must support the 
Department in fulfilling this most essential, yet complex goal.
    I look forward to a productive discussion this morning. Thank you.
    Mr. Carter. I thank you, Mrs. Lowey.
    At this time, Mr. Secretary, we would recognize you and 
ask, if you could, to summarize what you have presented in 5 
minutes, if possible. And we will have your entire testimony 
entered into the record.
    At this time, I recognize you.

                  Opening Statement: Secretary Johnson

    Secretary Johnson. Thank you, Chairman Carter, Chairman 
Rogers, Ranking Member Roybal-Allard, Congresswoman Lowey, 
other members of the committee. Nice to see you again.
    Let me begin by saying that you do have my full statement, 
and I will just say a few things in my 5 minutes.
    First of all, as sincerely as I can, I want to thank the 
members of this committee, who I know worked very hard to get 
us a full-year appropriation for fiscal year 2015, and the 
leadership that you showed to get us there.
    The possibility of a shutdown of my department was very 
personal to me. I know people in our department who would have 
been affected very dramatically had we gone into shutdown. For 
example, there is a person in our administration who is in 
stage 4 cancer who depended upon her paycheck to make her 
copayments for her cancer treatment. I was going to have to 
furlough her if we went into shutdown.
    And so, on behalf of the 225,000 men and women of my 
department, thank you for your leadership in getting us a full-
year appropriation.
    Like members of this committee, I am very pleased by our 
fiscal year 2016 budget submission of $41.2 billion net 
discretionary spending. I think it meets our vital homeland 
security missions.
    For me, counterterrorism remains our top priority. It is 
the reason this department was founded. We still live in a 
dangerous world.
    I believe the global terrorist threat has evolved to a new 
phase, and it is more complex and harder to detect. It relies 
more on independent actors, smaller-scale attacks, very 
effective use of the Internet, and actors who could strike with 
little or no notice in the homeland, as we have seen 
demonstrated in other parts of the world.
    There is a large threat still surrounding aviation 
security. I am pleased that this submission funds our key 
aviation security priorities.
    Wave of the future, we need to partner with our key 
counterterrorism allies abroad and in the interagency on 
tracking individuals of suspicion in international travel. I 
believe that is important. I believe we need to strengthen the 
security of the Visa Waiver Program, in which 38 of our allies 
are participants. I believe we need to ramp up countering-
violent-extremism efforts here at home. I personally 
participate in those efforts.
    Cybersecurity is a big priority of mine and this 
department. I am pleased that this submission funds our 
cybersecurity mission.
    Border security, I am pleased that total apprehensions on 
the southern border this fiscal year are down month to month 
about 20 percent from where they were this time last year. The 
unaccompanied children are down around 40 percent less than 
they were this time last year.
    Still, there is a lot more work to do. I believe we can 
build a stronger border. This submission funds new technology 
for the border, which our Border Patrol personnel tell me we 
need. I am pleased that this submission funds those things.
    Chairman, you and I have discussed the issue of bonding out 
of those convicted of crime who are in deportation proceedings. 
In response to questions, I am happy to talk to you about the 
things we have done to tighten up that process, including 
notification to local law enforcement when that happens.
    We are recapitalizing the Coast Guard, as you know. This 
budget is part of that. We are funding the enhancements to the 
Secret Service that the independent panel has recommended.
    And, as has been noted here, we are doing a number of 
things to reform the way in which we manage ourselves and 
conduct business. We have our unity-of-effort initiative, which 
has led to greater efficiencies in the Department. We have 
filled all the vacancies--almost all the vacancies. We will 
announce soon a new President's nominee for TSA [Transportation 
Security Administration] Administrator, who is in vetting now.
    We are doing things to improve morale within the 
Department. And, as you noted, we are working to get off the 
GAO [U.S. Government Accountability Office] high-risk list. GAO 
has noted that DHS is a model for government agencies in their 
efforts to get off the list. I also note that we have received 
many compliments for our enhanced responsiveness to Congress, 
despite the number of committees and subcommittees that exert 
oversight over us.
    So, in general, Chairman, I believe we are moving in the 
right direction in the funding of our key homeland security 
priorities and the manner in which we conduct business. I am 
happy to respond to your questions here this morning.
    Mr. Carter. Well, thank you very much, Secretary.
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                             HIRING PROCESS

    Mr. Carter. You more or less ended on an issue that I was 
going to bring up right now. My first question is: DHS is 
suffering from a significant backlog of vacancies--CBP, ICE, 
NPPD, Secret Service. For example, only 700 of the 2,000 CBP 
officers funded in fiscal year 2014 are on board. Many Secret 
Service officers are maxed out on overtime because there just 
aren't enough staff. ICE attrition outpasses hiring. Offices 
responsible for infrastructure protection and cybersecurity are 
almost 20 percent below the level funded for personnel.
    I am worried about the operational components and that they 
are spread too thin, putting the Department's critical mission 
at risk. Further, I am extremely concerned with what is 
happening to the hundreds of millions of dollars which Congress 
appropriated for staffing while the people are not actually on 
board.
    What are the causes for the hiring lags? What is the 
average hiring timeframe for law enforcement officers at DHS, 
and how does this compare with other Federal organizations, 
like the FBI? Does the current hiring process need to be 
changed, and, if so, how? And are there impediments that delay 
the process?
    Secretary Johnson. Chairman, first of all, the new 
leadership team that I have at DHS is very focused on staffing 
at lower levels.
    The issue of the Customs personnel that you refer to--you 
are correct that we are authorized to go up to an additional 
2,000 in Customs personnel. We are at about 700 now. I would 
attribute that to two reasons: one, an issue with getting 
enough personnel to conduct the lie detector test; second, we 
had an issue with our contractor that conducts background 
checks. The contractor was the subject of a cyber intrusion, a 
major cyber intrusion, which caused a huge backlog for us and 
other agencies of government.
    Notwithstanding that, we are aggressively moving forward in 
filling the vacancies that exist throughout the components that 
you mentioned. This is a priority of mine. It is a priority of 
the leaders.
    I will get back to you for the record on the average wait 
time to get the law enforcement positions filled and how that 
compares to other agencies. I would be happy to do that, sir.
    [The information follows:]

    Representative Carter: What is the average hiring timeframe for law 
enforcement officers at DHS, and how does this compare with other 
Federal organizations, like the FBI?
    RESPONSE: DHS does not currently have access to time-to-hire data 
for other agencies to provide a comparison as requested. DHS collects 
data as prescribed by Office of Personnel Management requirements, 
which includes five government-wide Mission Critical Occupations which 
are not law-enforcement occupations, and four agency-specific Mission 
Critical Occupations (Customs and Border Patrol Agents (1896); Customs 
and Border Protection Officers (1895); United States Secret Service 
Uniformed Division/Police (0083); and Federal Law Enforcement Training 
Center Law Enforcement Instructors (1801)).
    The FY 2015 Quarter 1 time-to-hire data for the agency-specific 
positions is as follows:
          a. CBP Agents (1896)--265 average number of calendar days per 
        hire.
          b. CBP Officers (1895)--194 average number of calendar days 
        per hire.
          c. USSS Uniformed Division/Police (0083)--234 average number 
        of calendar days per hire.
          d. FLETC Law Enforcement Instructors (1801)--112 average 
        number of calendar days per hire.

    Secretary Johnson. But it is something we are aggressively 
moving forward on.
    Mr. Carter. I would appreciate that. Because, you know, we 
are looking at these numbers. The CBP, obviously, is one that 
flashes because that was a big issue at our airports and even 
our border crossings. I had people in my office yesterday 
talking about that. Happy you have them; want to know where 
they are. So, those kind of questions.
    But, in addition, 750 vacancies within the Border Patrol, 
200 in the Secret Service, 500 in the NPPD, 200 investigators 
at ICE that are all fully funded. I think that is a real 
concern for us.
    And, you know, the question becomes, if we are not filling 
those positions but we funded those positions, then what is 
happening to the money that was funded for personnel and how is 
it being spent? And if you have information about that, I would 
appreciate you getting us something on that.
    Secretary Johnson. Sure.
    [The information follows:]

    Representative Carter: And, you know, the question becomes, if we 
are not filling those positions but we funded those positions, then 
what is happening to the money that was funded for personnel and how is 
it being spent? And if you have information about that, I would 
appreciate you getting us something on that.
    RESPONSE: Funding will be used to support emerging requirements, 
including addressing cybersecurity vulnerabilities and U.S. Secret 
Service Protective Mission Enhancements. In accordance with the 
Department of Homeland Security Appropriations Act, 2015 (P.L. 114-4), 
with Sec. 503, the Department will notify the Committees on 
Appropriations in greater detail on how these funds will be utilized. 
The notification will be provided by June 30, 2015.

                             CYBERSECURITY

    Mr. Carter. My second question has to do with something 
that I seem to be having to talk about every day with my three 
subcommittees I have: cybersecurity. And I join you and 
Chairman McCaul, that we have major cybersecurity 
responsibilities in this department. The possibility of a 
cybersecurity breach at certain levels in this country could be 
catastrophic.
    What is the impact to the NPPD cyber program if we are 
forced to cut programs to last year's level due to defense 
function fiscal constraints, meaning a reduction of up to $100 
million below the request? Would you prioritize infrastructure 
protection programs ahead of cyber?
    Secretary Johnson. Well, that would be hard to do.
    As you know, Chairman, this nation, the private sector, 
dot-gov is subject on a daily, hourly basis to cyber attacks, 
cyber intrusions. I read about them virtually every day. So our 
funding request includes a large amount for our Einstein system 
to secure the dot-gov world and to enhance, in many respects, 
our NCCIC [National Cybersecurity and Communications 
Integration Center] facility, which we use to interface with 
the dot-com world.
    This is a major, major priority of mine. I am pleased that 
there is legislation in Congress that will likely move forward 
on a bipartisan basis to codify the role of DHS dealing with 
the private sector.
    And I believe that we need to also move out in enhancing 
our hiring of our personnel. We got good legislation last year 
to enhance our ability to hire key personnel. I am personally 
recruiting a number of top cybersecurity experts for our 
department right now, making phone calls myself to bring in 
some good cybersecurity leaders from the private sector.
    I am addressing the RSA conference in California next 
month--something like 25,000 cyber experts. They have asked me 
to be their keynote speaker. I intend to do that, take the 
opportunity to build trust and partnerships with the private 
sector. This has to be a joint effort between us and the 
private sector.
    There is something like $800 million in our request for 
cybersecurity. I think it is key that we have that level of 
funding. I also believe that we need that level of funding for 
our cybersecurity law enforcement efforts. The Secret Service 
itself has a lot of cybersecurity expertise in this area, which 
we need to continue to support.
    Last month, for example, we brought to justice a major 
alleged cyber criminal from, I believe, Russian origin. He was 
extradited from Holland. He was arraigned in Federal court in 
New Jersey. He was part of a ring that was stealing millions in 
credit card information from individuals.
    That was a case built by the Secret Service. They were the 
lead agency. So we need to continue to fund our cybersecurity 
law enforcement efforts, as well.
    So we are moving in the right direction, but there is a lot 
of work to do.
    Mr. Carter. Well, I also mirror your concerns.
    And in discussing with the private sector what we are 
asking them to do--and I find that I have raised this issue a 
couple times in the last week because I have had to talk about 
cyber a lot. You know, right now, our position in this country 
is a defensive position. Although we have offensive 
capabilities at the governmental level, our position is 
basically defensive; we are defending ourselves from attacks.
    And we are asking our large, and some small, businesses, we 
can't defend everybody, so you have to build their own defense. 
And we are going to be having these little pods of defense all 
over the country. Another one of our challenges is being sure 
that they know how to play the game, so we don't end up 
accidentally with somebody getting so mad, because they got 
attacked, that they counterattack.
    It is kind of a funny thing to have to think about, but the 
reality is there. Some of the people who have real talent, like 
Microsoft or Dell or some other people that are out there, 
could make a pretty good counterattack. That is a real 
challenge for you, because you have to help challenge these 
people.
    I guess I am just asking you to comment on the private-
sector relationship, and how we are making that actually work.
    Secretary Johnson. Three observations.
    One, you are correct that some sectors of the private world 
are way more sophisticated than others. The financial services 
sector is very, very good at cybersecurity. There are others in 
the supply chain; there are smaller businesses that are not and 
need to come from far away and are most in need of DHS's help. 
They are all reliant upon the government for information-
sharing so that they get the larger picture.
    The other thing I have observed over the last 15 months in 
office is, even among the most sophisticated company, if an 
individual employee is vulnerable to an act of spear-phishing, 
there is the intrusion right there. If the individual employee 
decides to open that email with the attachment from a source he 
doesn't recognize, that can lead to a major, major intrusion. I 
have seen that even in the most sophisticated government 
agencies and in the private sector.
    The other thing that I think is very important in terms of 
an effective partnership with the government is liability 
protection. Liability protection, if a private actor shares a 
cyber threat indicator with DHS, that is something we support 
doing, providing liability protection for those who share cyber 
threat indicator information with us as a carrot and an 
inducement for information-sharing.
    So we wrestled with that issue for a while. I am glad to 
know that the administration supports it, and I believe many in 
Congress support it, as well. I think that is key to our 
cybersecurity legislation efforts.
    Mr. Carter. I, too, support liability protection.
    At this time, I will yield to my colleague Ms. Roybal-
Allard.
    Ms. Roybal-Allard. I want to follow up on the cybersecurity 
issue because, as you know, it has significant presence in my 
State of California.
    Recently, I had the opportunity to talk with many of those 
companies from the Silicon Valley to get their perspective on 
the Department's cybersecurity approach. And what I took from 
those conversations is that there is definitely a lot of work 
that still needs to be done, especially in two areas: first, in 
finding ways to encourage the private sector to adopt good 
cyber hygiene practices, which, as I understand it, could 
address at least about 90 percent of the problem; and, 
secondly, fostering the exchange of information with the right 
kinds of privacy and liability protections, as you mentioned.
    Hygiene is very, very expensive. And with regards to 
privacy and liability, they also expressed an uneasiness and a 
lack of trust of how information would be used by the 
government.
    Are you satisfied, first of all, towards this effort, that 
the Office of Cybersecurity and Communications has the 
resources that it needs to fulfill its mission and that it is 
using the right approach to promote the appropriate flow of 
information between the Federal Government and the private 
sector and not the other way around?
    And, also, if you could also address, how will the 
President's recent Executive order on promoting private-sector 
cybersecurity information-sharing, how will that change things?
    Secretary Johnson. A couple of things.
    I think that the key to effective cybersecurity 
partnerships with the government and the private sector is 
building trust and a level of familiarity with the private 
sector. So I spend a fair amount of time interfacing with the 
same kind of companies that you have just referred to in 
Silicon Valley, Wall Street, elsewhere. I have spoken to CEOs 
[Chief Executive Officers] in the financial services sector, in 
Silicon Valley and so forth--so building trust. Recruiting 
government officials from those industries, also, so that they 
have familiar faces that they are working with in government is 
key.
    As I mentioned a moment ago, I believe that liability 
protection for sharing information with the government is key. 
In my private life, I am a corporate lawyer. I know how boards 
of directors think, and I know how general counsels of 
corporations think. So I believe liability protection for 
information-sharing is also key.
    The Executive order the President signed in February will 
go a long way toward information-sharing, in that we are 
encouraging the use of information-sharing private actors. 
``ISAO'' is the acronym, I-S-A-O. We are encouraging the use of 
these organizations sector by sector to serve as portals for 
information-sharing. It doesn't have to necessarily be only the 
government with whom we share information for the purpose of 
cybersecurity.
    So I think those things are key in the answer to your 
question.
    Ms. Roybal-Allard. Okay. Well, how far can we go with the 
private sector on cybersecurity without new liability 
protection legislation? What is the limit?
    Secretary Johnson. I think, without liability protection, 
that is a significant obstacle. And I think that if we are to 
make significant advances here, some form of liability 
protection provided by Congress is appropriate. And so I am a 
big proponent of that.

                      PRIORITY ENFORCEMENT PROGRAM

    Ms. Roybal-Allard. On another subject, last November, you 
issued a memo directing the implementation of the Priority 
Enforcement Program, which took the place of Secure 
Communities.
    Can you reiterate the impetus for establishing the program 
and what the status and timeline are for fully implementing 
this new program?
    Secretary Johnson. There are, as I understand it, something 
like 122 jurisdictions around this country that have enacted 
limitations, through acts of city councils, county commissions, 
executive orders, placing limitations on their cooperation with 
our immigration enforcement personnel. I think that is bad for 
public safety.
    And so we eliminated the Secure Communities program, which 
had become very legally and politically controversial and was 
leading to all these restrictions, and replaced it with a new 
program.
    The new program replaces detainers with requests for 
notification, which I hope solves the legal issue that is 
arising in litigation. And we are indicating a defined list of 
priorities, a defined list of criminal offenses for which we 
will seek a transfer of somebody from a State or county or 
local jail so that we remove the controversy there.
    Overall, I think it is key that we do a better job of 
focusing our resources and getting at undocumenteds who have 
been convicted of crimes and are in jails. There are these huge 
obstacles that have to be eliminated, and they require a 
partnership. So the leader of ICE [U.S. Immigration and Customs 
Enforcement], the leader of CBP [U.S. Customs and Border 
Protection], and I are on a campaign around the country now to 
engage mayors, city councils, county commissioners to talk to 
them about the new program that we have put in place so that 
they will come off the barriers and limitations that they have 
imposed on their ability to cooperate with us.
    Beginning next week, I am meeting with major city mayors. I 
have been speaking at mayors' conferences and governors' 
conferences about this. Now I am going jurisdiction to 
jurisdiction to jurisdiction to say, ``Here, we have got this 
new program. Please come off these limitations.'' Because it is 
an inhibitor in our ability to go after criminals. It is a real 
inhibitor.

                          ENFORCEMENT GUIDANCE

    Ms. Roybal-Allard. Are you satisfied that the ICE personnel 
fully understand the enforcement guidance issue of last 
November and that they are following that guidance, with 
respect to the issuance of detainers and requests for 
notification? And do you think that State and local 
jurisdictions will be more willing to cooperate with these 
notifications?
    Secretary Johnson. Latter question first. I hope and expect 
that State and local jurisdictions will be more willing to 
cooperate with us.
    I think that the learning and the training, with regard to 
our new priorities, is a work in progress. I had some 
immigration reform groups into my office last week to talk 
about that issue. I heard some concerns. And we are working 
with our ICE personnel to make sure they understand the new 
guidance.
    Ms. Roybal-Allard. Okay.
    There are some suggestions recently that Congress could 
enact a law making it mandatory for State and local 
jurisdictions to act on detainers from ICE.
    Aside from the fact that many State and local jurisdictions 
would oppose such a requirement, you know, what is your 
thinking of that and, also, the constitutionality of it, as 
opposed to--something that could be required by law?
    Secretary Johnson. I think that would be counterproductive.
    First of all, I think that there are constitutional issues 
with a Federal requirement that local sheriffs or police chiefs 
detain somebody in their jails.
    I also think that we would get a lot of pushback on that, 
and it will be counterproductive to our efforts. It would be a 
step back. I want to encourage these people to cooperate with 
us and not impose that on them. I think it would be very 
controversial if we did that.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Rogers.

                           COAST GUARD BUDGET

    Mr. Rogers. Mr. Secretary, at a time when the budget for 
other DHS components is going up, the Coast Guard budget would 
be reduced, the operations part, by 3 percent, acquisitions by 
17 percent. The Coast Guard budget reduced by $238 million from 
fiscal 2015, at a time when, due to the policy changes with 
Cuba and the Caribbean, we are seeing a higher need for cutters 
to interdict people fleeing Cuba, for example.
    The drug trade continues to thrive in the Caribbean. We had 
a good discussion yesterday on this subcommittee with Admiral 
Zukunft, the Commandant of the Coast Guard, who says that he is 
lucky now to interdict 20 percent of the drug traffic coming 
through the Caribbean.
    And I am puzzled why we are proposing substantial cutbacks 
in operations and then, more importantly, acquisitions, cut by 
17 percent, when we need more cutters out there. What can you 
say about that?
    Secretary Johnson. Well, as you know, Chairman, we are in 
the midst of a recapitalization of the Coast Guard right now. 
We have just completed the eighth National Security Cutter. 
This request asks for six more Fast Response Cutters to get us 
to 38 of the 58 we say we need. And we are about to--I am about 
to receive an affordability study on the medium-sized cutter, 
the Offshore Patrol Cutter.
    So we are moving in the direction of revamping that whole 
fleet. The reason the top line is less is because with the new 
fleet is greater efficiency in terms of personnel. It requires 
fewer people to man the new fleet.
    The other thing I will say about Cuba, we saw a brief spike 
in migration in December. Hard to know whether it was in 
reaction to the President's statement or not. But the Coast 
Guard did respond very aggressively to that and dealt with it, 
and the numbers have gone back down again with regard to the 
migrant flow in that part of the world, in that part of the--
off Florida.
    But the basic answer to your question--because I have asked 
the same question, ``Why does the top line look less, given all 
the needs?'' It is greater efficiencies achieved with the new 
fleet.

                        SECRET SERVICE INCIDENT

    Mr. Rogers. Well, I may beg to differ with you about that. 
But I think we are shortchanging a very important part of 
homeland security when we do not capitalize the needs of the 
Coast Guard.
    Secondly and quickly, Secret Service. We have had numerous 
incidents now over a couple of years of drunkenness by agents 
on duty and other misconduct, including the latest example of 
the incident at the 15th Street gate.
    That agency needs discipline. We all have the highest of 
regard and respect for the Secret Service. However, some agents 
are tarnishing that image, and it needs to be cleaned up.
    The Director has referred the latest incident to the 
Inspector General of Homeland Security to investigate. And I 
know that you have certain things you have to wait for, because 
the IG has jurisdiction to investigate.
    However, the leadership of the agency--and I have the 
highest regard for Mr. Clancy as an agent, but I think the 
agency needs an outside, tough Director. What is your opinion 
about all that?
    Secretary Johnson. First of all, you are correct; the March 
4 incident is under investigation. What I know about that 
incident so far--and the facts are not all in yet--but what I 
know about that incident makes me very upset, especially given 
the prior string of incidents.
    I have seen the videotape of what happened. I have 
personally been to the southeast gate to look over the scene, 
look at the orange barrel that was moved out of the way. And it 
upsets me.
    And I have a lot of confidence in Joe Clancy to deal with 
the matters of discipline and to instill discipline in his rank 
and file. You are correct that the independent panel 
recommended an outsider.
    We had Joe in place as an acting. He, to his credit, came 
out of retirement, came back to the Secret Service, an agency 
he loves, to help clean this organization up. And while he was 
acting, he made some really tough personnel choices and changes 
in the senior levels, of people he had known for years.
    So that impressed me and the President, as someone who has 
the ability to think independently and make hard choices. So we 
have appointed Director Clancy to be the permanent Director.
    In addition, we are creating the position of Chief 
Operating Officer (COO) of the Secret Service. For that job, I 
want to see us--and we are--engaging in a far and wide job 
search for somebody who has the ability and the experience to 
address a lot of the things the independent panel identified: 
the ability to put together a budget, the ability to look 
outside the agency for the latest developments in technology.
    And so the newly created COO position, which will be at the 
Deputy-Director level, is intended for somebody who will have 
the outsider's perspective to be value-added to that agency. It 
is, in many respects, an insular-thinking agency. So we need to 
bring in the best practices in terms of how we manage that 
organization.
    But in terms of incidents like March 4, I have a lot of 
confidence in Joe to straighten out the organization. Change 
does not happen overnight. It is very, very important in its 
mission, and I think Joe Clancy is the right person to get us 
there.
    Mr. Rogers. Well, he didn't know about this for 5 days.
    Secretary Johnson. That is true.
    Mr. Rogers. It happened on Wednesday, and he didn't----
    Secretary Johnson. Which meant I didn't know about it for 
5-days-plus. So----
    Mr. Rogers. Yeah. And found out about it, he said, through 
an email rather than up the chain of command. That concerns me 
a lot, that the agency needs discipline and it needs an 
outsider in some position there to be sure that we are not 
jeopardizing the President's life by taking care of people who 
have been our friends for years within the Service. And that 
smacks to me that that may have happened on the latest 
incident.
    So, Mr. Secretary, we are looking to you to bring that 
agency into conformity with the high standards with which it 
has been associated all these years. We must discipline that 
agency and make it work like it is supposed to. The importance 
of the job they have, to protect the life of the President of 
the United States, among other things, demands remedy.
    Thank you.
    Secretary Johnson. I couldn't agree more, sir.
    Mr. Carter. Thank you, Mr. Chairman.
    Mrs. Lowey, we have 5--well, 6 minutes, call it 6 minutes 
until votes. I know you have a busy schedule. You have a bunch 
of these things to go to. I am going to go ahead and go to you.
    Mrs. Lowey. Why don't I talk fast.
    Mr. Carter. Mr. Fleischmann is going to come back and take 
the chair. Ms. Roybal-Allard is going to come back and take her 
chair and continue the hearing while the others go vote.
    Mrs. Lowey. How many haven't voted over there?
    Mr. Carter. They have gone. I am still here with you.

                  NATIONAL PREPAREDNESS GRANT PROGRAM

    Mrs. Lowey. Okay.
    Just a question about FEMA. After September 11, Congress 
came together and passed bipartisan legislation that authorized 
programs such as UASI, the State Homeland Security Grant 
Program, and the Port and Transit Security Grant Programs. We 
did this because we know our communities know how important it 
is, know how important the threats they face are. We want to be 
sure that our responders have every tool available to detect, 
to prevent, and respond to acts of terrorism.
    Yet the President's fiscal year 2016 budget proposes to 
consolidate the four major State and local programs into a 
single pot, even though Congress has not authorized doing so.
    Under the proposed National Preparedness Grant Program, my 
first question is: What guarantees can the Department provide 
that important grant funds, such as UASI and the State Homeland 
Security Program, will be sufficient to prevent acts of terror 
and national disasters?
    What would be de-emphasized under the proposed program 
compared to the current grant programs? For instance, would 
port and transit systems see fewer grant dollars? If separate 
programs are eliminated for them, how would funds for the most 
at-risk areas be safeguarded under the budget request?
    Secretary Johnson. Ma'am, as I think you know, the 
consolidation question is one we discuss every year. Our view--
and I know it is Administrator Fugate's view--is that the more 
effective approach is to administer grants at the State level 
so that the Governors can best assess what is appropriate for 
their States. Congress makes its own judgments in that regard 
every year.
    As I am sure you know, this year, with regard to the UASI 
grants, we had language that says we should distribute in a way 
so that up to 85 percent of the risk and only up to 85 percent 
of the risk is satisfied with grant-making. And so we are 
working through that now.
    The formula for how we get there is one that I have a lot 
of interest in and want to make sure we are getting right 
because I have been out in major cities and I have seen the end 
use that is being made with regard to our grant money.
    For example, in Phoenix, for the Super Bowl, 3 days before 
the Super Bowl I looked at our op center--the joint op center--
State, Federal, local. And the sheriff there or the fire 
chief--I can't remember who it was--was anxious to point out to 
me every single piece of communications equipment.
    Every camera, every TV screen you see was funded by the 
Department of Homeland Security through our grant-making. A lot 
of the things that you see on scene at the Boston Marathon 
bombing--the first responders, a lot of the equipment they 
used, the vehicles--were funded by our Department. So I have 
seen the end uses of UASI grant money, the State grant money. I 
know how valuable it is.
    One of the reasons I know how valuable it is is because I 
hear from State and local officials about the importance of 
this to them. And so it is something I want to be sure we get 
right.
    I think, given how the terrorist threat to our Nation is 
evolving, it is all the more important that our State and local 
jurisdictions be adequately funded with homeland security--what 
I like to refer to as hometown security equipment.
    The threat to our Nation is more local-based. Very often 
you can have an actor lurking in a community without notice to 
our national security community. And so the grant-making, in my 
view, has become all the more important.
    And, unfortunately, while we were on the CR [continuing 
resolution] for 5 months, as you know, we were unable to do 
that. Now that we are on a full-year appropriation, we can turn 
the spigot back on again.
    We are about to announce how we intend to distribute our 
UASI funds very, very soon. And I think we have made the 
appropriate judgments there.
    Mrs. Lowey. Well, I know that my local recipients feel very 
strongly that this funding is absolutely essential. So I 
appreciate your attentiveness to it. And you can be sure we are 
all looking at it very closely. Thank you very much.
    Secretary Johnson. Thank you, ma'am.
    Mr. Carter. I am waiting for someone to take the chair so 
we can continue. But I will continue.
    Back to the subject matter I was talking about a little bit 
earlier----
    Secretary Johnson. Judge, if you need to take a break, that 
is fine. I will be here. I can wait. I understand the need to 
go vote.
    Mr. Carter. I need to go vote. Okay. If you will wait, we 
will get back here just as--well, there is Mr. Fleischmann. He 
can take the chair, and I can go vote. We will have to wait for 
a Democrat when Ms. Lowey leaves. So we may take a little 
break.
    Secretary Johnson. Okay. All right.
    Mr. Carter. She is on her way.
    [Recess.]
    Secretary Johnson. Good morning, sir.
    Mr. Fleischmann. [presiding]. Good morning, sir. Good to 
see you. Ms. Roybal-Allard is right behind us.
    [Recess.]
    Mr. Fleischmann. We are back in session.
    Good morning, Mr. Secretary.
    Secretary Johnson. Good morning.

         IMMIGRATION INITIATIVES: DEFERRED-ACTION APPLICATIONS

    Mr. Fleischmann. First, let me begin by thanking you. You 
have a very arduous task. The Department of Homeland Security 
is so critically important to the security of our Nation, and I 
want to thank you for stepping up and doing that.
    I wanted to talk today a little bit about where the 
administration has gone in regard to its immigration 
initiatives. I am going to have some questions in that regard.
    I represent of 3rd District of Tennessee, Chattanooga, Oak 
Ridge, all the way up to the Kentucky border. Actually, my 
district borders our full chairman's district. And when I am in 
schools or the supermarkets and I speak with my constituents, 
my constituents are upset. Some are furious. Some are saddened 
by the administration's circumventing Congress and, as they see 
it and I see it, circumventing the United States Constitution 
with the Executive orders and initiatives.
    It is particularly bothersome because we have immigration 
laws in this country. And there are a lot of people who have 
followed the law and are still following the law to become 
legal immigrants. And America is a great Nation of legal 
immigrants, including my family.
    But folks are upset. Folks are upset because they wonder 
why and how this has come about. And just as you and your 
Department have a difficult job, we in the Congress have a 
difficult job. The House is elected every 2 years. We stand 
before the American people. And the Constitution is precious, I 
think, to the American people.
    And this has really shaken, I think, the core of our 
republic to have the administration move ahead with its 
immigration initiatives. And I think it throws our security 
into some uncertainty, and it just casts us in a very difficult 
light. So I want to be able to respond to my constituents, to 
their concerns.
    Central to this issue is the operations of the U.S. 
Citizenship and Immigration Services [CIS], which bears the 
responsibility to process benefits that have been unilaterally 
extended to so many who are here illegally. So I have a few 
questions in that regard, sir.
    Exactly how much, on average, will it cost CIS and any 
other agencies involved to process DACA and DAPA applications 
and related benefits, sir?
    Secretary Johnson. In response to your last question, the 
DAPA program, had it gone forward on schedule, was intended to 
pay for itself through application fees. As I am sure you know, 
the court in Texas has enjoined that program. That case is on 
appeal right now.
    Same thing with the DACA program for kids. Like many 
activities at UCIS, the program is intended to pay for itself 
through the collection of fees that are submitted with 
applications.
    Mr. Fleischmann. And I agree. The court has issued a stay 
of the President's Executive order. But surely there must be a 
plan in place--or must have been a plan in place to pay for 
this.
    Would it be that the fees that legal immigrants, people who 
are playing by the rules, are paying--would those funds be 
designated to use to pay for those who are not here illegally? 
Is that the plan?
    Secretary Johnson. That would not be the intent. There was 
and is a well-developed implementation plan that called for the 
hiring of certain personnel, additional personnel, to 
administer the DACA program, the leasing of additional office 
space, the leasing of additional space for processing 
applications. And the intent was and is that the program would 
be paid for through the fees collected in the program. That is 
the intent.

            UNITY OF EFFORT INITIATIVE: ACQUISITION PROCESS

    Mr. Fleischmann. Thank you, sir.
    Mr. Secretary, last week, acting TSA Administrator Carraway 
testified before us about his support for the public-private 
partnerships and stakeholder participation in reforming the TSA 
policies to improve security as well as efficiency.
    What are you doing throughout DHS, sir, to improve the 
relationship between industry and the agencies in order to 
streamline rulemaking and procurement processes and, in the 
case of acquisitions, to develop and deploy the newest and best 
technology in a cost-efficient manner?
    Secretary Johnson. I can tell you that I spend a tremendous 
amount of time with industry associations, industry CEOs, 
aviation CEOs, the CEOs of firms that we do business with.
    Through our Unity of Effort Initiative, we are bringing 
about greater efficiency and a more mature acquisition process, 
best practices, best learning from other agencies. Our 
bureaucracy has only been in existence 12 years. And so I 
believe we are enhancing and maturing the acquisition process 
through that larger Unity of Effort Initiative.

                   IMMIGRATION INITIATIVES: PROGRESS

    If I may, sir, in response to your initial comment, I think 
it is important for your constituents and others to understand 
that--what we issued in November, nine separate executive 
actions, including efforts to enhance border security.
    So one of the directives that I signed on November 20 was 
to create the southern border campaign strategy to bring about 
a DHS-wide approach to the security of our southern border. And 
it is operational now.
    It is up and running. It is operational. And through our 
investments over the last period of years in border security, I 
think we have seen some good results. Apprehensions, which are 
an indicator of total attempts to cross the border, are down. 
But there is a lot more we need to do.
    The other thing we did was to prioritize the deportation of 
people who have been convicted of crimes. And so we want to 
focus even more sharply our efforts on getting at those who are 
convicted criminals for the sake of public safety in your 
district and elsewhere.
    The Deferred Action program is an effort to bring those who 
are not deportation priorities out of the shadows, get them on 
the books, hold them accountable, so that we know who they are, 
which I believe is important as a matter of law enforcement and 
public safety.
    Mr. Fleischmann. And, yes, sir. Mr. Secretary, while I 
appreciate your resolve to keeping us safe and I thank you for 
that, in that process, my biggest concern and my biggest 
objection to it is that the administration is doing this by 
Executive order and not through the legislative process.
    Constitutionally, that offends me and I think it weakens 
the fabric of the republic. So I am going to applaud you again 
for trying to keep us safe. I think that is one of our most 
steadfast duties under the Constitution, whether you are in the 
House or the White House.
    But, again, my biggest concern and frailty in this is that 
it was done by the administration through Executive order in 
what I view as an attempt to circumvent Congress. But I do 
thank you for your efforts, sir.
    At this time I would like to recognize my colleague from 
Texas, Mr. Cuellar.

              UNITY OF EFFORT INITIATIVE: BORDER SECURITY

    Mr. Cuellar. Thank you so much, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    Two things. One is talk to us about your Unity of Effort 
Initiative. I think it is a good way of putting everybody 
working on the same page and how that is working on the 
southwest border. And then I will ask you some about the 
northern border, about some huge initiatives that you all are 
planning to do that I want to ask you about.
    Secretary Johnson. Sure. The Unity of Effort Initiative is 
something that I issued out about a year ago, and it is an 
effort to get away from the stovepipes in our Department. I 
mean, imagine our U.S. Military trying to fight a war overseas 
with a stovepiped approach, Army, Navy, Air Force, Marine 
Corps.
    So we want to bring about, where it counts, joint decision-
making across the entire Department at the headquarters level 
to achieve greater efficiencies for the taxpayer.
    When it comes to acquisition, budget, part of our budget 
submission is to fund our Joint Requirements Council, which is 
a creation of the Unity of Effort Initiative, which you will 
see in our submission. And I think we have already seen 
efficiencies.
    The southern border campaign strategy, which I am sure you 
are familiar with, is an outgrowth of the Unity of Effort 
Initiative. It is something from which we created three joint 
task forces, one in the southeast to secure the borders in the 
southeast, which are largely maritime.
    So we have a director of Joint Task Force-East, who is a 
Coast Guard 3-star. We have a director of Joint Task Force-
West, who is a Border Patrol 3-star. And they are responsible 
for coordinating the assets of the Department toward border 
security in their theater of operations. Then we have a third 
task force responsible for investigations, which supports the 
geographic task forces.
    They are operational. They are up and running. I think this 
is the wave of the future. I think we need to do this because I 
think border security depends upon not just the Border Patrol, 
it depends upon our Customs personnel, it depends upon our Air 
and Marine personnel, it depends on our Coast Guard personnel, 
our Immigration Enforcement personnel, CIS, and, where 
necessary, FEMA.
    So I want to draw on all the assets of our Department to 
promote strengthening the border. I think that that change was 
long overdue. And it is part of our larger Unity of Effort 
Initiative.

                                 TRADE

    Mr. Cuellar. Well, I want to thank you and congratulate 
you. I think it is the right approach. Because doing it in 
silos just hasn't worked in the past. And I certainly want to 
congratulate you on that.
    Let me take you up to the northern border. And I hope this 
doesn't belong to a project of one of my colleagues on this 
committee.
    But when you look at the numbers of traders and traffic 
coming from the southern border, the numbers have increased. 
For example, Laredo, my hometown, has increased by 10 percent 
from last year. Billions of dollars have come across. And other 
ports of entry have increased.
    And I am looking at the Western Washington University that 
talks about the trade between the U.S. and Canada. And that 
actually has gone down. Well, the southern one has gone up, 
according to this report.
    Then I see a DHS press release on February 18 of this year 
that talks about a particular bridge up there, which is, I 
think, just right next door to the Ambassador Bridge. They are 
going through--I think you know what I am talking about.
    Secretary Johnson. Yes.
    Mr. Cuellar. But on that project you are saying that you 
all are going to be investing in operation and staffing. And I 
think the chairman, Chairman Carter, talked about 700 out of 
only 2,000. But there is a $100-million investment and then it 
is going to call for $50 million a year of annual staffing 
cost.
    And I say this because, if we try to get a million dollars 
from you all on the southern border, we have to go through so 
much red tape on this. And then, in one particular project in 
the northern area--and I don't want to compete Canada versus 
Mexico, but I am just talking about where the needs are at.
    Talk to us a little bit why there is $100 million when 
trade, according to a university there, has been going down and 
then, for us on the border, it has been very, very difficult to 
get that type of investment down there.
    And, again, I don't want to compete north and south. I want 
to see more bridges and not walls or fences on our northern and 
southern border. But I just don't understand.
    Secretary Johnson. Canada is a vital economic partner of 
the United States. The Ambassador Bridge, I think, is the 
busiest northern port we have. It is the busiest northern 
crossing for the entire northern border. That is my 
recollection. And the Ambassador Bridge is privately owned, and 
I think it is maybe four lanes.
    The other striking thing about that bridge is that there is 
no highway approach on the Canadian side to get to the 
Ambassador Bridge. On the Canadian side, you have got to travel 
the city streets of Windsor.
    When I think of that, I try to imagine an approach to the 
George Washington Bridge in New York City or the Lincoln Tunnel 
through city streets. On the New Jersey side, what a mess that 
would be.
    And so there is a compelling, compelling case for a second 
bridge in Detroit to open up commerce with Canada. The 
Canadians are very interested in this. The City of Detroit is 
very interested in this as part of their redevelopment. The 
State of Michigan is very interested in this.
    We have been working at it for years, and we have reached 
an agreement now to build a bridge. And with the bridge, you 
have got to build a Customs plaza. So my Department is 
committed to funding on an ongoing basis, a going-forward 
basis, the operational upkeep of that Customs plaza. I think 
there is a compelling case for another northern border 
crossing.
    Mr. Cuellar. My time is up, Mr. Secretary.
    And I agree. I don't want to compete the south versus the 
north. That is not my intent. My only thing is that, you know, 
larger investments in the northern area, they are done very 
easily. And I can give you more compelling arguments why we 
ought to look at the southern border, also, when it comes to 
trade.
    That is why I am asking to just give the southern area a 
little consideration when you look at $100-million investments 
and $50 million a year investments. That is the only thing I 
ask you to do.
    Secretary Johnson. Having visited your State something like 
10 times----
    Mr. Cuellar. But not Laredo, which is the largest inland 
port where we get 12,000 trailers a day. You have gone down to 
the Rio Grande a lot of times where the unaccompanied kids are. 
That is security.
    I am talking about commerce, 12,000 trailers a day. Maybe 
one of these days I will bring you down to Laredo. That is 
another issue with unaccompanied kids. Laredo is a different 
type of commerce. And that is the only thing I ask you to do.
    Secretary Johnson. Okay. Understood.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Mr. Fleischmann. Thank you.
    Dr. Harris.

                           H-2B VISA PROGRAM

    Mr. Harris. Thank you very much.
    And thank you, Mr. Secretary, for being before the 
subcommittee.
    Let me first ask a couple of questions about H-2B, very 
important to my district, a lot of seafood processing, tourism 
industry. H-2B workers are necessary to keep the little bit of 
economic recovery we have going in my district.
    And you are well aware of the whole court issue with the 
court that ruled against the Department of Labor's ability to 
have rules and regulations and the Department of Labor 
subsequently suspending applications, but then, surprisingly 
enough, DHS suspending applications right after, even though 
the law is pretty clear that DOL only has a consultative role.
    But one thing that came up is: Why did DHS suspend the 
premium processing once the--in general, why has premium 
processing for H-2B been suspended, the ability of the employer 
to pay a little extra to have expedited processing in 15 days?
    Secretary Johnson. Well, I am aware of the case. I am aware 
of the issue. And I am aware that we are moving forward with H-
2B processing, with the permission of the court, on an interim 
basis. I have got to get back to you----
    [The information follows:]

    Representative Harris: But one thing came up is: Why did DHS 
suspend the premium processing once the--in general, why has premium 
processing for H-2B been suspended, the ability of the employer to pay 
a little extra to have expedited processing in 15 days?
    RESPONSE: Due to the U.S. District Court decision in the case of 
Perez v. Perez, which vacated U.S. Department of Labor (DOL) 
regulations from 2008 governing the H-2B program and enjoined DOL from 
implementing the H-2B program pursuant to those regulations, DHS 
temporarily suspended H-2B adjudications on March 5, 2015 and premium 
processing on March 6, 2015.
    DHS resumed adjudications of H-2B petitions on March 17, 2015. 
Given the volume of cases received during the temporary suspension of 
H-2B adjudications, DHS continued to suspend premium processing in 
order to complete data entry of the pending cases and reassess its 
ability to deliver appropriate levels of service to premium and non-
premium filings. DHS resumed premium processing of H-2B petitions on 
April 20, 2015.

    Mr. Harris. Do you know what the current H-2B processing 
timeframes are right now? You have to get back--you can get 
back to me, but I would appreciate it if it were pretty timely.
    Because, you know, we are already held up--I mean, these 
employers--there is a lot of lip service paid to employment and 
the importance about it. But the bottom line is we are going to 
have product ready for processing and tourists ready to come 
and perhaps no workers because of what DOL and DHS has done 
here.
    [The information follows:]

    Representative Harris: Do you know what the current H-2B processing 
timeframes are right now? You have to get back--you can get back to me, 
but I would appreciate it if it were pretty timely.
    RESPONSE: Both the Vermont and California Service Centers generally 
process H-2B petitions (applications) within 30 days.

    Secretary Johnson. By the way, sir, did you see the letter 
we sent you dated yesterday?
    Mr. Harris. Dated yesterday?
    Secretary Johnson. Yes.
    Mr. Harris. I have got to be pretty good. I mean, it is 
only 10:30 on the morning after the letter was sent.
    Secretary Johnson. That is why I asked.
    Mr. Harris. Let me ask, prior to this recent DHS shutdown, 
the--you know, there is a 33,000 cap, but DHS has said, ``Okay. 
We know that there are going to be rejections. So we are going 
to accept 40- to 50,000 applications, knowing some are going to 
be rejected.''
    But this year they are only accepting 33,000. I guess, what 
happens if some are rejected? I mean, you know, the whole 
problem is you have got this 120-day timeframe. So you have 
really got a short timeframe.
    And if DHS hits this cap of 33,000, rejects 7- or 8,000--
this is probably going to happen--then you have delayed the 
ability of these employers to apply in time for their season. 
Because these are all seasonal businesses.
    Why did DHS change that policy?
    Secretary Johnson. It sounds like it was a judgment of 
Citizenship and Immigration Services. And I will be happy to 
find out for you, sir.
    [The information follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Harris. Okay. I know I will get an answer somewhere 
along the line here about this.
    Secretary Johnson. You wrote us a letter, and we responded 
yesterday.
    Mr. Harris. Well, Mr. Secretary, in all fairness, H-2B is 
important to this economy. It is an important part of the 
Department you run.
    It is part of the Department you run, isn't it?
    Secretary Johnson. Absolutely.
    Mr. Harris. So when you make a major policy change and 
decrease the number of applications to this visa program, that 
is something I have got to write a letter to you about for you 
to know why that change has been made? Okay. I will take it 
that I have got to write a letter to know that.
    The DHS is also not updating the----
    Secretary Johnson. Sir, may I----
    Mr. Harris. I have only got 1 minute and 36 seconds left.
    The DHS has always been publishing the cap counts on an 
ongoing basis on their Web site. I have got a note here it 
hasn't been updated since February 27. It is now March 25--I 
don't even know what day is today--March 26.
    Could you commit to weekly updates of the H-2B cap count on 
the Web site so at least our employers know how close we are 
getting to the new lower cap that you have imposed?
    Secretary Johnson. A, you don't have to write me a letter. 
If you want information, you can ask me now. If I don't have 
the information sitting here, which I don't, in the case of 
your last question, I will get back to you.
    [The information follows:]

    Representative Harris: Could you commit to weekly updates of the H-
2B cap count on the Web site so at least our employers know how close 
we are getting to the new lower cap that you have imposed?
    RESPONSE: Please note that on April 2, 2015, USCIS announced that 
it had received enough petitions to reach the congressionally mandated 
H-2B cap for fiscal year 2015. March 26, 2015, was the final receipt 
date for new H-2B worker petitions requesting an employment start date 
before October 1, 2015. USCIS will adjudicate to completion all I-1-2B 
worker petitions that were received prior to the cap being reached.
    USCIS currently provides regular updates to the H-2B cap count on 
the USCIS.gov website while the filing window is open. USCIS will 
explore the possibility of providing weekly updates for future fiscal 
years.

     IMMIGRATION INITIATIVES: DEFERRED-ACTION APPLICATION RENEWALS

    Mr. Harris. You can get back to me on doing the weekly one.
    Now let's get to a pretty serious issue, because it has to 
do with this whole issue of the DACA and the DAPA and the fact 
that it becomes pretty clear by Judge Hanen's opinion on the--
seeking the injunction--delaying his injunction that the court 
was misled about 108,081 3-year deferred-action deferrals given 
under the DACA program, but these 3-year deferrals aren't a 
part of the new guidelines.
    And, yet, the court, in the defendant's advisory filed 
March 3, I guess had to walk back what the Department of 
Justice had said earlier, which is, ``Oh, by the way, DHS 
hasn't been processing anything under the new guidelines until 
February,'' but then had to walk it back because it turns out, 
yes, in fact, DHS has given 108,081 3-year deferred actions 
under DACA, under the President's or, I guess, your new 
memoranda.
    And I don't know. Did you all forget to tell the lawyers 
that, actually, yeah, you have been issuing these? And this was 
one of the bases actually for the Judge not providing the 
injunction.
    So did you make it clear to the Department--I just want to 
get it straight because DOJ is also responsible to the 
committee.
    Did DHS make it clear to the Department of Justice when 
they filed their motions and answered the questions that, in 
fact, 108,081 new 3-year deferred actions had, in fact, been 
issued under the new guidelines? Why did DOJ think they hadn't 
been issued, that no action was going to be taken until 
February?
    Secretary Johnson. My directive, which was part of the 
record in front of the Judge, said very clearly that the 3-year 
renewal will begin to apply to all first-time applications, as 
well as applications for renewal, effective November 24, 2014. 
That is what was in the record. So it was clear by the point of 
the hearing that we were moving forward with 3-year renewals.
    Sitting here, I do not know whether the number of renewals 
that had been granted at the moment of the hearing was known to 
the court, but it should have been clear because it was in the 
record of the case that we began issuing 3-year renewals 
effective November 24, 2014. That is right here on page 3 of 
this directive, sir.
    Mr. Harris. All I can tell you is, you know, you and 
general counsel at DOD--I urge you to go back and read Judge 
Hanen's opinion on why he didn't grant the delay of his 
injunction.
    And, again, I will do it in a follow-up question and ask 
you again: Were the DOJ lawyers informed when they--and I will 
end with that, Mr. Chairman--when they informed the Judge that 
nothing was going to be issued until the middle of February, 
when the Judge will determine the guidelines in the case? And 
we will do it in a follow-up question.
    Thank you very much.
    Mr. Fleischmann. Thank you.
    Ms. Kaptur.

                               VACANCIES

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome. We very appreciate your testimony this morning, 
Secretary Johnson. You have a major job on behalf of the people 
of our country.
    And I wanted to ask if--when Chairman Carter was here a 
little bit earlier, he went through some job opening 
statistics.
    Do you agree with the figures that he cited in terms of the 
number of unfilled job openings at the Department of Homeland 
Security?
    Secretary Johnson. Well, I do know that, of the additional 
2,000 Customs personnel that we were authorized as part of the 
Murray-Ryan agreement and law, we have filled at this point 
about 700 of those 2,000.
    And I explained earlier that part of the reason we haven't 
been able to move faster on that is the ability to get lie 
detector personnel and technicians in place, and we have had an 
issue with the contractor that does the background checks. They 
were the subject of a cyber intrusion. But we are aggressively 
working to catch up on that.
    Ms. Kaptur. I would very much appreciate if your Department 
could provide me for the record the types of job openings 
across the entire Department that are currently available.
    [The information follows:]

    Representative Kaptur: I would very much appreciate if your 
Department could provide me for the record the types of job openings 
across the entire Department that are currently available.
    RESPONSE: Attached you will find a Job Opportunity Announcement 
report as of April 23, 2015. This report provides all open job 
opportunities at DHS, including the component, the position title/
series/grade, and open and close dates. Currently there are a total of 
542 open job opportunity announcements. Please note, more than one job 
announcement may be for the same position if they are posted via merit 
promotion and delegated examining (open to the public).
    The top five positions announced as of 4/23/15 are as follows:
          a. Transportation Security Officer
          b. Criminal Investigator
          c. Human Resources Specialist
          d. Information Technology Specialist
          e. Management and Program Analyst/Program Analyst

    I was not one of those Members of Congress who tried to 
hold up the Department of Homeland Security or shut it down. So 
part of your difficulty probably stems from the Congress itself 
causing you difficulty. And, hopefully, that won't happen 
again. I respect very much the work that your employees do.
    Let me say I represent the longest coastal district in the 
Great Lakes. I am in the lower Great Lakes, on Lake Erie, 
Cleveland, and Toledo. And I would warmly invite you to our 
region.
    Unlike Congressman Cuellar's region, the arrival of the 
Border Patrol was quite a historic moment for us. We have been 
adjusting to this with some difficulty. And I think, if you 
have a moment as you are flying over the country--we will take 
very good care of you--it will be great to have a meeting 
between yourself and not just your employees, but sheriffs and 
State patrolmen and chiefs of police in our region.
    The adjustments have been slow. They are coming. But I 
think they need some attention on the northern border. For 
example, we have check-in phones that are there for those who 
travel from Canada in vessels across the lake. I view those as 
a vulnerability. And I think it is important that the 
Department understand what is happening there.
    Number two, there are issues with shift differentials, how 
the CBP is staffed to receive vessels and aircraft. And some 
have told us that, because you can earn overtime on Sunday, the 
staffing tends to be higher on Sunday when the vessels aren't 
arriving and during the week there is a shortage of staffing.
    Also, there are severe salary differentials between local 
sheriffs and the police and the Homeland Security presence in 
the region. There are differences about where--the territory 
they are to explore, where the edges are.
    And I think it would be very important to have this 
discussion. So I am just inviting you at some point. I know you 
are extraordinarily busy, but I want to ask you to answer any 
of those issues.
    But we would greatly appreciate your Department's help in 
streamlining the process that integrates your services with our 
local law enforcement. We think that we are a very important 
part of the country. The Great Lakes have been kind of a nice 
warm bathtub for the world, and the necessity to patrol and so 
forth is fairly new to us.

                          VISA WAIVER PROGRAM

    My question really revolves around the visa waiver program. 
I am asking you to differentiate between the nations that are 
our friends, let's say, starting with the members of NATO, 
including Poland, Bulgaria, Romania, and Croatia.
    And as you look at that program and our relations with 
these countries, with Poland alone, if they were to be included 
in the visa waiver program, we would probably have an 
additional 600,000 additional travelers from that country and 
the other NATO countries in a year. I don't know the statistics 
being used to deny inclusion in the program there.
    But my question to you directly or for the record is: What 
is blocking the inclusion of NATO countries in our visa waiver 
program? Are you using a rejection rate within the home 
countries? Are you using an overstay rate? What can we do to 
treat these allies more respectfully?
    Secretary Johnson. Thank you for that question, ma'am.
    The qualifications for the visa waiver program are spelled 
out in statute. The principle qualification is the rejection 
rate, as I recall. For visa applications, it has to be below a 
certain number in order to qualify for the program. Last time I 
looked, I believe Poland did not qualify for that specific 
statutory criteria.
    Ms. Kaptur. I would appreciate, sir, if your Department 
could provide me with the actual regimen that is used to 
measure those decisions. And if we have to do something to take 
a relook at those four countries, surely Poland, which has been 
a member of NATO for quite a while now, I would appreciate it.
    Secretary Johnson. Sure thing. It is mostly in statute. And 
I know that there is also a legislative effort to broaden the 
parameters in something called the JOLT Act [Jobs Originating 
through Lauching Travel Act of 2013] that is pending in 
Congress right now.
    Ms. Kaptur. Thank you very, very much.
    And, again, thank you to all of your staff, those who are 
here today.
    I represent a very large Coast Guard station, more than 
one, actually, one that is the headquarters for the entire 
Great Lakes region, in Cleveland and in Toledo, and then our 
Border Patrol station in Ottawa County, which is new to us. And 
at Toledo, many Customs clearances go through there, and we 
have real issues out there with homeland security. So I hope 
you would accept my invitation.
    Secretary Johnson. Thank you, ma'am.
    Ms. Kaptur. Thank you.
    Mr. Fleischmann. Thank you.
    Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    Good morning.
    Secretary Johnson. Good morning.

           EMPLOYMENT CREATION IMMIGRANT VISA (EB-5) PROGRAM

    Mr. Young. Nice to have you here in front of us.
    There was an OIG report issued yesterday regarding the 
subject line ``Investigation into employee complaints about 
management of U.S. Citizenship and Immigration Services' EB-5 
Programs.''
    Have you had a chance to review that yet? Are you aware of 
it?
    Secretary Johnson. If you are referring to the one 
concerning the Deputy Secretary, yes, I have read it.
    Mr. Young. Mayorkas.
    Secretary Johnson. Yes.
    Mr. Young. Deputy Secretary Mayorkas.
    I am troubled by that report. Are you?
    Secretary Johnson. I believe that the report has some real 
lessons learned in it that I have spoken to the Deputy 
Secretary about.
    Mr. Young. Okay. What are those lessons learned? I would be 
curious to know what they are. Have you taken any actions with 
Deputy Secretary Mayorkas?
    Because what is seen here is pretty much a deviation from 
the norm and general practices. Out of 700 visa applications, 
your Deputy Secretary got involved in three. And of those 
three, they are pretty politically connected.
    You had former Pennsylvania Governor Ed Rendell, Senator 
Harry Reid, Virginia Governor Terry McAuliffe, Anthony Rodham, 
the brother of Hillary Rodham Clinton, calling in, pushing to 
get these applications approved. All politically connected. All 
lobbying Deputy Secretary Mayorkas. In all three cases, the IG 
said the applicants got what they wanted only because of 
Mayorkas intervening.
    Isn't that actually improper political influence? It sure 
looks like it.
    Secretary Johnson. Well, first of all, as Mr. Mayorkas 
himself spells out in his rebuttal, he received many inquiries 
about EB-5 applications, including from a number of Members of 
Congress on both sides of the aisle.
    There are three cases highlighted in the IG report, which I 
have read and which I have reviewed, that you referred to. And 
I believe that there are a number of things that can be drawn 
from the IG report that are useful.
    I have directed that a new protocol be put in place for EB-
5 cases and how we handle them and under what circumstances we 
should accept communications from outsiders with an interest in 
the process. And we get lots of them concerning EB-5, including 
from a number of your colleagues.
    And so I believe a new protocol is appropriate. I also 
believe that senior officials, such as Mr. Mayorkas, who at the 
time was director of CIS, need to be sensitive to the 
appearance that is created when we become involved in the 
normal course of our bureaucracy's----
    Mr. Young. He is smarter than that. I mean, come on. Being 
sensitive? Out of the 700, the three that he got lobbied on, 
the political networks there, he said okay. You have rank-and-
file employees at the Department of Homeland Security, from the 
bottom up, who are seething because of this.
    Secretary Johnson. Well, I don't know that he was lobbied 
on just three. I suspect he was lobbied on a much larger number 
from Republicans and Democrats. So let's not mischaracterize 
what actually happened here.
    I also believe that, to a degree, we should try to be 
responsive to the public we serve, including to their 
representatives in Congress. And so I get phone calls from your 
colleagues all the time about matters pending before my 
Department, and I am assuming that you would want me, to a 
degree, to try to be responsive to your constituents' concerns.
    I do believe that there is a balance to be struck, however, 
so that we avoid the appearance of impropriety and we avoid the 
suspicion of our subordinates. And I think that is a lesson to 
be learned from this report. And Mr. Mayorkas, I am confident, 
understands that now as well.
    Mr. Young. What are you trying to do to gain the confidence 
and trust back from all the whistle-blowers who flipped a red 
flag on this and who would only be interviewed by the OIG if 
their names and identities were kept quiet? That is how 
sensitive and that is how explosive I think this was and could 
become still. What are you doing to regain their trust?
    Secretary Johnson. I issued a directive yesterday to create 
a new protocol about the circumstances under which more senior 
officials become involved in EB-5 cases and the circumstances 
under which we should be accepting overtures and communications 
from people with an interest in the process, including Members 
of Congress.
    Mr. Young. You mentioned that two or three times. I 
understand.
    Secretary Johnson. Yes.
    Mr. Young. I appreciate your feedback. I just don't get it.
    You are not going to do anything with Deputy Secretary 
Mayorkas? He is going to stay where he is?
    Secretary Johnson. Deputy Secretary Mayorkas is a valuable 
member of our senior leadership team. He is working very, very 
hard in the public interest. He is working very hard to reform 
the management of our organization, improve morale, manage our 
management action group.
    He has been a valuable member of the team, definitely value 
added, and it would be a big loss to the men and women of our 
Department if he were not full-time fully engaged occupying his 
job. I believe that.
    I work with him daily. And I have read the report. I have 
read it very carefully. I believe he understands the lessons to 
be learned from it. And we need to move on.
    Mr. Young. So you think just a new protocol and directive 
is going to help regain the trust of the rank-and-file folks, 
those whistle-blowers, up and down the line?
    Secretary Johnson. No. I wouldn't say that. I think that we 
should make sure that the rank and file, not just in CIS, 
understands that we, as senior leaders, need to be above 
reproach, and appearances also do matter. So if that is the 
spirit of your question, I very much agree with that, sir.
    Mr. Young. Thank you for your time.
    I don't yield anything back. I'm sorry.
    Mr. Fleischmann. Very well. Thank you, sir.
    Mr. Price.

          CONTINUING RESOLUTION, SEQUESTRATION FY2015: IMPACTS

    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Glad to have you here and to hear 
of your plans for the coming year.
    We on this committee, I believe, have exemplified a kind of 
bipartisan support for the mission of the Department of 
Homeland Security,and I hope we can continue in that spirit.
    I have to say, though, that your agency, while it is one of 
the more widely supported agencies, has been buffeted as few 
others have by partisan whims emanating from this institution.
    In particular, you were held hostage for the first 3 months 
of the fiscal year to a partisan conflict over immigration 
enforcement. You subsisted for 3 months on a CR. And, 
fortunately, you are past that now.
    But I wonder what your reflections are on that. I know you 
briefly got into this in your opening statement. But I would 
like for you to reflect on what those 4 months, actually, were 
like for employees at DHS.
    What kind of delays? What kind of uncertainty? What kind of 
functions were you not able to undertake during that period? 
Are there lingering effects? Although that adventure is over, 
are there lingering effects that we should be aware of?
    And then a related topic, of course, is the looming threat 
of sequestration, either a bill marked up to sequestration 
levels or actually another round of sequestration if we don't 
manage to do at least a short-term budget agreement.
    What would you say about the impact that would have? And 
this time around, are there any kind of preemptive mitigating 
steps that you believe you should take?
    Secretary Johnson. All good questions, sir.
    Anytime the possibility of a government shutdown looms over 
working men and women who depend on a paycheck every 2 weeks, 
that can't be easy and it can't be helpful to morale and the 
efforts we are making to improve morale in the Department.
    As I said earlier, our men and women actually do depend on 
their paychecks. It is not easy to just simply say, ``Well, 80 
percent of you are going to have to come to work anyway. So 
what is the big deal?''
    Asking people to work without knowing of when and if they 
will ultimately get paid for the time they are working is a big 
deal for a lot of people, including people with medical issues 
who depend upon their paychecks.
    I hope that, now that we are fully funded, this uncertainty 
that was looming over us has passed and it doesn't have any 
lingering effects. I tried very hard to communicate to the 
workforce on a regular basis about what was happening here in 
Washington so that they could understand the possibility of a 
shutdown.
    I communicated optimism throughout the entire period, to 
say I think Congress will ultimately fund us. I thought it was 
important to be optimistic during that period of time. And, 
fortunately, Congress provided us a fully funded bill on March 
3. And I am very appreciative of that.
    As you know, sir, during the period we were on a CR, we 
couldn't fund a lot of our grant-making activity, which caused 
a lot of consternation in State and local law enforcement, 
State and local homeland security efforts. We were held to 
certain levels of spending.
    There were things that I needed to do and I wanted to do 
for border security, for the Secret Service, that were held up 
as a result of being on a CR. But those efforts are now under 
way.
    And we are doing the things we need to do, for example, for 
reforms of the Secret Service and hiring the additional Secret 
Service personnel for the presidential election cycle. We have 
a fully funded fiscal year 2015 that we couldn't do before.
    So I am worried about lingering effects. I am worried about 
the effects of uncertainty around sequestration. And I think it 
is incumbent on the leadership of my Department, including 
myself, to be informative to the workforce, let them know what 
is going on, but also communicate a sense of optimism.
    I continually tell our workforce about the importance of 
their work, the importance of our Homeland Security mission. It 
goes to national security, public safety, as well as homeland 
security.
    And I, too, am disappointed by the level of rancor around 
some of the issues we deal with. I mean, we are fundamentally, 
in my judgment, a national security agency. And national 
security should be bipartisan, non-partisan.
    And I think there still is a fair amount of bipartisan 
spirit around national security issues in Washington, and I 
would like to try to promote that.
    Mr. Price. Thank you, sir. I am out of time. I will have 
additional--I appreciate that answer. It is a good answer. And 
I hope we can take it to heart. I will have some additional 
questions for the record.
    I just briefly want to underscore the importance of one 
having to do with biosurveillance. That is something your 
Department, through NBIC, has been working on, through the 
National Collaborative for Bio-Preparedness, NCB-Prepared, 
utilizing realtime data from EMS, Poison Control, pharmacies, 
other sources, to quickly, quickly, identify potential public 
health crises. They would apply, of course, to deliberate 
attacks and, also, to developing epidemics and pandemics so we 
get realtime indications of what is developing.
    I know you are supporting that and moving along with it. I 
am going to want you to provide for the record an update on 
that effort and an indication of the kind of interactions you 
are having with other relevant agencies to bring that program 
along.
    Thank you, Mr. Chairman.

                         BIOMETRIC EXIT PROGRAM

    Mr. Fleischmann. Thank you, Mr. Price.
    Mr. Secretary, Congress required DHS to implement a 
biometric exit program to track foreign nationals entering and 
leaving the country and identify those who have overstayed 
their visas. The fiscal year 2016 budget requests an increase 
of $65.8 million to begin efforts to replace DHS's aging 
biometric system known as IDENT.
    The replacement of this system is necessary not only to 
implement the statutorily mandated biometric exit program, but 
also to ensure that DHS can continue to perform standard 
biometric checks to identify potential national security 
threats.
    My first question, sir, is: Can you please explain the 
importance of this system and the operational impact if it is 
not replaced. And at what point would the current system no 
longer continue to function?
    Secretary Johnson. I agree that the biometric exit program 
is an important goal, and I agree with the importance of the 
latest technology. I think that, given the global terrorist 
threat, monitoring the travel of individuals of suspicion 
between and among different countries is becoming all the more 
important.
    We have, as I am sure you know, the foreign fighter 
phenomenon. And so tracking those entering and leaving our 
country is becoming all the more important. I think we have 
made significant strides since September 11, 2001, in that 
regard through the efforts of CBP. But we need to go further.
    I don't have a precise date for you in terms of when the 
existing technology will no longer be functional. I will be 
happy to give you that for the record. But I agree fully with 
the spirit of your question about the importance of achieving 
the latest technology here.
    [The information follows:]

    Representative Fleischmann: My first question, sir, is: Can you 
please explain the importance of this system and the operational impact 
if it is not replaced. And at what point would the current system no 
longer continue to function?
    RESPONSE: IDENT system improvements funded in Fiscal Years (FYs) 14 
and 15 to address system constraints are expected to sustain IDENT 
through the FY 2016 to FY 2019 timeframe, assuming the replacement 
system achieves initial operating capability at the end of Increment 1 
as planned. Without a Replacement Biometric System, the legacy IDENT 
system will begin to experience system degradation FY 2016.

    Mr. Fleischmann. Thank you, sir.
    As Chairman Carter mentioned earlier in his opening 
statement, we are unlikely to be able to fund all $1.5 billion 
in increases requested in the fiscal year 2016 budget.
    What is the total estimated cost and schedule for the 
replacement of IDENT?
    Secretary Johnson. I can get back to you for the record.
    [The information follows:]

    Representative Fleischmann: What is the total estimated cost and 
schedule for the replacement of IDENT?
    RESPONSE: The replacement system is planned to be delivered in four 
Increments, with an estimated cost of $205.3M. Each Increment will take 
approximately eighteen months. With Increment 1 scheduled to begin in 
FY 2016, the total effort is expected to be completed in FY 2021.

   JOINT REQUIREMENTS FOR COAST GUARD-CUSTOMS AND BORDER PROTECTION: 
                                AVIATION

    Mr. Fleischmann. Okay. I have another question here.
    Mr. Secretary, the recently passed fiscal year 2015 DHS 
appropriations bill directed your Department to pursue joint 
aviation requirements for the Coast Guard and CBP. Further, the 
bill directed the Department to develop a flying hour program 
using the Coast Guard's program as a model.
    I see this as easy low-hanging fruit when discussing 
opportunities for jointness. What is the Department doing to 
address the need for commonality and for a new flying hour 
program for CBP so that both the Department and Congress can 
compare program costs across the Department?
    Secretary Johnson. The specific answer to that I will take 
for the record.
    But, again, this is part of our overall Unity of Effort 
Initiative so that we have joint requirements for things like 
the Coast Guard and CBP in terms of flying hours, aircraft, and 
that we not do things stovepiped. I think it achieves greater 
efficiencies for the taxpayer.
    But I will take that one for the record, if I can, please.
    [The information follows:]

    Representative Fleischmann: What is the Department doing to address 
the need for commonality and for a new flying hour program for CBP so 
that both the Department and Congress can compare program costs across 
the Department?
    RESPONSE: The DHS Chief Readiness Support Officer, together with 
CBP and the U.S. Coast Guard is developing a common approach to 
accounting for aircraft operating costs. This will enable a 
transparent, effective, comparison of program costs across the two 
components. The preliminary assessment was briefed to the House and 
Senate Appropriations Committee staff on June 3, 2015. We will keep the 
Committees informed on the progress and expect to finalize common 
flight hour program reporting requirements directive in fiscal year 
2016.
    Additionally, the Under Secretary for Management recently approved 
a Joint Operations Requirements Document (J-ORD) for maritime patrol 
aircraft missions systems, which has been adopted by CBP and USCG. The 
J-ORD will drive commonality in future aircraft mission system 
acquisitions and upgrades. The components have been tasked to submit a 
plan for how they will implement the J-ORD requirements by July 2015. 
The JRC strategic plan also supports the path forward on commonality 
for future helicopter acquisitions.

JOINT REQUIREMENTS FOR COAST GUARD-CUSTOMS AND BORDER PROTECTION: OTHER 
                                PROGRAMS

    Mr. Fleischmann. Yes, sir. That will be fine.
    As a followup, will the Department be reviewing additional 
CBP and Coast Guard programs for the potential of joint 
requirements, such as aircraft and vessel maintenance or even 
in the future common platforms?
    Secretary Johnson. I believe so, sir.
    Mr. Fleischmann. Very well.
    At this time I think I would like to recognize the ranking 
member, Ms. Roybal-Allard, for some more questions.

                    UNACCOMPANIED CHILDREN: MEXICAN

    Ms. Roybal-Allard. Mr. Secretary, as you know, 
unaccompanied Mexican children crossing the southern border are 
treated differently than children from Central America.
    Instead of a legal requirement that they be transferred to 
the custody of the Office of Refugee Resettlement, as is the 
case with Central American children, almost all Mexican 
children who cross the border are quickly repatriated.
    However, before Mexican children are returned, the 
Trafficking Victims Protection Act requires CBP to evaluate 
whether the child may be a victim of trafficking, whether the 
child has a fear of returning home, and whether the child is 
able to make an independent decision to return home. If DHS 
personnel are unable to make that determination, then they are 
treated like children from non-contiguous countries.
    I am concerned that, in practice, CBP may be simply 
repatriating Mexican children without allowing them to make an 
independent decision, as the law requires. And that is based on 
the fact that somewhere between--I believe it is 95 to 98 
percent of the children are returned.
    Can you tell us whether CBP is, first of all, fully aware 
of this law and whether they are, in fact, following the 
requirements of the Trafficking Victims Protection Act with 
respect to Mexican children and, if not, what will be done to 
address any deficiencies in enforcing this law.
    Secretary Johnson. I believe that they are aware of it. I 
certainly am very familiar with the provisions of that law, 
having looked at it extensively last summer when we were in the 
midst of considering amending that law.
    I do know that a return of a Mexican unaccompanied child 
requires that there be a choice made by the child. That is what 
the law says. And I would expect our personnel to be cognizant 
of that and sensitive to that. When you ask a minor to make a 
decision mandated by law, I think that there are certain things 
that have to go into that to ensure voluntariness. So I would 
expect, certainly, our CBP personnel to look into that and be 
sensitive to it.
    In the spirit of your question, I will also, for myself, 
inquire about what measures we employ to make sure that a 
decision by a minor, such as that, is one that we are satisfied 
is truly voluntary.
    Ms. Roybal-Allard. And, specifically, one of the concerns 
is whether CBP is actually the appropriate group that should be 
asking the children these questions or if it would be better if 
ORR did that. And I would like to maybe work with you and the 
Commissioner on that.
    Secretary Johnson. Okay.

                       DETENTION CENTERS, FAMILY

    Ms. Roybal-Allard. In addition to the influx of 
unaccompanied children last year, there was a rapid growth in 
the number of families crossing the border, usually mothers 
with one or more children.
    The Department responded by establishing a significant 
number of new family detention beds. In fact, the number of 
family detention beds will have gone from 85 at this time last 
year to what is expected to be more than 3,000 by the end of 
the year.
    I understand the rationale is that detention will serve as 
a deterrent for other families to make the dangerous trek from 
Central America up through Mexico. However, many of us are 
concerned about the prospect of so many families held in 
detention settings for extended periods of time.
    Are there better and less costly options that could be 
used, such as greater use of alternatives to detention? And is 
the real issue the speed at which a person's case is 
adjudicated before an immigration judge?
    Also, I also understand that a district court has imposed a 
preliminary injunction on the ICE policy of detaining families 
seeking asylum without consideration of releasing them on bond.
    Why did ICE have such a policy? What is the process for 
setting bond amounts? And can you respond to some complaints 
that I have heard that, even though ICE has begun offering bond 
to some families, the amounts set for bond is often too high 
for families to afford?
    Secretary Johnson. A couple of things.
    First, part of our budget submission includes, I think, 
$122 million for our alternatives-to-detention program. It 
remains the case, also, that the majority of family units that 
are apprehended at the border are bonded, released.
    We have increased the bed space for family units. It was 
only 85 last summer. We established Artesia. Now we have a more 
permanent facility.
    I believe that the expansion of the family unit space, 
frankly, was a good thing. Many people don't agree with it, but 
I believe it was a good thing. I think that the facility we 
have now at Dilley is better than the one we had at Artesia. I 
have been there myself; I have seen it. It is a residential 
center.
    And I think that what we did in expanding the family unit 
detention space and the capability there was important in our 
overall efforts to address the spike we saw last summer. And 
the spike dropped off pretty sharply beginning in about mid-
June, and the numbers are still low.
    This is the time of year they are going to creep up. They 
are going to creep up right now. They remain about 20 percent 
lower than they were this time last year, and I hope that that 
continues. And I think we, therefore, need to be prepared and 
maintain this capability for our overall border security 
efforts.
    You are correct about the lawsuit. We have sought 
reconsideration of that decision by the judge here in 
Washington, D.C. I think it is an important capability to 
maintain.
    I would note, also, that the injunction there went with 
regard to those who have asserted a credible-fear claim. So it 
is that class of individuals, those who have asserted a 
credible-fear claim. Ultimately, bond decisions are made by an 
immigration judge when there is a credible-fear assertion made.
    Ms. Roybal-Allard. Just for clarification, are you saying 
that these detention centers are preferable to alternatives to 
detention which are less costly?
    Secretary Johnson. No. I think it depends upon the--it 
depends upon individual circumstances. There are a large, large 
number of individuals who are apprehended who are released on 
bond, who are not detained, but I believe that it is important 
to have the capability to hold more than just 85 people. And I 
believe that that also contributes to our overall preparedness 
for dealing with border security on the southern boarder.
    Ms. Roybal-Allard. Thank you.
    Yield back.

                  ST. ELIZABETH'S HEADQUARTERS COMPLEX

    Mr. Fleischmann. Thank you.
    Secretary Johnson, the budget request includes $215.8 
million for continued construction of the St. Elizabeth's 
headquarters complex, sir. That is a lot of money to absorb in 
a period of fiscal constraint. And I understand the project 
won't be completed while this administration is in office.
    I have a few questions in that regard.
    Secretary Johnson. Right. Unfortunately, I will never work 
there. Correct.
    Mr. Fleischmann. What is the benefit of this project to the 
taxpayer, and will it save them money?
    Secretary Johnson. There are a couple benefits.
    One, I know from working at the Pentagon the value of 
having a common headquarters for all your components in a 
Cabinet-level department.
    Number two, the economic benefit to the taxpayer is greater 
efficiencies achieved in terms of all the different leasing 
arrangements we have around town right now.
    Number three, the request for $215 million in fiscal year 
2016 is larger than what we have for fiscal year 2015, but, if 
it is fully funded at that level, it will actually be cheaper 
in the long run and get us there on a quicker timetable. That 
is what I am told. I tend to believe that, and it makes common 
sense. The more fully you fund something, the less expensive it 
becomes in the long run because it is more efficient to get 
there quicker.
    I have been to the St. Elizabeth's campus now many times. I 
have walked the grounds. I have seen the virtue of being in a 
common space. Right now, we are spread across some 30 different 
locations, I think, in the Washington area.
    And there are a lot of shortcomings to our ability to carry 
out our mission in our current space, which was always intended 
to be temporary. There are a lot of things I simply cannot do 
and my staff simply cannot do in the space we are in right now, 
in terms of secure areas, in terms of telecommunications 
capability, and the like.
    And so I think this is a good project that needs to get 
done. And I think that funding us at that level of $215 million 
will achieve savings over the long run for the taxpayer.
    Mr. Fleischmann. It is my understanding that there has been 
a revised plan which is different from the original plan. Are 
the costs lower for the revised plan, sir?
    Secretary Johnson. The overall costs, as I understand it, 
are, in fact, lower, which is why we have asked for as much as 
we have in fiscal year 2016.
    Mr. Fleischmann. And it is also my understanding, Mr. 
Secretary, that over $1 billion has been spent by DHS and GSA 
on this project. Have the cost estimates been accurate, and 
have there been overruns, sir?
    Secretary Johnson. I suspect there have been overruns.
    That $1 billion, I believe, goes to the creation of the--
for the most part, the creation of the new Coast Guard 
headquarters at the same site. That is now completed. It is a 
nice facility. I know the Coast Guard is glad to be there.
    But, like many projects, it has taken longer to get there. 
It has been more expensive. And I think that this year's budget 
request is an effort to shorten the timetable and lessen the 
cost.
    Mr. Fleischmann. Is the project on schedule?
    Secretary Johnson. I don't believe it was--I don't believe 
it is conforming to the original schedule. I think the current 
schedule, if we get the funding we need for this year, will get 
us to completion in the year 2021. That is my recollection.
    Mr. Fleischmann. Okay.
    And one final question. How do you prioritize the $215.8 
million for this project over additional ships or critical 
maintenance at the Coast Guard?
    Secretary Johnson. Good question.
    In different economic circumstances, if we had a 
different--if we were trying to get to a lower top line, I 
would probably prioritize national security, maritime security, 
basic homeland security over a new headquarters.
    But we have a higher top-line request this year. The 
economy is improving. And so I think that a new headquarters, 
which we always intended to have for the Department of Homeland 
Security, is something that we should fund when we can. It is 
good in the long run, it achieves savings in our leasing 
arrangements, and it will improve our ability to pursue our 
mission.
    Mr. Fleischmann. Thank you, sir.
    At this time, I will recognize Mr. Cuellar.

                    UNACCOMPANIED CHILDREN: NUMBERS

    Mr. Cuellar. Thank you, Mr. Chairman.
    Mr. Secretary, we added some language in the appropriation 
bill, that we are going to ask that it be continued, on 
professionalism of your CBP officers. They do a great job, but 
sometimes they mistreat people coming across. Again, if it is a 
bad apple, you go after the bad apple, but we have to have some 
sort of professionalism.
    In the Laredo sector--and let me tell you, David Higgerson 
and Joseph, all those folks here, have just really done an 
outstanding job down there in the southern district. So I just 
wanted to say congratulations, and hopefully--I was with some 
of the San Diego folks. They want to implement that over there, 
and hopefully you all can implement that. And I really 
appreciate that. And, again, kudos to your folks down there in 
the south Texas area.
    Let me go back to the unaccompanied kids, and let me just 
add one more factor. And let me give you my perspective. Last 
year was a very difficult year for some of us who addressed 
that issue. I know it was very difficult for you. Folks on both 
sides were taking different positions.
    But I have to say--and I have told this--I think it was one 
of the reports from New York, whatever. I said you were very 
courageous under the pressure, and while some people were for 
it before they were against it--no names mentioned--you stood 
very firm on that. And I just have to say that. Because it was 
difficult for a lot of us on that issue.
    But one factor that I think I would like to remind 
everybody here is that, on kids going back to Mexico, there was 
an agreement that was signed between the U.S. Government and 
the Mexican Government that allows the Mexican consulates to 
play a role.
    So it is really not the CBP officer that makes that 
decision. They are handed over to the Mexican consulates; the 
Mexican consulates would then ask them the question. And they 
are very protective of their people. And they will say, "Sure 
you don't want to file for an asylum? You sure you are not a 
victim of a sex trafficking law?", et cetera, et cetera, et 
cetera. And then, at that time, if they feel satisfied, then, 
of course, they will hand them over to DIF, which is the social 
service of Mexico.
    So there is another component that involved there that we 
have to keep in mind, that there was an agreement that was 
signed between the U.S. and Mexico. So I just want to make sure 
you all keep following that agreement, where really the last 
say-so is by the Mexicans before, you know, that final decision 
is sent over.
    And we have a copy of the agreement, and we will--just want 
to make sure everybody understands there is that extra step 
there. Just ask you to follow that extra step with the Mexican 
Government that make that final decision.
    The unaccompanied kids, again, I have been looking at the 
numbers. And last month I think there was an average of 75 
unaccompanied kids. And you might have better numbers than I 
have. I am just looking at some numbers. At least down there in 
the valley, 75 a day--that is 75 unaccompanied kids a day. 
Multiply that by 30, and that will give you a pretty large 
number.
    That does not include, my understanding, family units, 
which are kids with a parent or a family member there. So if 
you add those numbers, you are talking about large numbers.
    Again, I understand, Mr. Secretary, it is nothing like we 
saw last year. But I think a while ago you said the 
unaccompanied kids are 20 percent lower?
    Secretary Johnson. It is about 40 percent lower----
    Mr. Cuellar. Forty percent.
    Secretary Johnson [continuing]. Than this time last year 
month to month.
    Mr. Cuellar. So give us some real numbers. What does that 
mean? I gave you the 75 a day.
    Secretary Johnson. Yeah. February 2015, across the southern 
border----
    Mr. Cuellar. Right.
    Secretary Johnson [continuing]. Apprehensions of 
unaccompanied children were 2,395.
    Mr. Cuellar. 2,395.
    Secretary Johnson. February of 2014, apprehensions across 
the southern border of unaccompanied children were 4,845.
    Mr. Cuellar. So you start talking about 2,400 for that 
month.
    Secretary Johnson. Yes. And my guess--my educated guess 
about March is that March will be higher, probably at around 
the 2,600 or 2,700 level.
    Mr. Cuellar. Okay.
    Secretary Johnson. March of 2014 for the unaccompanied kids 
was 7,176.
    If you look at January, January 2015, for unaccompanied 
kids, this year was 2,121. That is actually the lowest monthly 
number we have had in quite a while. January 2014 was 3,706.
    So, through the fiscal year, fiscal year 2015--and I have 
the exact numbers here. I would be happy to leave this with 
you.
    Mr. Cuellar. Yes. We would love to get a copy.
    Secretary Johnson. It is running about--for the kids, 
unaccompanied kids, it is running about 40 percent lower.
    I hope it stays that way, but we have to be prepared in the 
event it doesn't.
    Mr. Cuellar. Right.
    So, in total numbers, what are you talking for year 2015? 
Actual numbers. I know percentages. I am glad for the 
percentages, but what are we talking about? I know February was 
about----
    Secretary Johnson. Last year, 2014, the total number, 
including the Mexican UACs, I believe, was 68,000.
    Mr. Cuellar. Okay.
    Secretary Johnson. If you take out the--and I am doing this 
from memory now--if you take out the Mexican children, I 
believe the total number was about 58,000.
    I suspect, if it stays at the current rate, we will come in 
at around 60 percent of 68,000, whatever that number is.
    Mr. Cuellar. Okay.
    Secretary Johnson. But, again, I have more precise numbers 
right here. You can do the math yourself. I would be happy to 
leave this with you.
    Mr. Cuellar. So you are still talking about--and 
percentages are lower, but you are still talking about----
    Secretary Johnson. Thousands of people, yes.
    Mr. Cuellar. Yeah, yeah, thousands of people.
    Secretary Johnson. It is not hundreds.
    Mr. Cuellar. I am waiting for somebody to do the math for 
me on this. But it is still--let's say 30,000 individuals or 
maybe less than 30,000. It is still a lot.
    Now, does that UAC cover also family units?
    Secretary Johnson. No. That is a different number.
    Mr. Cuellar. Right. Which means that you got unaccompanied 
kids, and then the kids that come in with family units, that is 
another number. Can you give us roughly what are the numbers 
for fiscal year 2015?
    Secretary Johnson. January----
    Mr. Cuellar. Yes, sir.
    Secretary Johnson [continuing]. Family units across the 
southern border--when we talk about family units, we are 
talking about individuals in family units.
    Mr. Cuellar. Right.
    Secretary Johnson. For January, it was a total of 1,622. 
January 2014 was 2,286. February 2015, it was 2,043. February 
2014 was 3,281.
    And then the numbers last year, like the numbers for the 
unaccompanied kids, reached their peaks in the months of May 
and June. The high was 16,330 in June 2014. The high for the 
unaccompanied kids was June 2014; that was 10,620.
    Mr. Cuellar. All right. So, Mr. Secretary--and I think you 
are very good, you are very intelligent. So even though the 
numbers are down, we are still talking----
    Secretary Johnson. Not as intelligent as you think I am.
    Mr. Cuellar. It is a compliment.
    It is still thousands of kids and family units are still 
coming in.
    Secretary Johnson. Yes.
    Mr. Cuellar. I know your officers are doing a better job of 
managing that.
    Secretary Johnson. Yes.
    Mr. Cuellar. I am familiar with the Dilley.
    And for us that live on the border, it is a very simple 
question. Do you do catch and release? And a lot of times it is 
easier for folks that live away from the border. When you live 
on the border, you talk to your constituents. And when you talk 
about catch and release, it is a very sensitive issue. And I 
think you understand there.
    And as long as the Dilley facility treats people with the 
dignity and respect, no abuse in any way or form, I think that 
is something that we need to look at. And I am glad it is a lot 
closer to the border where the activity is at.
    I still agree with the ranking member that we need to look 
at alternative measures. But, again, for us that live on the 
border, for us that have constituents on the border, catch and 
release is a very sensitive issue that we just don't agree with 
the catch-and-release situation.
    Thank you, Mr. Secretary. Thank you. You have been very 
courageous. You really have. Last summer was tough for a lot of 
us.
    Secretary Johnson. Thank you.
    Mr. Fleischmann. Thank you, Mr. Cuellar.
    And I will note that the Secretary's document that he 
referred to will be made part of the record.
    Mr. Fleischmann. And, Mr. Secretary, I am fine with my 
questions, but I believe our ranking member, Ms. Roybal-Allard, 
has some followup.

                       DETENTIONS: ADJUDICATIONS

    Ms. Roybal-Allard. Yeah, I just want to follow up on the 
family detention beds issue. Because it is my understanding 
that another reason for a detention is that a detained person's 
case is adjudicated much more quickly before an immigration 
judge than those who are in an alternative detention.
    And it just seems to me that a better use of costly 
detentions would actually be to put more resources into having 
these cases more quickly adjudicated. And I don't know if you 
want to comment on that.
    Secretary Johnson. Well, that is something--we are looking 
at that exact issue right now, the time it takes to adjudicate 
a case where no credible fear is asserted and where a credible-
fear claim is asserted. I think it is generally true that the 
cases move faster if the person has not been bonded out. But if 
the cases are moving slower and the cases are moving slower, 
then there are fewer cases to handle.
    I think it is important to note that our budget request 
includes a request for additional attorneys. The DOJ request is 
a request for additional judges. So we would like the 
additional attorneys to go along with the additional judges so 
that we can move these cases more efficiently.
    Ms. Roybal-Allard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Fleischmann. Thank you.
    Mr. Secretary, I want to thank you being before us today 
and for answering our questions. And, again, I wish you success 
in all of your endeavors, sir.
    Secretary Johnson. Thank you, sir.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Carraway, Melvin.................................................    55
Clancy, Joseph...................................................     1
Johnson, Hon. J. C...............................................   225
Zukunft, Admiral P. F............................................   113










                               I N D E X

                              ----------                              

                                                                   Page
United States Secret Service (USSS)..............................     1

    Attrition....................................................    51
    Communications, Improving....................................    42
    Firing Process...............................................    43
    Hiring: Diversity............................................    51
    Missing and Exploited Children Investigations................    54
    Morale.......................................................    44
    Opening Statement: Director Clancy...........................     9
    Pope's Visit.................................................    42
    Professional Standards Report................................    46
    Protective Mission Panel:
        Hiring...................................................    53
        Recommendations..........................................    48
        Restructuring Staff......................................    49
        Training.................................................    50
        Zero-Based Budgeting.....................................    52
    Secret Service Tradition.....................................    52
    Training, Continual..........................................    45
    White House Incident:
        Accountability 
        Agent Protocols..........................................    26

Transportation Security Administration (TSA).....................    55

    Aviation Passenger Security Fee Increases....................    92
    Aviation Security Advisory Committee.........................    76
    Behavioral Detection and Analysis Program....................    72
    Ensuring Children Not Separated from Parents/Guardians.......    86
    Expedited Screening..........................................    92
    Transportation Security Officers, Female.....................    87
    Firearms:
        Seizures.................................................    79
        Smugglings by Airport Employees..........................    79
    International Partners, Relationship with....................    75
    Managed Inclusion............................................    80
    Morale.......................................................    84
    Opening Statement: Acting Administrator Carraway.............    59
    Perimeter Security...........................................    91
    Pre-Check Program............................................    71
    Prohibited Carry-On Items List...............................    74
    Public Perception............................................    86
    Rapiscan Backscatter.........................................    78
    Risk-Based Security 
U.S. Department of Homeland Security (DHS).......................   225
    Biometric Exit Program.......................................   279
    Coast Guard Budget...........................................   260
    Continuing Resolution, Sequestration FY 2015: Impacts........   278
    Cybersecurity................................................   256
    Detention Centers, Family....................................   282
    Detentions: Adjudications....................................   288
    Employment Creation Immigrant Visa (EB-5) Program............   276
    Enforcement Guidance.........................................   260
    H-2B Visa Program............................................   269
    Hiring Process...............................................   255
    Immigration Initiatives:
        Deferred-Action Applications.............................   264
        Deferred-Action Application Renewals.....................   272
        Progress.................................................   266
    Joint Requirements for Coast Guard-Customs and Border 
      Protection:
        Aviation.................................................   280
        Other Programs...........................................   281
    National Preparedness Grant Program..........................   263
    Opening Statement: Secretary Johnson.........................   239
    Priority Enforcement Program.................................   259
    Secret Service Incident......................................   261
    St. Elizabeth's Headquarters Complex.........................   284
    Trade........................................................   267
    Unaccompanied Children:
        Mexican..................................................   281
        Numbers..................................................   285
    Unity of Effort Initiative:
        Acquisition Process......................................   266
        Border Security..........................................   267
    Vacancies....................................................   273
    Visa Waiver Program..........................................   275

                                  [all]
</pre></body></html>
